<html>
<title> - PREPAREDNESS, RESPONSE, AND REBUILDING: LESSONS FROM THE 2017 DISASTERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


PREPAREDNESS, RESPONSE, AND REBUILDING: LESSONS FROM THE 2017 DISASTERS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2018

                               __________

                           Serial No. 115-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7
The Honorable Nydia Velazquez, a Representative in Congress From 
  the State of New York..........................................    33
The Honorable Stacey Plaskett, a Delegate in Congress From the 
  U.S. Virgin Islands............................................    34
The Honorable Jenniffer Gonzalez-Colon, Resident Comissioner, 
  Puerto Rico....................................................    39

                               WITNESSES
                                Panel I

Mr. William B. ``Brock'' Long, Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Major General Donald E. ``Ed'' Jackson, Jr., Deputy Commanding 
  General, Civil and Emergency Operations, United States Army 
  Corps of Engineers, Department of The Army, U.S. Department of 
  Defense:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. John V. Kelly, Acting Inspector General, Office of The 
  Inspector General, U.S. Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                                Panel II

Mr. Reed Clay, Chief Operating Officer, Office of The Governor, 
  State of Texas:
  Oral Statement.................................................    70
  Prepared Statement.............................................    72
Mr. Wesley Maul, Director, Division of Emergency Management, 
  State of Florida:
  Oral Statement.................................................    81
  Prepared Statement.............................................    83
Mr. Jose Melendez-Ortiz, Vice Chairman, Committee on Federal and 
  International Relations, and Status, Commonwealth of Puerto 
  Rico:
  Oral Statement.................................................    88
  Prepared Statement.............................................    89
Ms. Jeanne-Aimee De Marrais, Senior Director, Save the Children:
  Oral Statement.................................................    92
  Prepared Statement.............................................    93

                             FOR THE RECORD

The Honorable Stacey Plaskett, a Delegate in Congress From the 
  U.S. Virgin Islands:
  Letters........................................................    35
The Honorable Jenniffer Gonzalez-Colon, Resident Comissioner, 
  Puerto Rico:
  Letter.........................................................    40
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  List...........................................................    44

                               APPENDIX I

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Map............................................................   109

                              APPENDIX II

Questions From Ranking Member Bennie G. Thompson for Donald E. 
  ``Ed'' Jackson, Jr.............................................   111
Question From Honorable Nydia M. Velazquez for Donald E. ``Ed'' 
  Jackson, Jr....................................................   113
Questions From Chairman Michael T. McCaul for John V. Kelly......   114
Questions From Ranking Member Bennie G. Thompson for John V. 
  Kelly..........................................................   116
Questions From Chairman Michael T. McCaul for Reed Clay..........   117

 
PREPAREDNESS, RESPONSE, AND REBUILDING: LESSONS FROM THE 2017 DISASTERS

                              ----------                              


                        Thursday, March 15, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:39 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, Rogers, Perry, Ratcliffe, 
Donovan, Higgins, Rutherford, Estes, Bacon, Thompson, Jackson 
Lee, Langevin, Richmond, Keating, Payne, Vela, Watson Coleman, 
and Demings.
    Also present: Representative Velazquez; Delegate Plaskett; 
Resident Commissioner, Puerto Rico, Gonzalez-Colon.
    Chairman McCaul. Committee on Homeland Security will come 
to order. The committee is meeting today to examine the lessons 
learned from last year's disasters, including the preparedness 
response and recovery efforts for Hurricanes Harvey, Irma, and 
Maria, in order to better prepare for future disasters. This is 
also Administrator Long's first appearance before the Homeland 
Security Committee. Welcome, sir.
    I welcome the opportunity to learn more about your 
priorities and vision for the future of FEMA. I also see that 
we have members joining us today that are not on the committee. 
I ask unanimous consent that Resident Commissioner Gonzalez-
Colon, Congresswoman Velazquez, and Delegate Stacey Plaskett be 
allowed to sit at the dais and participate in today's hearing. 
Without objection, so ordered.
    I now recognize myself for an opening statement.
    This morning our committee has gathered to review our 
ability to prepare, respond, and rebuild, in the wake of the 
natural disasters of 2017.
    Before we begin, I would like to extend my heartfelt 
condolences to the victims of the recent bombings in my home 
city of Austin. These heinous attacks need to stop. No one 
should ever be afraid to open their front door and pick up a 
package. We will find out who is responsible for these murders 
and make sure they are brought to justice.
    While they are constant targets of foreign and domestic 
terrorists, cybercriminal gangs like MS-13 and human 
trafficking, today's hearing will focus on the dangers of 
natural disasters.
    In 2017, there were 65 major disasters declared. They 
included hurricanes that hit my home State of Texas, Florida, 
the U.S. Virgin Islands, and Puerto Rico. We also saw dozens of 
wildfires burn through thousands of acres and destroy 
everything in their path.
    After Hurricane Harvey hit Texas, I personally toured the 
devastated communities in my district, as well as the city of 
Houston. Days of punishing rain, rising rivers, and overflowing 
bayous wreaked havoc on much of the State.
    This destruction was horrifying. Roads were flooded, many 
homes were obliterated, and sadly, many people lost their 
lives. But as I witnessed the strength of the Texas spirit that 
was the positive. Many volunteers hopped into their boats to 
rescue people who were stranded on the rooftops or trapped in a 
vehicle. Others waded out into the murky waters filled with 
snakes and fire ants to save their loved ones or even to help a 
stranger.
    Texans helping Texans rose to the challenge and assisted 
one another during a very tough time. Strong coordination at 
the local, State, and Federal levels with FEMA and Army Corps 
of Engineers played a key role as well. I commend the efforts 
of the response in Hurricane Harvey.
    This kind of teamwork was also evident in Florida after 
Hurricane Irma. Unfortunately, Hurricane Maria completely 
shattered Puerto Rico. Even today much of the island is still 
struggling to recover. It is important that we learn from the 
lessons of each of these storms, so we are better prepared in 
the future.
    Natural disasters bring a lot of harm, but they also 
provide an opportunity to put our differences aside and work 
together. I am proud to say that both parties came together to 
pass a supplemental relief package that provided billions of 
dollars to the Disaster Relief Fund and the National Flood 
Insurance Program. It is always our goal to make sure FEMA has 
the resources and capabilities it needs before it is called 
into action.
    The first-ever comprehensive reauthorization of DHS that 
passed the House in July will strengthen our first responders 
and front-line defenders. I am encouraged that the Senate has 
finally taken action on this reauthorization bill, and I hope 
to have that passed soon and sent to the President.
    I would also like to personally thank each of today's 
witnesses for being with us here this morning. Shortly after 
Hurricane Harvey, I met with Administrator Long at FEMA's 
headquarters to receive a briefing during the initial recovery. 
While there I could see first-hand the dedication and 
professionalism of the men and women who sprung into action 
during that time of crisis.
    I am very grateful for their service and for the efforts 
and all of our partners at the Federal, State, and local level.
    With that I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 15, 2018
    This morning our committee has gathered to review our ability to 
prepare, respond, and rebuild, in the wake of the natural disasters of 
2017.
    Before we begin, I would like to extend my heartfelt condolences to 
the victims of the recent bombings in my home city of Austin.
    These heinous attacks need to stop. No one should ever be afraid to 
open their front door and pick up a package.
    We will find out who is responsible for these murders and make sure 
they are brought to justice.
    While the American people are constant targets of foreign and 
domestic terrorists, cyber criminals, gangs like MS-13, and human 
traffickers, today's hearing will focus on the dangers of natural 
disasters.
    In 2017 there were 65 major disasters declared. They included 
hurricanes that hit my home State of Texas, Florida, the U.S. Virgin 
Islands, and Puerto Rico. We also saw dozens of wildfires burn through 
thousands of acres and destroy everything in their path.
    After Hurricane Harvey hit Texas, I personally toured the 
devastated communities in my district, as well as the city of Houston.
    Days of punishing rain, rising rivers, and overflowing bayous 
wreaked havoc on much of the State. The destruction was horrifying. 
Roads were flooded and many homes were obliterated. Sadly, many people 
lost their lives.
    But I also witnessed the strength of the Texas spirit. Many 
volunteers hopped into their boats to rescue people who were stranded 
on their roof or trapped in a vehicle.
    Others waded out into murky waters filled with snakes and fire ants 
to save their loved ones or even a complete stranger.
    Texans helping Texans rose to the challenge and assisted one 
another during a very tough time.
    Strong coordination on the local, State, and Federal levels with 
FEMA and the Army Corps of Engineers played a key role as well. This 
kind of teamwork was also evident in Florida after Hurricane Irma.
    Unfortunately, Hurricane Maria completely shattered Puerto Rico. 
Even today much of the island is still struggling to recover.
    It's important that we learn from the lessons of each of these 
storms so we are better prepared in the future.
    Natural disasters bring a lot of harm, but they also provide an 
opportunity to put our differences aside and work together.
    I am proud to say that both parties came together to pass 
supplemental relief packages that provide billions of dollars to the 
Disaster Relief Fund and the National Flood Insurance Program.
    It is always our goal to make sure FEMA has the resources and 
capabilities it needs before it is called into action.
    The first-ever, comprehensive reauthorization of DHS that passed 
the House in July strengthens our first responders and front-line 
defenders.
    I am encouraged that the Senate has finally started to take action 
on this and I am hopeful a reauthorization of DHS will be sent to the 
President soon.
    I'd like to personally thank each of today's witnesses for being 
with us this morning. Shortly after Hurricane Harvey, I met with 
Administrator Long at FEMA's headquarters to receive a briefing during 
the initial recovery.
    While there I could see first-hand, the dedication and 
professionalism of the men and women who spring into action during a 
natural disaster.
    I am very grateful for their service and for the efforts of all of 
our partners at the Federal, State, and local level.
    I now recognize Ranking Member Thompson for an opening statement.

    Chairman McCaul. The Chair now recognizes the Ranking 
Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. To begin, 
today I would also like to express my condolences to the 
families of the victims of the recent Austin packaging 
bombings. My thoughts and prayers are with those who lost their 
lives, as well as the survivors.
    Turning to today's hearing, as you know, Mr. Chairman, we 
were originally scheduled to have FEMA Administrator Brock Long 
before this committee in November of last year. Unfortunately, 
you abruptly canceled the hearing after the Democrats invited 
the mayor of San Juan, Puerto Rico to testify about the effects 
of Hurricane Maria on her community.
    That troubling turn of events occurred shortly after 
Administrator Long publicly stated that he had filtered out the 
mayor a long time ago. I am not sure when it becomes acceptable 
to be dismissive of an official representing an American city 
devastated by a natural disaster.
    Next week marks 6 months since Hurricane Maria made 
landfall on Puerto Rico, sending the island into darkness and 
changing life for nearly 3.3 million Americans. Still today, 
thousands of Puerto Ricans, or 10 percent of the population, 
have yet to have power restored.
    The Puerto Rican economy continues to struggle as a result 
of the devastation to infrastructure, homes, and businesses. 
Hundreds of thousands of Puerto Ricans have moved to the 
mainland in the wake of the storm, perhaps never to return.
    So while I am pleased the committee is finally holding this 
important hearing, to say it is long overdue would be an 
understatement.
    The 2017 Atlantic hurricane season was among the most 
active on record with 17 named storms. Three major storms 
caused devastation in Texas, Florida, the U.S. Virgin Islands, 
and Puerto Rico. The response to those storms by the Trump 
administration was a study in contrast.
    After Harvey, President Trump tweeted, Texas, we are with 
you today. We are with you tomorrow, and we will be with you 
every single day after to restore, recover, and rebuild. 
President later visited the affected area just 4 days later. 
This is what Americans expect from the President and their 
Federal Government in the wake of disaster.
    Similarly, after Hurricane Irma struck Florida, President 
Trump tweeted, Just like Texas, we are with you today. We are 
with you tomorrow and we will be with you every single day 
after to restore, recover, and rebuild. Again, the President 
visited 4 days later, as it should be.
    But after Hurricane Maria devastated Puerto Rico and parts 
of the U.S. Virgin Islands, President Trump's words and actions 
were decidedly different. He tweeted: We cannot keep FEMA, the 
military, and the first responders who have been amazing under 
the most difficult circumstances in Puerto Rico forever.
    The President also said the government of Puerto Rico 
wanted everything to be done for them and accused officials of 
poor leadership. When he finally showed up in Puerto Rico 2 
weeks after the storm made landfall, he chucked rolls of paper 
towels at survivors.
    President Trump did not even bother to visit the U.S. 
Virgin Islands. For an American President to behave in such a 
way is beyond the pale. Keeping with the President's action, 
the Federal Government's response was decidedly different after 
each storm.
    FEMA had supplies and personnel pre-positioned before 
Hurricane Harvey made landfall on August 25 and shortly 
thereafter the Federal Government had more than 31,000 of 
Federal employees on the ground in support of the response.
    FEMA also provided 3 million meals and 3 million liters of 
water for Harvey survivors.
    Likewise for Irma, there were more than 40,000 Federal 
personnel, including 2,600 FEMA staff, on the ground just 
before the storm struck on September 10. FEMA also provided 6.6 
million meals and 4.7 million liters of water to the region in 
the days just after Irma made landfall.
    The Trump administration's response to Maria was far slower 
and smaller. Even weeks after the storm, there were only a 
fraction of the Federal personnel on the ground in Puerto Rico 
and the U.S. Virgin Islands as has been deployed to Texas and 
Florida.
    Food and water were in short supply. The Federal contracts 
to provide essentials like tarps and meals were botched, 
further slowing the response. Electrical outages to critical 
facilities like hospitals required doctors in Puerto Rico to 
perform life-saving surgery using the light of their cell 
phones.
    Doctors in the U.S. Virgin Islands saw the only hospital on 
St. Thomas badly damaged, rendering its medical floor and 
cancer treatment facility unusable. Despite the devastation, it 
took 43 days for President Trump to approve public assistance 
program disaster aid to Puerto Rico, quadruple the amount of 
time it took to approve such assistance to Texas and Florida.
    I understand the delay was due to the Trump 
administration's imposing conditions on this aid never before 
required of any community, a deal some have called the Puerto 
Rico Special.
    Meanwhile, the President found the time to spend several 
days at his Trump properties golfing, holding multiple 
fundraisers, fighting with NFL players about taking a knee 
during a game, and tweet about everything from fake news to the 
Russian hoax. That is not the kind of leadership the people of 
Puerto Rico or any American affected by disasters expect or 
deserve.
    Today I hope to hear from our first panel of witnesses 
about how the Federal Government is using funding approved by 
Congress to support response and recovery in communities hit by 
hurricanes, wildfires, and other recent disasters.
    I am particularly interested in hearing from Administrator 
Long about the lessons learned from these disasters and how 
FEMA can be a better prepared to respond in the future. For the 
witnesses on our second panel, I hope to hear your perspective 
on the Federal response and what we can do to support your 
recovery going forward.
    FEMA's mission is supposed to be helping people before, 
during, and after disasters. It is our job to conduct the 
oversight necessary to ensure the agency fulfills that mission, 
so I look forward to our discussion today.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 15, 2018
    We were originally scheduled to have FEMA Administrator Brock Long 
before this committee in November of last year. Unfortunately, you 
abruptly canceled the hearing after the Democrats invited the Mayor of 
San Juan, Puerto Rico to testify about the effects of Hurricane Maria 
on her community. That troubling turn of events occurred shortly after 
Administrator Long publicly stated that he had ``filtered out the Mayor 
a long time ago.'' I am not sure when it became acceptable to be 
dismissive of an official representing an American city devastated by a 
natural disaster.
    Next week marks 6 months since Hurricane Maria made landfall on 
Puerto Rico, sending the island into darkness and changing life for 
nearly 3.3 million Americans. Still today, thousands of Puerto Ricans, 
or 10 percent of the population, have yet to have their power restored. 
The Puerto Rican economy continues to struggle as a result of the 
devastation to infrastructure, homes, and businesses. Hundreds of 
thousands of Puerto Ricans have moved to the mainland in the wake of 
the storm, perhaps never to return.
    So, while I am pleased the committee is finally holding this 
important hearing, to say it is long overdue would be an 
understatement. The 2017 Atlantic hurricane season was among the most 
active on record, with 17 named storms. Three major storms caused 
destruction in Texas, Florida, the U.S. Virgin Islands, and Puerto 
Rico. The response to those storms by the Trump administration was a 
study in contrasts.
    After Harvey, President Trump tweeted, ``Texas: We are with you 
today, we are with you tomorrow, and we will be with you EVERY SINGLE 
DAY AFTER, to restore, recover, and REBUILD.'' President Trump visited 
the affected area just 4 days later. This is what Americans expect from 
the President and their Federal Government in the wake of disaster. 
Similarly, after Hurricane Irma struck Florida, President Trump 
tweeted, ``Just like TX, WE are w/you today, we are w/you tomorrow, & 
we will be w/you EVERY SINGLE DAY AFTER, to RESTORE, RECOVER, and 
REBUILD.'' Again, the President visited 4 days later, as it should be.
    But after Hurricane Maria devastated Puerto Rico and part of the 
U.S. Virgin Islands, President Trump's words and actions were decidedly 
different. He tweeted, ``We cannot keep FEMA, the Military & the First 
Responders, who have been amazing (under the most difficult 
circumstances) in P.R. forever!''
    The President also said the government of Puerto Rico wanted 
``everything to be done for them'' and accused officials of ``poor 
leadership.'' When he finally showed up in Puerto Rico 2 weeks after 
the storm made landfall, he chucked rolls of paper towels at survivors. 
President Trump did not even bother to visit the U.S. Virgin Islands. 
For an American president to behave in such a way is beyond the pale.
    In keeping with the President's actions, the Federal Government's 
response was decidedly different after each storm. FEMA had supplies 
and personnel pre-positioned before Hurricane Harvey made landfall on 
August 25 and, shortly thereafter, the Federal Government had more than 
31,000 of Federal employees on the ground in support of the response. 
FEMA also provided 3 million meals and 3 million liters of water for 
Harvey survivors. Likewise, for Irma, there were more than 40,000 
Federal personnel, including 2,650 FEMA staff, on the ground just days 
after the storm struck on September 10. FEMA also provided 6.6 million 
meals and 4.7 million liters of water to the region in the days just 
after Irma made landfall.
    The Trump administration's response to Maria was far slower and 
smaller. Even weeks after the storm, there were only a fraction of the 
Federal personnel on the ground in Puerto Rico and the U.S. Virgin 
Islands as had been deployed to Texas and Florida. Food and water were 
in short supply, and Federal contracts to provide essentials like tarps 
and meals were botched, further slowing the response.
    Electrical outages to critical facilities like hospitals required 
doctors in Puerto Rico to perform lifesaving surgery using the light of 
their cell phones. Doctors in the U.S. Virgin Islands saw the only 
hospital on St. Thomas badly damaged, rendering its medical floor and 
cancer treatment facility unusable.
    Despite the devastation, it took 43 DAYS for President Trump to 
approve Public Assistance Program disaster aid to Puerto Rico, 
quadruple the amount of time it took to approve such assistance to 
Texas and Florida. I understand the delay was due to the Trump 
administration imposing conditions on this aid never before required of 
any other community, a deal some have called the ``Puerto Rico 
special.''
    Meanwhile, the President found the time to spend several days at 
his Trump properties golfing, hold multiple fundraisers, fight with NFL 
players about taking a knee during games, and tweet about everything 
from ``fake news'' to the ``Russia hoax.'' That is not the kind of 
leadership the people of Puerto Rico, or any Americans affected by 
disasters, expect or deserve.
    Today, I hope to hear from our first panel of witnesses about how 
the Federal Government is using funding approved by Congress to support 
response and recovery in communities hit by hurricanes, wildfires, and 
other recent disasters. I am particularly interested in hearing from 
Administrator Long about the lessons learned from these disasters and 
how FEMA can be better prepared to respond in the future. For the 
witnesses on our second panel, I hope to hear your perspectives on the 
Federal response and what we can do to support your recovery going 
forward.
    FEMA's mission is supposed to be ``helping people before, during, 
and after disasters.'' It is our job to conduct the oversight necessary 
to ensure the agency fulfills that mission, so I look forward to our 
discussion today.

    Mr. Thompson. Mr. Chairman, you recognized two Members who 
are here, Ms. Plaskett and Ms. Velazquez, and I ask unanimous 
consent that they be allowed to give their statement at this 
time.
    Chairman McCaul. Yes. Yes, Without objection, so ordered. 
Other Members are reminded that statements may be submitted for 
the record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                             March 15, 2018
    Chairman McCaul and Ranking Member Thompson, thank you for this 
hearing that will engage Federal, State, and local witnesses regarding 
FEMA's disaster preparedness and response capabilities during the 
historic events of Hurricane Season 2017.
    I look forward to the testimony of today's witnesses.
    Panel I, The Honorable William B. ``Brock'' Long, Administrator, 
FEMA, U.S. Department of Homeland Security; Major General Donald E. 
``Ed'' Jackson, Jr., Deputy Commanding General for Civil and Emergency 
Operations, United States Army Corps of Engineers; and The Honorable 
John V. Kelly, Acting Inspector General, Department of Homeland 
Security (Democratic Witness).
    Panel II, Mr. Wesley Maul, Director, Division of Emergency 
Management, State of Florida; The Honorable Jose E. Melendez-Ortiz, 
Vice-Chairman, House Committee on Federal and International Relations, 
and Status, Puerto Rico House of Representatives; Mr. Reed Clay, 
Counselor and Chief Operating Officer, the Office of Governor Greg 
Abbott, State of Texas; and The Honorable Carmen Yulin Cruz Soto, 
Mayor, San Juan, Puerto Rico (Democratic Witness).
    The Hurricane Season of 2017 was both historic and horrific for 
residents of Texas, Louisiana, Florida, Puerto Rico, and the U.S. 
Virgin Islands.
    Harvey, Irma, Jose, and Maria took lives, damaged communities.
    Our National resolve must be firm in staying the course on the 
necessary work to rebuild and restore communities completely.
    I will speak on the needs and experiences of my Houston District 
and surrounding area, but I first want to speak to the tragic situation 
that occurred when our Nation failed to respond to the imminent and 
articulable threat posed by Hurricane Maria to the Island of Puerto 
Rico.
    Hurricane Maria slammed into Puerto Rico with 155 miles-per-hour 
winds with predictable catastrophic results that were compounded by a 
lack of follow-up work that should have considered the logistics of 
delivery of prepositioned supplies on the island being delivered to 
hard-hit areas in rural and mountain regions.
    There was not a resident on the island of Puerto Rico who was not a 
storm survivor and for this reason alone any plan to depend on local 
drivers to drive tractor trailers over damaged roads and failing 
infrastructure was not realistic.
    The delay in bringing in the military, which is the go-to agency 
for large-scale events, was too slow for the scope of Maria's damage to 
the island.
    The lack of planning to get to people who were without power and 
likely in danger of succumbing to illness and medication-dependent 
treatments like diabetes.
    The controversy over not having accurate official reports of storm-
related deaths, which are reported as 66, but credible investigations 
in to deaths put the figures on the death over 1,000 from Hurricane 
Maria.
    Following Hurricane Maria and the island-wide disruption in 
electric power led to granting a $20 million contract to a electric 
utility company that reportedly employed 3 employees in its small 
Colorado office, but later was dropped when it became public.
    Puerto Rico has the Nation's largest manufacturer of saline 
solution that is used routinely in hospitals around the Nation was shut 
down due to storm damage.
    A National shortage of saline was caused by the Hurricane Maria 
damage at the beginning of a peak in flu around the Nation.
    Hurricane Harvey left the Texas coast struggling with recovery 
following the largest housing disaster in our Nation's history.
                    hurricane harvey by the numbers
    Hurricane Harvey was a Category 4 storm that hit Texas on August 
25, 2017.
    Harvey made landfall along the Texas coast three separate times in 
6 days.
    The nine-county Houston metro area impacted by Hurricane Harvey 
covers 9,444 square miles, an area larger than five States, including 
New Hampshire, New Jersey, and Connecticut.
    Harris County, Texas covers 1,778 square miles, enough space to fit 
New York City, Philadelphia, Boston, Chicago, Seattle, Austin, and 
Dallas, with room still to spare.
    There was over 41,500 square miles of land mass impacted by 
Hurricane Harvey and the subsequent flooding that covered an area 
larger than the States of Connecticut, Massachusetts, New Hampshire, 
Rhode Island, and Vermont combined.
    Hurricane Harvey dropped 21 trillion gallons of rainfall on Texas 
and Louisiana, most of it on the Houston Metroplex.
    In September 2017, NASA's Jet Propulsion Laboratory reported that 
Hurricane Harvey's rainfall created 275 trillion pounds of water, which 
caused the crust in and around Houston to deform and sink nearly 2 
inches because of the weight.
    Harvey dropped 51.88 inches of rain near Cedar Bayou, the highest 
total ever recorded for a single U.S. weather event.
    At its peak on September 1, 2017, one-third of Houston was under 
water.
    At the peak on August 31, there were 34,575 evacuees in shelters 
across Texas.
    Hurricane Harvey is the largest housing disaster to strike the 
United States in our Nation's history.
    Hurricane Harvey damaged 203,000 homes, of which 12,700 were 
destroyed.
    In November 18,292 hotel rooms in over 1,500 hotels where still 
occupied by persons displaced by Hurricane Harvey.
    Thousands of others with severe damage to their homes are living 
with family or friends.
    A 889,425 people have registered for assistance with the Federal 
Emergency Management Agency.
    In October 2017, I requested and received a status report on 
Housing Assistance Claims from FEMA.
    At that time there were 270,000 applications for Housing Assistance 
in Houston and the surrounding area.
    There were systemic problems with:
  <bullet> staffing up with sufficient numbers of FEMA Claim 
        Inspectors;
  <bullet> insufficient notice to residents of storm damaged homes to 
        be able to meet FEMA Claim Inspectors at their property for an 
        assessment;
  <bullet> No use of social media to keep property owners informed 
        regarding progress to reach them for an inspection.
  <bullet> No ability to use housing options like Air-BNB, which could 
        accommodate Harvey-displaced persons who found shelter with 
        family members, friends, or strangers.
  <bullet> No ability to accept requests for assistance from more than 
        one claimant for each address--ignoring those multi-
        generational homes are a reality in Houston.
  <bullet> No grant program for small businesses who may not qualify 
        for a SBA Loan.
    On March 5, 2018, I held a Road to Recovery Town Hall meeting at 
Kashmere High School located in the 18th Congressional District.
    I thank you Administrator Long for providing FEMA participation in 
that important Town Hall meeting, FEMA Claims Experts to work one-on-
one with residents who were in need of assistance regarding claims 
denials or who may be in housing that is transitional, or temporary 
such as the case if you are living with family, friends, or in hotels.
    The Red Cross also participated in this important Town Hall to 
share their experience with working victims of Hurricane Katrina and 
Sandy during the long-term recoveries that took place following those 
disasters.
    Over 300 people attending that Town Hall to seek assistance in 
resolving FEMA claim application denials.
    This was only one neighborhood of the hundreds of neighborhoods 
impacted by Hurricane Harvey.
    We need to do more events of this nature to get help to those who 
are in need of assistance.
    In October 2017, there were 164,253 who were ineligible for 
assistance; 116,214 had claims denied because of insufficient damage; 
19,962 were ineligible because of possible duplication; 1,298 missed 
inspections, and 8,229 had not contact information on their FEMA 
Application.
    In Texas FEMA's role in disaster preparedness, and response was 
effective, but the long-term recovery is not moving at a pace that 
would assure that we are meeting the true need that exists.
       congresswoman jackson lee's efforts post-hurricane harvey
    Ten days following Hurricane Harvey, I introduced H.R. 3686, the 
Hurricane Harvey Supplemental Appropriations Act of 2017, that would 
provide nearly $174 billion to help those impacted by the storm and 
their communities to recover.
    H.R. 3686 was introduced with 44 original sponsors, who joined me 
in supporting funding for Texas Hurricane Harvey Recovery.
    The bill's $174 billion in funding provided by H.R. 3686 represents 
a comprehensive response commensurate to the challenge; specifically my 
legislation provides relief in the following amounts:
    1. Housing and Community Development Fund: $50 billion
    2. FEMA Disaster Relief Fund: $35 billion
    3. Army Corps of Engineers--Construction: $15 billion
    4. Flood Control and Coastal Emergencies: $13 billion
    5. Public Transportation Emergency Relief Program: $33 billion
    6. Small Business Disaster Loans Program: $2 billion
    7. Emergency Conservation Activities: $650 million
    8. National Oceanic and Atmospheric Administration: $321 million
    9. National Aeronautics and Space Administration: $50 million
    10. Legal Services Corporation: $10 million
    11. Army National Guard: $10 million
    12. Army Corps of Engineers--Civil Investigations: $150 million
    13. Coast Guard: $450 million
    14. National Park Service Historic Preservation Fund: $800 million
    15. EPA Environmental Programs and Management: $2.5 billion
    16. EPA Hazardous Substance Superfund: $7 million
    17. Leaking Underground Storage Tank Fund: $15 million
    18. State and Tribal Assistance Grants: $600 million
    19. Employment and Training Services: $100 million
    20. Public Health and Social Services Emergency Fund: $2.5 billion
    21. Airport and Airway Trust Fund: $90 million
    22. Federal-Aid Highways Emergency Relief Program: $6.5 billion
    I also introduce H.R. 3990, the Small Business Hurricane Harvey 
Recovery Grants bill to assist small businesses in their recovery 
following the storm to make sure that neighborhood businesses are able 
to recover along with the entire community.
   a new jackson lee bill to address fema disaster long-term recovery
    Administrator Long, I want to thank your staff for working with my 
Policy Director on the initial phase of my outline of a bill to address 
FEMA Disaster Long-Term Recovery, while ensuring that the important 
work of disaster response is improved upon.
    I will be introducing a comprehensive FEMA Disaster Recovery bill 
to address post-disaster long-term recovery challenges faced by 
individuals, families, business owners, as well as local and State 
governments.
    FEMA has done an exemplary job at disaster response.
    FEMA is invaluable for is ability to plan, coordinate, and execute 
very complex plans to meet the disaster response and mitigation needs 
of local and State governments through collaboration and cooperation 
among a broad range of Federal Government agencies.
    However, there is room for improvement in the area of long-term 
recovery.
    I have listened, and watched as thousands of residents, business 
owners, families, schools, and local governments have struggled to make 
it back from this disaster and I am committed to making sure that you 
have a partner for the long haul.
    My bill will address the need for councilors and advisors to 
support individuals, families, and small businesses through the use of 
a casework structure that seeks collaborations with State and local 
government offices, as well as, nonprofits to make sure that each 
survivor or victim of a designated Federal long-term disaster recovery 
effort as determined under the perimeters of my bill will be assigned a 
counselor who will work with them from the moment they seek assistance 
through each stage of the recovery process until they are back in their 
home or secure long-term housing after the storm or have been 
resettled.
    After all, we are all individuals, with unique disaster 
experiences, challenges, strengthens, and opportunities that makes 
recovery a collective and individual journey.
    My bill will use quantifiable measures to determine when a 
``Federal Declared Disaster Long-Term Recovery Project'' would be 
triggered.
    The bill would establish a means for local and State governments to 
be central to the decision-making process regarding the recovery of 
areas under their jurisdiction.
    Finally, my bill will assure that long-term recovery projects 
established under this FEMA Reform bill will have strict sunset 
provisions that are linked to the work related to long-term recovery.
    The big lesson from disasters that occurred in 2017 is that the 
Nation must be able to manage multiple catastrophic events at a single 
time.
    The bill that I will be introducing will speak to the experiences 
that many of you have shared with me.
                     other efforts to aid recovery
    I worked with the Chair and Ranking Member of the House 
Appropriations Committee to get funding to support a strong Texas 
Recovery effort at every opportunity.
    As the House considered Supplemental Appropriations bills H.R. 2266 
and H.R. 1892, I focused on making sure key provisions that would help 
those recovering from Hurricane Harvey were included.
                house supplemental appropriations bills
    In September 2017, the House passed a bill providing relief for 
Hurricane Harvey, H.R. 2266, the Additional Supplemental Appropriations 
for Disaster Relief Requirements Act, 2017.
    That bill provides:
  <bullet> FEMA: $18.67 billion to replenish the Disaster Relief Fund 
        (DRF) and assist the on-going Federal response to hurricanes;
  <bullet> $4.9 billion of this total is authorized for transfer to the 
        Community Disaster Loan program;
  <bullet> Flood Insurance: Cancels $16 billion in existing National 
        Flood Insurance Program (NFIP) debt, which will soon exhaust 
        all financial resources;
  <bullet> SNAP: Allows up to $1.27 billion in previously-appropriated 
        funding to be available for disaster-related nutrition 
        assistance in Puerto Rico; and
  <bullet> Wildfires: Provides $576.5 million for Federal wildfire 
        suppression.
              h.r. 1892 emergency disaster relief funding
    In February 2018, the House passed H.R. 1892, to provide additional 
appropriations of $89.3 billion in emergency supplemental 
appropriations to help States, communities, businesses, and individuals 
respond and recover from Hurricanes Harvey, Irma, and Maria, and the 
California wildfires.
    I worked to make sure that key provisions were included in H.R. 
1892, which were as follows:
    1. Authority to establish and implement a $1 billion pilot program 
        to provide small business disaster recovery grants, modeled on 
        H.R. 3930, the ``Hurricane Harvey Small Business Recovery 
        Grants Act,'' legislation I introduced on October 3, 2017 and 
        is co-sponsored by 16 Members of the House of Representatives.
    2. $75 million for the U.S. Army Corps of Engineers' Investigations 
        account, which is to be used in areas affected by Hurricanes 
        Harvey, Irma, and Maria, and can be used to finance the $3 
        million Houston-Area Watershed Assessment Study.
    3. This is a highly successful conclusion to the multi-year 
        struggle I waged to secure House approval of this project and 
        funding with the Jackson Lee Amendments to the Energy and Water 
        Appropriations Act for Fiscal Years 2016, 2017, and 2018.
    4. The bill also includes helpful legislative language to ensure 
        that in awarding CDBG-Disaster Relief funds to States, the 
        Secretary of HUD should to the maximum extent practicable award 
        grants to units of local government and public housing 
        authorities that have the financial and administrative capacity 
        to manage a grant awarded under the program.
    5. The bill also includes a provision for which I advocated 
        expressly providing that religious nonprofit organizations and 
        houses of worship have the same opportunity to qualify for 
        disaster assistance as their secular counterparts.
                     role of the federal government
    The Federal Government should not run every aspect of our lives--
but it is an umbrella on a rainy day--it is a shelter in a powerful 
storm.
    The Federal Government is help when no other source of help can 
meet the challenges of long-term recovery we may be facing is 
sufficient.
    Hurricane Harvey meets this test.
    I look forward to today's hearing.
    I yield back.

    Chairman McCaul. Just for the record, for the Members, the 
mayor of San Juan, Puerto Rico was invited to attend this 
hearing and unfortunately she could not make it today.
    Mr. Thompson. Well, she is actually in the hospital.
    Chairman McCaul. Yes, and that is why I said unfortunately.
    Mr. Thompson. Yes.
    Chairman McCaul. We are pleased to have two distinguished 
panels of witnesses before us today on this important topic. 
Our first includes the Honorable Brock Long, the administrator 
of the Federal Emergency Management Agency.
    Next we have Major-General Donald Jackson, deputy 
commanding general of the Civil and Emergency Operations at the 
United States Army Corps of Engineers, and finally, Mr. John 
Kelly, not the chief of staff but rather then-acting inspector 
general of the U.S. Department of Homeland Security.
    The witness' full written statements will be included in 
the record.
    The Chair now recognizes Administrator Long for his opening 
statement. Yes, sir.

STATEMENT OF WILLIAM B. ``BROCK'' LONG, ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Long. Chairman McCaul, Ranking Member Thompson, 
distinguished Members of the committee, it is an honor to be 
here before you in the spirit of improvement. I am here to talk 
about FEMA's I believe Herculean efforts to put forward 
response and recovery efforts to help millions of Americans. 
There is always room for improvement. I am the agency's worst 
critic by all means.
    I have been in this job 9 months and I realize that we have 
a long way to go, not just as FEMA but as a whole community. It 
is going to--disaster response and recovery the proper way has 
to be Federally-supported, State-managed, and locally-executed, 
and that is the model that we have got to put forward.
    I hope today to unveil a new strategic plan right here in 
this committee, not only to you but to the public today. I know 
that we have a slide that I would like to display, if possible, 
that I will break down here in a minute.
    To put this season into context by numbers is nearly 
impossible. The numbers are huge. What we went through, if you 
look at just Harvey, Irma, Maria, and the California wildfires, 
each one of these events could have been catastrophic in their 
own right, much less happening weeks, you know, in rapid 
succession.
    We estimate that roughly 47 million people were impacted by 
these events. That is 15 percent, 16 percent of the United 
States population. You know, 47 million people were forced to 
act to take a protective action, whether they were asked to 
shelter in place, evacuate, or whether they lost their home.
    It is a tremendous effort to help that amount of people in 
this country, and we have got a long way to go to improve.
    On the response side, the Federal Government's efforts to 
coordinate search-and-rescue teams can be credited with saving 
9,000 lives. There were thousands and thousands more saved at 
the local level by first responders and State responders and 
neighbor helping neighbor.
    On the recovery side, just to put this into context, we 
registered 4.7 million people into our individual assistance 
processes to help kickstart recovery. I can't make people 
whole, but what we can do is put forward an assistance to help 
kickstart their recovery.
    That number is more than Hurricane Katrina, Sandy, Wilma, 
and Rita combined and packed into 3, 4, or 5 months in that 
time period. Today, we still get 13,000 calls a day for 
assistance that this agency is trying to work through and 
process.
    We learned a lot of lessons. We learned that we have got to 
work with our private-sector partners to build redundant and 
resilient communications backbones so that we don't lose 
communications and the ability to communicate with one another, 
not only as responders but to our citizens during the response.
    We have got to streamline a Federal Government-fragmented 
recovery process. Aid comes down from 17 different agencies. It 
is confusing. Governors and mayors don't know what they are 
entitled to and how to use it for the greatest good. I am 
willing to take the approach to help Congress formulate a more 
streamlined approach.
    We also have to fix the housing. I am going to ask you for 
support to help me fix housing and give more granting 
authorities to Governors going forward to give Governors to put 
them in this--to give them more control to understand how to 
help their communities recover from housing missions and not 
just have it solely on FEMA's shoulders.
    There is nothing more important than the trained emergency 
manager. We have implemented 4,700, roughly, local hires. We 
have hired roughly 1,300 of the best and brightest Puerto 
Ricans to help us go through the response and recovery. 
Technically I might be one of the largest employers over the 
next couple months within the commonwealth.
    We are training them to be emergency managers. We are 
creating a backbone of emergency management that did not exist 
before the storm, not only for the commonwealth but for the 78 
municipalities. The same thing is being done for the Virgin 
Islands and other States as well.
    We have to invest more in pre-disaster mitigation to reduce 
the impacts of what we just saw. We have got to put more money 
up front rather than on the back end. It makes no sense the way 
we do that in this country.
    We have to simplify processes. I have had numerous 
conversations with many of you about things that get in the 
way. This agency had to perform 2.3 million home inspections. 
Put your mind around that for a minute. It takes a lot of 
people to perform that many. It is a slow, cumbersome process 
that slows recovery down.
    I am asking to do away with the majority of the inspection 
process and use technology and trust the disaster survivor 
rather than set up risk-averse systems to protect solely for 
fraud that draws the system out.
    Going forward, the strategic plan, we asked our 
constituents to--and I asked specifically what do you want FEMA 
to be good at? Where do you want us to be? What do we need to 
do? How do we need to get there?
    We reached out to our State and local partners. We reached 
out to nongovernmental organizations. We got 2,300 comments 
back. As a result, we did a trend analysis and we developed 
three major goals that my agency is going to strive for going 
forward. We are asking other agencies involved at the State and 
local levels to also embrace this as a unified approach.
    We have to have a unified approach going forward in 
disaster response and recovery. The three goals are: One, we 
don't have a true culture of preparedness in this country. Our 
citizens are not prepared. We have to realistically design 
approaches to get them to be financially ready. We have to get 
them to be--we have got to teach them tangible skills like CPR 
again, and go back to the old civil defense days of being 
ready.
    We also have to do more pre-disaster mitigation. We have to 
close the insurance gap. Far too many people are uninsured or 
underinsured and that is not right. Those who are insured will 
recover a lot quicker than those that are not. Help me overcome 
this problem.
    The second goal is ready the Nation for catastrophic 
disasters. We are not ready for the load and no-notice big 
events like the New Madrid earthquakes or nation-state threat. 
We have a lot of work to do. I am asking for help.
    What I am going to be asking for is we have to have 
commodity contracts, for example, the ability to do water, 
food, and MREs or hygiene kits in place at all levels of 
government. If you are expecting FEMA to do it, that is not a 
sound plan.
    I am wanting to move my staff out of the agency offices in 
our regional offices and headquarters and I want to put them 
and embed them every day with State and local agencies and move 
out so that I can be part of the conversation every day.
    Not just being seen in the response and the recovery round, 
but I want to be seen every day planning, training, exercising, 
and executing together.
    Finally, the third goal, reduce the complexity of FEMA. As 
I said, I am my own worst critic. I know we have to to 
streamline some processes, specifically we have got to 
streamline the disaster survivor process. We have to streamline 
the disaster grantee and subgrantee process, and that takes a 
lot of work.
    Ultimately, I am asking for your help. I am committed to 
leading FEMA to ultimately help prepare this Nation and make it 
more resilient. Thank you.
    [The prepared statement of Mr. Long follows:]
            Prepared Statement of William B. ``Brock'' Long
                             March 15, 2018
                              introduction
    Good morning, Chairman McCaul, Ranking Member Thompson, and Members 
of the Committee. My name is Brock Long, and I am the administrator of 
the Federal Emergency Management Agency (FEMA). I'd like to thank you 
for the opportunity to discuss the historic disaster season of 2017, 
the lessons we've learned, and my plans for the future of FEMA.
    I have been in office for just over 8 months, and I am proud to be 
part of an agency that, every day, is helping communities reduce the 
risks associated with future disasters, as well as assisting disaster 
survivors all across the country. Shortly after I was sworn in, 
Hurricane Harvey struck Texas and Louisiana. Then, Hurricane Irma swept 
through the Caribbean, striking the U.S. Virgin Islands, Puerto Rico, 
Georgia, South Carolina, the Seminole Tribe of Florida, and the entire 
State of Florida. Hurricane Maria followed, striking a devastating blow 
to the U.S. Virgin Islands and Puerto Rico. These hurricanes were 
followed by devastating wildfires and mudslides in California.
    My team at FEMA has been working around the clock for more than 6 
months to support the needs of the survivors of these disasters. We 
have worked tirelessly to support State, local, Tribal, and territorial 
(SLTT) partners to respond to and recover from disasters, and to 
mitigate against future disasters. We have faced and overcome many 
challenges, but we have a long way to go in some areas. In my testimony 
today, I would like to share with you some of our experiences in recent 
months, the lessons we are learning in this historic time, my strategic 
vision for the future of FEMA, as well as the next steps FEMA is taking 
to prepare for disasters.
                      2017 hurricane season review
    Last year's historic hurricane season was a true test of the 
Nation's ability to respond to and recover from multiple concurrent 
disasters. Three major hurricanes--Harvey, Irma, and Maria--made 
landfall along the Gulf Coast, in the Southeast, and in Puerto Rico and 
the U.S. Virgin Islands. The impacts of these storms, in addition to 
the California wildfires, cannot be overstated. Roughly 47 million 
people were affected by these events--roughly 15 percent of the entire 
U.S. population.
    In order to deliver disaster assistance to such a large and 
dispersed number of survivors, FEMA worked in concert with our Federal 
partner agencies, SLTT governments, and also non-governmental 
organizations (NGO) and the private sector to ensure a unity of effort 
that serves the needs of disaster survivors.
    In disaster response operations, FEMA's sole focus is saving lives 
and protecting property. We train, exercise, and evaluate our planning 
assumptions with our SLTT partners. We make plans based on the best 
information we can gather from the public and private sectors about the 
impacts that different types of threats may have on a community or 
region. We know that no disaster ever goes according to our plans, so 
we must adapt to the circumstances as they develop. It is not possible 
to successfully respond to the impact of a major hurricane without 
errors. But our goal is to ensure that any errors that occur are a 
result of overestimating need, not underestimating it. It is easy to 
forget that in addition to Hurricanes Harvey, Irma, and Maria, we also 
had two other major hurricanes threaten our Nation--Hurricanes Jose and 
Nate. While Jose never made landfall, we had to plan and prepare for it 
in case it did. Nate did make landfall, striking Alabama and 
Mississippi in the Gulf Coast resulting in Major Disaster Declarations 
in each State.
    At FEMA, we are constantly reviewing our program delivery, 
decision-making processes, and responses to ensure that we improve, 
minimize errors, and better serve survivors on their worst day. We also 
are eager to work with Congress and this committee in its oversight 
capacity to determine if legislative changes are required, and to 
ensure that we are executing our programs consistent with Congressional 
intent. We have learned, and will continue to learn, from this historic 
disaster season.
                            lessons learned
Federally-Supported, State-Managed, Locally-Executed
    Some lessons we learn are not new to us, but an affirmation of 
lessons learned in the past. For example, the optimal disaster response 
is Federally-supported, State-managed, and locally-executed. This 
concept is well-known throughout the emergency management community, 
but this season provided a good case study in why this is important.
    All disasters are local, and local governments respond to an untold 
number of disasters every year. When the resources required to respond 
to a disaster exceed local capacity, the local government will call 
upon neighboring jurisdictions to bring in the additional resources 
needed. Local governments can, and periodically do, turn to county or 
State governments for additional resources.
    When a Governor or Tribal leader turns to the President requesting 
Federal assistance, and the President agrees to activate Federal 
resources to support a disaster-stricken State, Tribe, or territory, 
the Governor or Tribal leader continues to support the local 
governments impacted by the disaster. Congress has provided FEMA 
authorities and resources to support Governors and Tribal leaders, but 
not to supplant them or the local leaders.
    FEMA's ability to provide support in disasters builds on, and is 
subject to, the capacity of State, territorial, Tribal, and local 
governments. This is not a new lesson or challenge, but one that we are 
constantly reminded of. If the State, territorial, Tribal, and local 
governments are well-resourced, well-trained, and well-organized, the 
effectiveness of FEMA's assistance is great. If, on the other hand, a 
State, territorial, Tribal, or local government is not well-resourced, 
well-trained, and well-organized--either due to ineffective 
preparations or due to the significance of the disaster itself--FEMA 
can help, but the response may not be as quick or as effective as we 
would like it to be.
Survivable and Redundant Communications
    In order for FEMA to support the needs of any Governor effectively, 
the capability gaps at all levels of government must be communicated 
effectively to FEMA. We saw in Puerto Rico after Hurricane Maria that 
their communications infrastructure was so completely devastated that 
assessing the needs and the capability of the Commonwealth and local 
governments was extremely difficult.
    In Puerto Rico, little of the communications infrastructure 
survived the hurricane. FEMA quickly worked to ensure that each of the 
78 municipalities in Puerto Rico got access to satellite phones so that 
they could communicate with the Commonwealth that was co-located with 
FEMA. Communication with satellite phones has limitations, so FEMA 
began placing personnel in each of the municipalities to further 
enhance communications between the Commonwealth, local governments, and 
FEMA.
    While these communications challenges were the result of a major 
hurricane, we need to plan for what survivable communications look like 
in the context of the potential for a Cascadia or New Madrid earthquake 
scenario, or other catastrophic events. We, as a Nation, have more work 
to do in this area.
Disaster Sheltering and Housing
    The aftermath of the 2017 hurricane season leaves no doubt that 
survivor housing is a major challenge. Regardless of the readiness of a 
State, territorial, Tribal, or local government, when dealing with the 
displacement of tens of thousands of survivors from their homes, there 
is no easy or one-size-fits-all solution.
    There are many community-based and National non-profit 
organizations that do outstanding work in providing temporary 
sheltering options for survivors, in order to help survivors have a 
safe place to stay while they catch their breath and consider next 
steps in the recovery process. Additionally, FEMA has authorities to 
provide for sheltering options including the Transitional Sheltering 
Assistance (TSA) program that pays for survivors to stay in hotel 
rooms, as well as a program that provides for basic and temporary home 
repairs to make a home safe and habitable while the survivor makes 
arrangements for more permanent repairs. Any sheltering option is, by 
design, a temporary, short-term solution, designed to be a bridge to 
middle- and longer-term solutions.
    We have other programs and authorities that assist with temporary 
housing: Rental assistance, multi-family lease program, mobile housing 
units, and others. Additionally, we provide survivors assistance with 
repairing a damaged home including financial assistance for repair, and 
direct assistance for temporary repairs that help return survivors to 
their homes.
    With all of these options, we partner with our SLTT stakeholder to 
identify the sheltering and housing solutions that make most sense for 
each State, each event, each community, and each survivor. The State of 
Texas, for example, is taking a very hands-on approach to managing 
housing solutions for their residents after Hurricane Harvey. States 
have a much better familiarity with the needs of their residents, the 
local laws and ordinances that can impact some of the FEMA housing 
options, and are much better situated to design and administer to the 
survivors in their communities. The provision of shelter and temporary 
housing is a complicated and difficult process that needs more work. 
Regardless of the tools we are able to provide, however, permanent 
housing solutions are best addressed by insurance. As we know, though, 
there are too many people in our Nation that are underinsured or not 
insured at all.
                          strategic priorities
    Throughout this challenging hurricane and wildfire season, I have 
seen many practices, programs, and ideas put to test that no intra-
agency brainstorming session could accomplish. These experiences have 
informed my Strategic Plan moving forward, to: (1) Build a Culture of 
Preparedness; (2) Ready the Nation for Catastrophic Disasters; and (3) 
Reduce the Complexity of FEMA.
Build a Culture of Preparedness
    FEMA is just one part of the team. During a disaster, citizens in 
the impacted communities also become the ``first responders.'' We need 
to empower individuals with life skills to help speed the response and 
recovery efforts.
    Do they know how to shut off water and gas? Do they check on their 
neighbors? Do they know CPR? Are they financially prepared to deal with 
the impacts of disasters in their communities, including having the 
right insurance for the disasters they face--be they flood, 
earthquakes, tornadoes, etc.? Do they have some modest level of savings 
to allow them to miss a few days of work without ending up in financial 
ruin?
    Developing resilient communities ahead of an incident reduces loss 
of life and economic disruption. When communities are impacted, they 
should ensure that they rebuild infrastructure better, tougher, and 
stronger to protect taxpayer investment and promote economic stability.
    FEMA is exploring ways to encourage additional investments in 
mitigation that reduce risk, including pre-disaster mitigation, to help 
reduce disaster costs at all levels.
    While we'll never be able to eliminate risk, we must mitigate risk. 
FEMA will work with communities and insurers to close the insurance gap 
across the Nation. Managing risk through insurance, including the 
National Flood Insurance Program, helps communities to recover faster 
following disasters and reduces costs for taxpayers.
Ready the Nation for Catastrophic Disasters
    We can't just continue to plan, train, and exercise for what's 
easy. We need to prepare for catastrophic events that stress our 
logistics, supply chain, continuity of operations, communications, and 
staffing capacities--just to name a few.
    Meanwhile, communities must increase their capacity to respond to 
smaller-scale disasters--locally. We will continue to work with our 
State, territorial, Tribal, and local partners to increase their 
capacities to respond and recover from smaller-scale disasters so FEMA 
and its Federal partners can focus some more on readiness for 
catastrophic events. We need to ensure we're not just ready for 
catastrophic hurricanes, but also for other natural disasters and 
hybrid threats.
    I am placing members of the FEMA team in State emergency operations 
centers to jointly plan with States to build this catastrophic 
capability.
Reduce the Complexity of FEMA
    FEMA is committed to simplifying our processes and putting 
survivors first. We must look at ways we can streamline our assistance 
programs to make FEMA's programs as clear and easy as possible for 
survivors and grantees to navigate.
    I have charged my staff with reducing administrative and 
bureaucratic burdens, so that survivors and communities receive 
assistance more quickly. Throughout the Federal Government, there are a 
number of programs that offer assistance to survivors. We are working 
with our partners to streamline and consolidate some of these 
activities to ensure survivors can better navigate our various 
programs.
    FEMA employees must have transparency and clarity in the processes 
and resources they deal with. We can't implement any of these 
priorities and initiatives without ensuring that they meet the needs of 
our survivors. We also need to make sure that we continue to capture 
lessons learned by FEMA and our partners to meet the needs of survivors 
with disabilities and others with access and functional needs.
    These are my priorities, and this is my vision. As we examine and 
develop these priorities, we will find that some can be accomplished by 
existing authorities Congress has already provided to us. There will be 
some challenges, however, that cannot be solved by administrative 
action alone. As we identify those, we will work closely with this 
committee and the rest of Congress to ensure we move forward in close 
partnership. All of you have constituents that may one day need FEMA 
assistance. I look forward to working with you on our shared goal to 
help people before, during, and after disasters.
                               next steps
    As we continue with recovery operations resulting from recent 
disasters, FEMA is also focused on making sure we are as prepared as 
possible for the upcoming hurricane season. For example, the National 
Level Exercise (NLE) 2018 will occur in May. This exercise will examine 
the ability of all levels of government, private industry, non-
governmental organizations, communities, and individuals to respond to 
and recover from a major hurricane with localized catastrophic impacts. 
A series of seminars, workshops, and tabletop exercises are being 
developed to address key functional topics. Recent real-world events 
will help make NLE 2018 a more realistic, relevant exercise, and help 
ensure we are well-prepared for the 2018 hurricane season, and beyond.
    NLE 2018 consists of four overarching exercise objectives: Pre-
landfall protective actions; sustained response in parallel with 
recovery planning; continuity in a natural disaster; and power outages 
and critical interdependencies.
    As we do before every hurricane season, we are reviewing our 
hurricane response plans and procedures, updating our high-priority 
National-level contracts, and enhancing our disaster response 
capabilities (for example, FEMA is adding 300 new emergency generators 
to our inventory).
    Also, thanks to action taken by Congress, FEMA now has new 
authorities given to us in the Bipartisan Budget Act of 2018 to further 
support the Nation's response and recovery efforts prior to the 
upcoming hurricane season.
    For example, in Puerto Rico and the U.S. Virgin Islands, FEMA may 
provide Public Assistance funding for critical services to replace or 
restore systems to industry standards without restrictions based on 
their pre-disaster condition. The law further allows FEMA to provide 
assistance for critical services to replace or restore components of 
the facility or system that are not damaged by the disaster when it is 
necessary to fully effectuate the replacement or restoration of 
disaster-damaged components to restore the function of the facility or 
system to industry standards.
    Recognizing the importance of mitigation, Congress also included a 
provision that directs FEMA to provide hazard mitigation assistance for 
recipients of Fire Management Assistance Grants in Fiscal Years 2017 
and 2018. The law also codified FEMA's recent policy change to make 
houses of worship eligible for Public Assistance repair and replacement 
assistance.
                               conclusion
    This last year's hurricane and wildfire season was and is historic, 
and is shaping the future of FEMA and emergency management. My 
priorities are to build a culture of preparedness, ready the Nation for 
catastrophic events, and reduce the complexity of FEMA. I ask this 
committee and Congress for your continued support as we undertake these 
efforts.
    Thank you for the opportunity to testify, and I look forward to any 
questions you may have.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman McCaul. Thank you, Administrator.
    The Chair now recognizes Major General Jackson.

   STATEMENT OF MAJOR GENERAL DONALD E. ``ED'' JACKSON, JR., 
  DEPUTY COMMANDING GENERAL, CIVIL AND EMERGENCY OPERATIONS, 
UNITED STATES ARMY CORPS OF ENGINEERS, DEPARTMENT OF THE ARMY, 
                   U.S. DEPARTMENT OF DEFENSE

    General Jackson. Chairman McCaul, Ranking Member Thompson, 
distinguished Members of the committee, thank you for the 
opportunity to testify today.
    The Corps conducts emergency response activities under two 
basic authorities: The Stafford Act and Public Law 84-99. Under 
the Stafford Act, we support FEMA under the National response 
framework as the lead Federal agency for emergency support 
function through a public works and engineering.
    ESF-3 provides temporary emergency power, temporary 
roofing, debris management, infrastructure assessment, critical 
public facility restoration, and temporary housing. Under Pub. 
L. 84-99, we plan, prepare for, and recover from disasters in 
coordination with local, State, and Federal partners.
    When disasters occur, Corps teams and other resources are 
mobilized from across the command to assist local offices with 
their response to the event. As part of this mission, the Corps 
has more than 50 specially-trained teams supported by emergency 
contracts which perform the wide range of ESF-3 support 
missions.
    The Corps uses pre-awarded contracts that can be quickly 
activated for missions, such as debris removal, temporary 
roofing, and generator installation.
    This year, the Corps has supported FEMA-led Federal 
response and recovery operations in support of multiple events, 
including wildfires in California and Hurricanes Harvey, Irma, 
and Maria. Two of our divisions are currently fighting seasonal 
flooding along the Ohio and Mississippi Rivers today and their 
tributaries.
    The Corps was given three mission assignments by FEMA in 
support of southern California wildfires and mudslides. Debris 
removal is complete in 10 of 11 debris basins and channel 
reaches across six cities. We expect this to be complete by the 
end of April.
    The Corps was given 7 mission assignments by FEMA in 
support of northern California wildfires. Eigty-five percent of 
private property debris removal and remediation is complete in 
Lake, Mendocino, Napa, and Sonoma Counties. We expect this to 
be complete by the end of March.
    The Corps was given 27 mission assignments by FEMA in 
support of Hurricane Harvey response and recovery. This 
includes missions in all six ESF-3 mission areas, to include 
navigation restoration under our Pub. L. 84-99 authority. 
Temporary housing, critical public facilities, and debris 
management support is on-going.
    The Corps was given 46 Irma-related mission assignments and 
39 Maria-related mission assignments by FEMA. This included 
missions, again, in all 6 ESF-3 mission areas, to include 
navigation restoration, levee and dam safety under our 84-99 
authority.
    As of this morning, the Corps has completed over 2,100 
temporary generator installations in the Caribbean, including 
180 in the U.S. Virgin Islands and over 1,900 in Puerto Rico.
    The mission is complete in the U.S. Virgin Islands with 890 
generators still installed at critical facilities across Puerto 
Rico. Under FEMA authority, we continue to assist Puerto Rico 
with operation and maintenance of critical non-Federal 
generators across the island.
    And 5 of 9 1-2 megawatt microgrids installed in support of 
power grid restoration in Puerto Rico remain in service today. 
This includes one in Vieques. We expect the temporary power 
mission to end mid-May.
    The Corps has completed over 78,000 temporary roofing 
installations, including over 13,000 in Florida, over 3,600 in 
the U.S. Virgin Islands and over 59,000 in Puerto Rico. 
Missions in Florida and the U.S. Virgin Islands are complete 
and we have less than 300 remaining to complete in Puerto Rico. 
We expect to be complete by the first week of April.
    Corps debris subject-matter experts provided technical 
assistance to Florida and Georgia in response to Hurricane 
Irma. In the U.S. Virgin Islands, debris removal is 94 percent 
complete with final pickup scheduled today for St. Thomas and 
St. John.
    In Puerto Rico, debris removal is 92 percent complete. Our 
debris teams are actively working in 38 municipalities with 
debris removal complete in 17 municipalities. We expect to be 
complete with all debris removal and disposal by mid-June.
    The Corps worked closely with officials in Texas and 
Florida to manage local flood control reservoirs during periods 
of unprecedented rainfall. In Puerto Rico, Corps dam and levee 
teams inspected 17 priority dams and worked closely with the 
Puerto Rico Electric Power Authority, or PREPA, to stabilize a 
spillway failure at the Guajataca dam.
    On 30 September the Corps was given a FEMA mission 
assignment under Stafford Act authority to assist the 
commonwealth in conducting emergency repairs to the power gird 
itself. Unlike our ESF-3 mission areas, the Corps did not have 
pre-awarded contracts to use for this effort. Instead, we 
competitively awarded contracts for temporary power generation, 
line repair, and logistic support and transportation required 
to support the mission.
    This included acquiring over $283 million in materiels 
critical to the restoration effort, many with unique 
specifications for the Puerto Rican grid. The Corps is 
partnering with PREPA in this effort and have energized almost 
92 percent of customers thus far.
    In coordination with FEMA, PREPA, and the commonwealth, we 
have begun to gradually right-size our contracted work force. 
The demobilization of Corps line repair contractors will be 
complete late April. Remaining work will be turned over to 
crews under the control of PREPA.
    The Corps will continue to operate turbines at Palo Seco 
and Yabucoa through late April as PREPA completes repairs to 
the plants at these sites. Remining materiels will be used to 
complete grid repairs and replenish depleted inventories on the 
island through mid-May.
    The Corps remains committed and capable of executing its 
other civil works activities across the Nation despite our 
heavy involvement in these on-going response and recovery 
operations. We also remain ready and poised to assist in future 
events as they may occur.
    This concludes my testimony, and I look forward to 
answering any questions you might have. Thank you.
    [The prepared statement of General Jackson follows:]
   Prepared Statement of Major General Donald E. ``Ed'' Jackson, Jr.
                             March 15, 2018
    Mr. Chairman and distinguished Members of the subcommittee: I am 
honored to testify before you today to discuss the authorities and 
responsibilities of the U.S. Army Corps of Engineers (Corps) during 
disaster response and recovery operations. I am Major General Ed 
Jackson, Deputy Commanding General, Civil and Emergency Operations, 
U.S. Army Corps of Engineers (Corps).
    The Corps conducts its emergency response activities under two 
basic authorities: The Stafford Disaster and Emergency Assistance Act 
(Stafford Act); and Public Law 84-99, 33 U.S.C. 701n as amended (Public 
Law 84-99). Under the Stafford Act, we and other Federal agencies 
support the Federal Emergency Management Agency (FEMA) under the 
National Response Framework (NRF). In this capacity, the Corps is the 
lead Federal agency for Emergency Support Function 3 (Public Works and 
Engineering), but works under FEMA's direction. ESF-3 provides 
Temporary Emergency Power, Temporary Roofing, Debris Management, 
Emergency Infrastructure Assessment, Critical Public Facility 
Restoration, Temporary Housing, Demolition/Structural Stabilization, 
and support to FEMA Command and Control Nodes/ESF-3. Under Public Law 
84-99, we prepare for disasters through planning, coordination, and 
training with local, State, Federal partners; and by assisting State 
and local entities in implementing advance measures to prevent/reduce 
storm event damages. After the emergency event, Public Law 84-99 
authorizes the Corps to repair damage to authorized Corps projects, and 
work with States/municipalities to rehabilitate and restore eligible 
non-Federal flood infrastructure to pre-storm conditions.
    When disasters occur, Corps teams and other resources are mobilized 
from across the country to assist the local Corps districts and offices 
respond to the event. As part of this mission, the Corps has more than 
50 specially-trained response teams, supported by emergency contracts, 
to perform the wide range of public works and engineering-related 
support missions I just described. Additionally, the Corps uses pre-
awarded contracts that can be quickly activated for missions such as 
debris removal, temporary roofing, and generator installation.
    2017 Hurricane Season.--With regard to hurricane activity, 2017 was 
an unusually active season. The Corps was, and continues to be, 
involved in the FEMA-led Federal response and recovery operations in 
support of multiple events, including Hurricanes Harvey, Irma, and 
Maria.
    Hurricane Harvey.--On August 25, 2017, Category 4 Hurricane Harvey 
made landfall along the central Texas coast near Rockport, Texas, 
between Port Aransas and Port O'Connor and the President approved an 
Expedited Major Disaster Declaration for Texas. Large amounts of 
rainfall fell across the greater Houston metropolitan area causing 
record flooding. FEMA has identified $126 million in Mission 
Assignments for the Corps to assist in Hurricane Harvey response and 
recovery. Currently, the Corps has 130 Corps employees deployed to 
support recovery mission assignments.
    Temporary Emergency Power.--The Corps completed its temporary 
        emergency power mission assignment in Texas by completing 45 
        generator installations over the course of the mission.
    Temporary Housing.--In the 31 disaster-impacted Texas counties, an 
        estimated 9,300 applicants are eligible for temporary housing. 
        Corps Technical Monitors (TMs) are inspecting approximately 400 
        haul and install unit installations a day and certifying 
        approximately 150 Mobile Housing Units (MHUs) as Ready for 
        Occupancy per week. To date, the Corps has assessed over 3,300 
        private sites (homeowner property) and over 1,200 commercial 
        mobile home parks. Corps Group Site personnel have assessed 
        more than 330 potential group site locations and continue to 
        assess sites as directed by FEMA.
    Debris Management.--Debris teams led by Corps subject-matter 
        experts continue to provide State and county officials with 
        technical assistance in defining requirements and monitoring 
        debris removal and disposal operations in 10 counties.
    Hurricanes Irma and Maria.--Category 5 Hurricane Irma made landfall 
over the U.S. Virgin Islands on September 6, 2017, while also impacting 
Puerto Rico with Category 2 winds, 12-foot storm surge and up to 20 
inches of rain. Hurricane Irma made landfall in southern Florida/
Florida Keys on September 9, 2017. Soon thereafter, Category 5 
Hurricane Maria made landfall over Puerto Rico on September 20, 2017, 
causing major damage to critical infrastructure and homes. FEMA has 
identified over $3 billion in Mission Assignments for the Corps through 
ESF-3 to assist in Hurricanes Irma and Maria response and recovery (46 
Mission Assignments totaling $177 million for Hurricane Irma and 39 
Mission Assignments totaling $2.91 billion for Hurricane Maria). 
Currently, the Corps has over 840 personnel deployed in various 
locations supporting the recovery missions.
    Temporary Emergency Power.--As of March 8, 2018, the Corps and its 
        contractors have executed 1,955 of 2,092 taskings received (for 
        temporary generators) in Puerto Rico and 1,779 generator 
        installations; the Corps is continuing to support this line of 
        effort. The Corps and its contractors concluded its temporary 
        emergency power mission assignment in the U.S. Virgin Islands 
        on February 20, 2018; the Corps installed 180 generators during 
        this mission. Fifteen generators remain installed and are 
        managed under a FEMA contract to provide additional stability 
        to critical facilities in the U.S. Virgin Islands.
    Temporary Roofing.--In order for the Corps and its contractors to 
        install temporary covering (blue roof), the Government and its 
        contractors require validated rights of entry. The Corps 
        completed its temporary roofing mission assignment in Florida 
        with 13,370 blue roofs installed. In the U.S. Virgin Islands, 
        the Corps installed 3,658 blue roofs over the course of the 
        mission. As of March 8, 2018, in Puerto Rico, the Corps and its 
        contractors have completed 59,292 blue roof installations and 
        collected over 60,683 rights of entry.
    Debris Management.--As of March 8, 2018, the Corps has removed 
        approximately 822,000 cubic yards of the estimated 870,000 
        cubic yards of debris in the U.S. Virgin Islands and 3.54 
        million cubic yards of the estimated 3.9 million cubic yards of 
        debris in Puerto Rico. In Florida and Georgia, Corps debris 
        subject-matter experts provided technical assistance to 
        counties across Florida and Georgia in response to Hurricane 
        Irma.
    Dam and Levee Safety, Assessments, and Response.--In Puerto Rico, 
        Corps Dam and Levee teams inspected 17 priority dam locations 
        and Guajataca Dam was the only site deemed in critical 
        condition. Hurricane Maria caused a significant rise in the 
        water level of the dam, and resulted in flow in the spillway. 
        The spillway structure was compromised and the surrounding area 
        began to erode, posing immediate risk to several thousand 
        residents. Corps teams placed over 500 Jersey barriers and over 
        1,300 super sand bags to cease any further erosion and allow 
        for long-term repair of the spillway. Additionally, the Corps 
        teams cleared existing outflow conduits and placed piping and 
        pumps to further reduce the water level in the dam to safe 
        levels. Under a FEMA mission assignment, the Corps is in the 
        process of contracting for six additional interim risk 
        reduction measures including grouting spillway slabs and 
        stabilizing intake slopes to reduce risk during Puerto Rico's 
        wet season with a completion date for all of this work in July, 
        2019. The Corps has no authority for permanent repairs at the 
        project.
    Power Restoration Mission.--On September 30, 2017, the Corps was 
        given a FEMA Mission Assignment, within the authority of the 
        Stafford Act, to assist the Puerto Rico Electric Power 
        Authority (PREPA) in further repairing the power system to its 
        pre-storm condition. Our priority is to safely restore reliable 
        power to the people of Puerto Rico as quickly as possible. As 
        of March 8, 2018, 90.7% (1.34 million of 1.47 million) of 
        customer meters are energized. The Corps has over 1,600 
        contractors working alongside PREPA and mutual aid utility 
        companies to restore power to Puerto Rico. The Corps of 
        Engineers, alongside PREPA and FEMA will continually evaluate 
        the remaining work in order to achieve our goals of restoring 
        electricity to 95% of customers on the island by March 31, 
        2018. In support of this line of effort, through the Defense 
        Logistics Agency as its contracting agent, the Corps has 
        executed the procurement of over $204 million of materials 
        required in the restoration the power grid.
    The Corps remains fully committed and capable of executing its 
other Civil Works activities across the Nation despite our heavy 
involvement in these on-going response and recovery operations. We also 
remain ready and poised to assist in future events as they may occur. 
This concludes my testimony and I look forward to answering any 
questions you might have. Thank you.

    Chairman McCaul. Thank you, General.
    The Chair now recognizes Mr. Kelly for his statement.

STATEMENT OF JOHN V. KELLY, ACTING INSPECTOR GENERAL, OFFICE OF 
  THE INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kelly. Chairman McCaul, Ranking Member Thompson, and 
Members of the committee, thank you for inviting me to discuss 
FEMA's preparedness and response capabilities to the 2017 
hurricanes, as well as my office's oversight efforts.
    First, I would like to applaud the dedicated women and men 
who quickly answered the call, rolled up their sleeves and 
began the difficult work to help the people affected by three 
major hurricanes. Harvey, Irma, and Maria made landfall within 
4 weeks of each other.
    According to NOAA, these storms rank as 3 of the 5 most 
expensive storms in U.S. history, making the 2017 hurricane 
season the costliest season in U.S. history. This even topped 
the 2005 season that included Hurricane Katrina.
    In response to the unprecedented disasters in Texas, 
Florida, and Puerto Rico, the OIG deployed staff from our local 
offices as well as other auditors, analysts, and criminal 
investigators from around the country. OIG staff on the ground 
creates an independent unit that oversees disaster response and 
recovery activities, detects and alerts FEMA of systemic 
problems, helps ensure accountability over Federal funds, and 
identifies potential risks and vulnerabilities that provide 
stakeholders with timely information to address operational 
challenges.
    The presence of our criminal investigators ensures 
stakeholders that DHS and OIG is an integral part of the 
Department of Justice's zero tolerance policy. Our 
investigators work in partnership with the Justice's National 
Center for Disaster Fraud to receive complaints and identify 
trends. They also actively participate with local task forces 
established by the U.S. attorneys.
    Finally, they brief FEMA and multi-jurisdictional task 
forces on fraud, waste, and abuse. It is disappointing, but 
disasters often result in an uptick in fraud.
    In fiscal year 2017, we received more than 4,800 FEMA-
related hotline complaints. In the first 5 months of fiscal 
year 2018, we received over 14,600 hotline complaints. That is 
more than triple the total amount we received in 2017.
    From these complaints we initiated already 220 
investigations of Hurricane Harvey, Irma, and Maria issues. 
These numbers continue to grow every day.
    For the 2017 hurricane season, FEMA faced both situational 
challenges caused by the magnitude of the disasters and 
systemic challenges that have persisted over time. Responding 
to three major hurricanes at one time is difficult.
    In 2017, the response was further complicated by Hurricanes 
Irma and Maria devastating the Caribbean islands of Puerto Rico 
and the Virgin Islands, which are remote and not easily 
accessible locations. This poses additional logistical 
challenges to an already taxed response work force.
    To further complicate matter, much of the infrastructure 
was already in disrepair prior to the damages caused by the 
hurricanes.
    In addition to the situation challenges, FEMA faces 
persistent systemic vulnerabilities such as improper 
procurement practices, duplication of benefits, inadequate 
staffing, grant management issues, privacy vulnerabilities, 
protecting survivors' home and property from further damages, 
and providing funds to high-risk entities.
    If left unmitigated, these challenges could delay survivor 
recovery and put billions of Federal dollars at risk.
    To this end, we have issued several lesson-learned reports 
addressing FEMA's disaster preparedness and response to 
recovery efforts. This work highlights on-going concerns that 
FEMA must address to ensure it effectively meets its mission 
and improves efficiency and effectiveness of program 
operations.
    Looking forward, the challenges identified during the 
recent disasters highlight the importance of proactive and 
thorough oversight, as well as continuing improvement of FEMA 
in executing its mission. As agents of positive change, we have 
over 30 on-going and planned reviews and strive to make 
recommendations that improve FEMA's efficiency and 
effectiveness, positively affect disaster survivors, and 
safeguard public funds.
    Mr. Chairman, this concludes my oral statement. I welcome 
any questions you or Members may have.
    [The prepared statement of Mr. Kelly follows:]
                  Prepared Statement of John V. Kelly
                             March 15, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me here to discuss lessons learned 
from the 2017 disasters. I am pleased to have the opportunity to share 
our office's oversight efforts in response to Hurricanes Harvey, Irma, 
and Maria.
    We applaud the dedicated women and men of the Federal Emergency 
Management Agency (FEMA) who quickly answered the call, rolled up their 
sleeves, and began the difficult and critical work to help the people 
of Texas, Louisiana, Florida, Georgia, Puerto Rico, the U.S. Virgin 
Islands, and elsewhere.
    For our office, the first order of business in response to the 
unprecedented disasters was to deploy auditors and investigators to 
FEMA's Joint Field Offices (JFOs) in Texas, Florida, and Puerto Rico. 
We quickly deployed staff from our local field offices as well as other 
auditors, analysts, and criminal investigators from around the country. 
Having OIG staff on the ground serves multiple purposes: We serve as an 
independent unit for oversight of disaster response and recovery 
activities, to detect and alert FEMA of systemic problems, and to help 
ensure accountability over Federal funds. Our deployment activities are 
focused on identifying potential risks and vulnerabilities and 
providing our stakeholders with timely, useful information to address 
emerging challenges and on-going operations.\1\
---------------------------------------------------------------------------
    \1\As the committee is aware, our office recently recalled and 
removed from our website 12 reports that resulted from prior early 
deployment activities. This action was taken in an abundance of caution 
after an internal review revealed that the reports may not have 
adequately answered objectives and, in some cases, may have lacked 
sufficient and appropriate evidence to support their conclusions. We 
understand that you may have concerns about this action, and I look 
forward to answering any questions you may have.
---------------------------------------------------------------------------
    Additionally, the presence of our criminal investigators at the 
JFOs serves to assure stakeholders that the OIG is an integral part of 
the Department of Justice's (DOJ) position that it intends a ``zero 
tolerance'' policy with respect to disaster-related fraud and other 
crimes. They work in partnership with the DOJ-led National Center for 
Disaster Fraud to receive complaints regarding fraud and other illegal 
activity and identify trends and systemic issues. Our investigators are 
also actively participating on the local Disaster Fraud Task Forces 
established by the U.S. Attorney's Offices in the affected areas. 
Finally, we brief FEMA management and multijurisdictional taskforces on 
fraud, waste, abuse, and mismanagement issues unique to the disaster 
recovery process.
    We plan to continue these efforts--and others that I describe 
below--throughout the year as FEMA addresses the situational challenges 
brought on by the 2017 hurricane season, as well as systemic challenges 
that have persisted over time.
          the 2017 hurricane season: unique and unprecedented
    Three major hurricanes--Harvey, Irma, and Maria--made landfall in a 
4-week time period during August and September 2017. These storms now 
rank as three of the five most expensive in U.S. history, according to 
the National Oceanic and Atmospheric Administration (NOAA).\2\ This 
makes the 2017 hurricane season the costliest in U.S. history, topping 
even the 2005 season, which included Katrina, Rita, and Wilma. 
According to NOAA statistics, each of the 2017 storms was record-
breaking in its own right:
---------------------------------------------------------------------------
    \2\  Damages from Harvey are estimated at $125 billion; Maria's 
damages are estimated at $90 billion; and Irma's at $50 billion.
---------------------------------------------------------------------------
  <bullet> Hurricane Harvey produced 60.58 inches of rainfall in Texas, 
        the most ever recorded in the continental United States from a 
        tropical cyclone;
  <bullet> Hurricane Irma was the strongest storm on record to exist in 
        the Atlantic Ocean outside the Gulf of Mexico and the 
        Caribbean; and
  <bullet> Hurricane Maria was the strongest hurricane to make landfall 
        in Puerto Rico since 1928.\3\
---------------------------------------------------------------------------
    \3\ https://coast.noaa.gov/states/fast-facts/weather-
disasters.html.
---------------------------------------------------------------------------
    This confluence of events brought with it unique situational 
challenges.
    One of the chief challenges in a post-disaster environment is the 
vulnerability for fraud and abuse. Unfortunately, there are those that 
wish to profit from disasters, turning survivors into victims. Our 
office works closely with the National Center for Disaster Fraud 
Hotline as we receive and process complaints. In fiscal year 2017, we 
received more than 4,800 FEMA-related complaints to the OIG Hotline. In 
the first 5 months of fiscal year 2018 alone, we received more than 
triple the amount of FEMA-related complaints--over 14,600. During this 
time period, Hurricanes Harvey, Irma, and Maria combined produced 
almost 13,400 complaints that resulted in 220 initiated investigations. 
These numbers continue to increase each day.
    In addition to our permanent office in Puerto Rico, we have 
temporarily assigned additional special agents to both Puerto Rico and 
the U.S. Virgin Islands, and we have been in frequent contact with 
prosecutors and the U.S. Virgin Islands Inspector General in these 
areas to coordinate investigative activities related to:
  <bullet> contract, procurement, and grant fraud;
  <bullet> disaster applicant benefit fraud;
  <bullet> identity theft;
  <bullet> impersonation of FEMA or Federal law enforcement officials; 
        and
  <bullet> employee misconduct.
    We have activated or leveraged various resources aimed at 
combatting criminality in these areas. For example, our Major Frauds 
and Corruption Unit has developed a robust capability to investigate 
complex financial crimes. This multidisciplinary team of experts--
special agents, forensic auditors, and financial analysts--work 
together to proactively identify DHS-related fraud. In the aftermath of 
the 2017 disasters, this team interfaced with FEMA officials from 
Office of the Chief Security Officer, Office of the Chief Procurement 
Officer, Grant Programs Directorate, Office of Response and Recovery, 
and Office of Chief Counsel to pursue criminal investigations of FEMA 
benefit and related fraud, identify fraud victims, and assess the 
effectiveness of FEMA efforts in the hurricane-impacted areas. In 
furtherance of our mission to support the Department and FEMA by 
identifying waste, fraud, and abuse, we aggressively investigate 
potential criminal allegations. Whenever possible, we immediately alert 
FEMA officials when we identify programmatic issues or vulnerabilities 
that may adversely affect the effective execution of their mission.
    As an additional example, we have developed in-house expertise in 
digital forensics and analysis. These specially-trained special agents, 
digital forensic analysts, and intelligence analysts work to identify, 
acquire, and analyze digital evidence in furtherance of our 
investigations. This group leverages large datasets from Government, 
commercial, and open-source repositories to uncover fraud, waste, and 
abuse in disaster assistance programs.
        persistent challenges in disaster response and recovery
    In addition to the situational challenges facing FEMA during the 
2017 hurricane season, other challenges to FEMA's programs and 
operations tend to be more persistent and systemic vulnerabilities:
  <bullet> improper procurement practices;
  <bullet> duplication of benefits;
  <bullet> mismanagement of disaster costs;
  <bullet> privacy vulnerabilities;
  <bullet> limitations in the ability to quickly protect survivors' 
        homes and property from further damage;
  <bullet> obstacles with accurate and timely home inspections;
  <bullet> incomplete controls when providing Federal funds to high-
        risk entities; and
  <bullet> inconsistent contract oversight.
    Unmitigated, these challenges could delay survivors' recovery and 
put billions of dollars of Federal funds at risk. Thus, we have 
identified numerous observations and concerns and issued several 
lessons learned reports concerning FEMA's disaster preparedness, 
response, and recovery efforts. This work highlights on-going concerns 
FEMA must address to ensure it effectively meets its mission and 
improves the efficiency and effectiveness of its programs and 
operations.\4\
---------------------------------------------------------------------------
    \4\ We plan to translate relevant reports to Spanish for State and 
local stakeholders in Puerto Rico.
---------------------------------------------------------------------------
FEMA Faces Significant Challenges Overseeing the Procurement and 
        Contracting of Federal Grantees
    As we noted in our recent report Lessons Learned from Prior Reports 
on Disaster-related Procurement and Contracting,\5\ FEMA faces 
significant challenges in ensuring its grant recipients properly manage 
FEMA disaster funds. FEMA is continually challenged in its oversight of 
procurement and contracting practices--namely, ensuring disaster grant 
recipients and subrecipients understand and comply with Federal 
regulations and FEMA guidelines.
---------------------------------------------------------------------------
    \5\ Lessons Learned from Prior Reports on Disaster-related 
Procurement and Contracting (OIG-18-29).
---------------------------------------------------------------------------
    Throughout the course of our work during fiscal year 2015 through 
June 2017, we identified (and questioned) more than $256 million in 
ineligible contract costs because subrecipients did not follow Federal 
procurement regulations.
    These procurement-related deficiencies include:
  <bullet> Failure to provide full and open competition, resulting in 
        FEMA having limited assurance that incurred costs were 
        reasonable, as well as an increased risk for fraud, waste, and 
        abuse.
  <bullet> Failure to take all affirmative steps to assure the use of 
        disadvantaged businesses when possible, resulting in small and 
        minority firms, women's business enterprises, and labor surplus 
        area firms not always having sufficient opportunities to bid on 
        Federally-funded work.
  <bullet> Failure to include all required contract provisions, 
        resulting in an increased risk of misinterpretations, errors in 
        pricing, scopes of work, and contract disputes.
  <bullet> Failure to verify whether contractors were suspended, 
        debarred, or otherwise excluded or ineligible, resulting in 
        lack of protection of U.S. taxpayers from potential financial 
        risks posed by such contractors.
    Procurement practices that do not comply with Federal requirements 
can lead to high-risk contracts that can result in U.S. taxpayers 
bearing excessive and ineligible costs. Lack of compliance also 
increases the risk of favoritism, collusion, fraud, waste, and abuse. 
Furthermore, we identified more than $191 million in ineligible costs 
that subrecipients may have incurred had we not identified the 
procurement problems before FEMA-obligated disaster assistance grant 
funds.\6\
---------------------------------------------------------------------------
    \6\ Lessons Learned from Prior Reports on Disaster-related 
Procurement and Contracting (OIG-18-29).
---------------------------------------------------------------------------
FEMA Challenges in Ensuring Grantees Manage Public Assistance and 
        Hazard Mitigation Project Costs Properly
    About 153,000 recipients and subrecipients of FEMA disaster 
assistance grants are currently working on more than 650,000 open 
projects worth over $68 billion--not including the majority of those 
related to the 2017 hurricanes. As our office has reported over the 
years, FEMA faces persistent challenges in ensuring that grant 
recipients properly manage disaster funds. We described many of these 
challenges in a letter to the Senate Committee on Homeland Security 
last year, and offered possible legislative changes at the Committee's 
invitation.\7\ We have attached this letter to our testimony today.
---------------------------------------------------------------------------
    \7\ Letter from Inspector General John Roth to Chairman Johnson, 
Senate Homeland Security and Governmental Affairs, dated June 2, 2017 
(attached).
---------------------------------------------------------------------------
    We most recently raised these issues to FEMA in a Management Alert 
issued in December 2017.\8\ The majority of our disaster grant audits 
focus on grants funded by the Disaster Relief Fund under FEMA's Public 
Assistance grant program and Hazard Mitigation Grant Program. Each 
year, our reports identify issues with the management of millions of 
dollars in Federal funds allocated for disaster assistance and recovery 
efforts. From fiscal year 2009 to 2017, our reports provided more than 
1,400 recommendations to disallow unsupported and ineligible costs, put 
funds to better use, and improve grant management oversight of disaster 
funds. We concluded these issues continue, in part, because FEMA does 
not adequately manage disaster funds or hold grant recipients 
accountable for properly managing disaster funds.
---------------------------------------------------------------------------
    \8\ Management Alert--FEMA Faces Significant Challenges Ensuring 
Recipients Properly Manage Disaster Funds (OIG-18-33).
---------------------------------------------------------------------------
    Additionally, over the last 6 years, DHS's Independent Auditors 
identified multiple internal control weaknesses related to FEMA's grant 
management, such as:
  <bullet> not maintaining central oversight over its regional offices; 
        ineffectively communicating policies and procedures with its 
        regional offices; and lacking effective policies and procedures 
        related to grant management;
  <bullet> not ensuring recipients comply with Single Audit Act 
        requirements;
  <bullet> not effectively reconciling grantee (recipient) quarterly 
        performance reports to FEMA's systems; and
  <bullet> not consistently implementing effective controls to ensure 
        the timely closeout of FEMA's grants.
    DHS's Independent Auditors also reported that FEMA did not 
implement effective monitoring procedures over its grant activities 
from fiscal years 2011 to 2016.\9\ These findings reveal that FEMA was 
aware of its grant management issues yet did not take effective actions 
to strengthen its internal controls.
---------------------------------------------------------------------------
    \9\ Independent Auditors' Report on DHS's Fiscal Year 2011 
Financial Statements and Internal Control over Financial Reporting 
(OIG-12-07); Independent Auditors' Report on DHS's Fiscal Year 2012 
Financial Statements and Internal Control over Financial Reporting 
(OIG-13-20); Independent Auditors' Report on DHS's Fiscal Year 2018 
Financial Statements and Internal Control over Financial Reporting 
(OIG-14-18); Independent Auditors' Report on DHS's Fiscal Year 2014 
Financial Statements and Internal Control over Financial Reporting 
(OIG-15-10); Independent Auditors' Report on DHS's Fiscal Year 2015 
Financial Statements and Internal Control over Financial Reporting 
(OIG-16-06); and Independent Auditors' Report on DHS's Fiscal Year 2016 
Financial Statements and Internal Control over Financial Reporting 
(OIG-17-12).
---------------------------------------------------------------------------
    In order to assist disaster assistance recipients and subrecipients 
to properly manage their grant funds, in late September 2017, we issued 
an updated version of our Audit Tips for Managing Disaster-Related 
Project Costs.\9\ This report provides an overview of OIG 
responsibilities; roles of FEMA, recipients, and subrecipients; 
applicable disaster assistance Federal statutes, regulations, and 
guidelines; the audit process and frequent audit findings; and tips for 
managing project costs.
---------------------------------------------------------------------------
    \10\ Audit Tips for Managing Disaster-Related Project Costs (OIG-
17-120-D).
---------------------------------------------------------------------------
    This report should assist disaster assistance recipients and 
subrecipients to:
  <bullet> document and account for disaster-related costs;
  <bullet> minimize the loss of FEMA disaster assistance funds;
  <bullet> maximize financial recovery; and
  <bullet> prevent fraud, waste, and abuse of disaster funds.
    Aside from its availability on-line, we frequently distribute this 
report to FEMA, State, and grant recipient and subrecipient 
stakeholders, and will continue to do so during our on-going fieldwork 
in the disaster-damaged areas in which we are active.
Housing Challenges
    In September 2017, we issued a Management Alert urging FEMA to 
develop adequate controls to ensure Direct Housing Assistance (DHA) 
funds are spent according to Federal regulations.
    When FEMA began using this program during Hurricane Sandy, we 
raised concerns about the need to: (1) Maintain strong internal 
controls given the number of individuals affected by the hurricane; and 
(2) address vulnerabilities associated with implementing pilot 
programs. In a more recent report, we found that FEMA had still not 
instituted adequate policies, procedures and, internal controls to 
prevent waste, fraud, and program mismanagement. Furthermore, because 
FEMA has not yet developed policies and procedures to provide regions 
with a framework to follow, FEMA and regional staff at JFOs had to 
develop and implement housing assistance on a disaster-by-disaster 
basis.\11\
---------------------------------------------------------------------------
    \11\ Management Alert--Observations and Concerns with FEMA's 
Housing Assistance Program Efforts for Hurricane Harvey in Texas (OIG-
17-121-MA).
---------------------------------------------------------------------------
    After Hurricane Harvey, we learned that FEMA planned to enter into 
an Intergovernmental Service Agreement with the State of Texas General 
Land Office (Texas) to provide assistance to FEMA in the delivery of 
DHA funds to Hurricane Harvey survivors. We observed that FEMA's 
agreement with Texas did not clearly define FEMA's and Texas' 
responsibilities for monitoring and overseeing the DHA program. Thus, 
we felt compelled to remind FEMA about our previous concerns and re-
emphasize the importance in ensuring DHA funds are spent according to 
Federal regulations.
    Specifically, we raised concerns that the agreement lacked adequate 
controls that could lead to non-compliance with Federal procurement 
standards resulting in a high-risk contract that can lead to excessive 
and ineligible costs ultimately born by the U.S. taxpayer. Due to risk 
involved, this program requires increased vigilance to monitor the 
procurement of direct housing assistance services.
    This program is high-risk and requires increased vigilance in order 
to monitor the procurement of direct housing assistance services. We 
also noted that if FEMA planned to use a similar plan in the future, it 
should put in place policies and procedures to ensure that the State 
has the capabilities and expertise to manage and oversee the program. 
Finally, we also noted that if FEMA and Texas do not provide timely and 
adequate oversight, significant amounts of Federal funding could be at 
risk of fraud, waste, and abuse.
    As a result of our concerns, we are currently reviewing FEMA and 
Texas' Intergovernmental Service Agreement for direct housing. We are 
also reviewing temporary housing delays in Texas under the Partial 
Repair and Essential Power for Sheltering (PREPS) program.
Staffing Challenges
    In 2016, our office reported on FEMA's disaster incident workforce, 
finding that despite hiring initiatives, the workforce was 
significantly understaffed.\12\ We reported that since the staffing 
problems FEMA encountered after Hurricane Katrina, FEMA continues to 
experience challenges hiring enough disaster workforce employees and 
deploying Reservists in their FEMA Qualification System (FQS) position 
with sufficient knowledge and skills to assist disaster survivors 
effectively. Strong Reservist performance is critical to the Nation's 
ability to respond to major disasters because Reservists make up about 
half of FEMA's disaster incident workforce, a workforce that remains 
far below the number necessary to respond effectively to the next 
catastrophic disaster.
---------------------------------------------------------------------------
    \12\ FEMA Can Enhance Readiness with Management of Its Disaster 
Incident Workforce (OIG-16-127-D).
---------------------------------------------------------------------------
    In 2012, FEMA transitioned its on-call workforce from Disaster 
Assistance Employees to Reservists. Since then, FEMA officials have 
expressed their frustration regarding the performance of Reservists 
deployed to disasters under their new FEMA Qualification System 
positions. Despite recent hiring initiatives, FEMA's disaster incident 
workforce remains significantly understaffed, and some Reservists 
continue to deploy to disasters without the knowledge, skills, and 
training they need to assist survivors effectively.
    We made four recommendations to FEMA intended to improve the 
knowledge, skills, performance, and morale of FEMA's Reservist 
workforce. One of those recommendations has been closed and three 
remain open. We plan additional work in this area going forward.
Challenges Related to Insurance under the Public Assistance Program
    In November 2017, we issued a special report on lessons learned 
from our previous work related to insurance under the Public Assistance 
grant program.\13\ The goal of this report was to address challenges 
FEMA, Texas, Florida, Georgia, Puerto Rico, U.S. Virgin Islands, and 
California may face managing insurance under the FEMA Public Assistance 
program in the wake of Hurricanes Harvey, Irma, and Maria, and the 
October 2017 California wildfires. Our report noted that if FEMA does 
not address the recurring issues we identified in 37 previous reports 
issued between fiscal years 2013 and 2017, it will be at risk of 
violating the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act and exposing billions of taxpayer dollars to fraud, 
waste, or mismanagement. The major recurring challenges we identified 
include:
---------------------------------------------------------------------------
    \13\ Special Report: Lessons Learned from Previous Audit Reports on 
Insurance under the Public Assistance Program (OIG-18-12).
---------------------------------------------------------------------------
  <bullet> duplicate benefits in which subrecipients claimed FEMA 
        reimbursement for costs that were covered by insurance;
  <bullet> insufficient insurance in which subrecipients did not obtain 
        and maintain sufficient insurance coverage required as a 
        condition for receiving Federal disaster assistance; and
  <bullet> misapplied or misallocated insurance proceeds in which 
        subrecipients received insurance proceeds, and misapplied or 
        did not allocate those proceeds to FEMA projects.
    The reports included 40 recommendations for FEMA to address 
deficiencies or errors, totaling more than $322 million in questioned 
costs. It is incumbent upon FEMA to take appropriate action on Public 
Assistance program issues related to insurance because FEMA will likely 
face similar challenges pertaining to insurance related to Hurricanes 
Harvey, Irma, and Maria.
Concerns with Potential Duplicate or Ineligible FEMA Public Assistance 
        Funding for Facilities Damaged by Back-to-Back Disasters
    During the 2017 disasters' time frame, we reported to FEMA the 
critical importance of implementing effective controls to minimize the 
risk of funding duplicate or ineligible repair costs of facilities 
damaged by back-to-back incidents.\14\
---------------------------------------------------------------------------
    \14\ Management Alert--Concerns with Potential Duplicate or 
Ineligible FEMA Public Assistance Funding for Facilities Damaged by 
Back-to-Back Disasters (OIG-18-14).
---------------------------------------------------------------------------
    Hurricanes Harvey, Irma, and Maria--some of the most catastrophic 
disasters in recent United States history--resulted in multiple 
disaster declarations and billions of dollars in damages to areas 
within several Gulf Coast and Southeast States, Puerto Rico, and the 
U.S. Virgin Islands. We noted many of the same designated disaster 
areas for Hurricanes Harvey and Irma overlapped disaster areas from 13 
disaster incidents in 2016 and 2017. As a result, many of the same 
facilities damaged by an earlier incident may have also received damage 
under Hurricanes Harvey or Irma before repairs to the facility were 
completed.
    As of March 8, 2018, FEMA obligated an estimated $413 million of 
Public Assistance funding to cover permanent repair or replacement 
costs to facilities damaged under the 13 previous disaster 
declarations. To avoid obligating duplicate or ineligible repair costs 
to an affected facility, FEMA will need to discern which incident 
caused damages to the facility and whether repairs necessitated by the 
previous incident were complete.
    FEMA must implement effective controls to minimize this risk of 
funding duplicate or ineligible repair costs of facilities damaged by 
back-to-back incidents.
                    looking forward: our work ahead
    The challenges identified during the recent disasters highlight the 
importance of proactive and thorough oversight, as well as continual 
improvement of the ways by which FEMA executes its mission. As agents 
of positive change, we strive to identify recommendations to improve 
the efficiency and effectiveness of FEMA's work; effect improvements 
for disaster survivors; and safeguard public funds from fraud, waste, 
and abuse.
    Our investigations have already yielded results, uncovering serious 
schemes aimed at defrauding FEMA and turning disaster survivors into 
victims--something we are working diligently to prevent. For example:
  <bullet> We are investigating a wide-spread identity-theft ring in 
        which numerous individuals used the stolen identities of 
        hurricane victims to fraudulently apply for benefits, thereby 
        defrauding FEMA and victimizing hurricane survivors.
  <bullet> We have arrested an individual--in coordination with U.S. 
        Immigration and Customs Enforcement operatives--for False 
        Impersonation of a Federal Officer or Employee. This individual 
        attempted to procure work at an Emergency Management Center as 
        a voluntary staff member for Hurricane Maria relief efforts. At 
        the time of the arrest, the individual was wearing a Homeland 
        Security Investigations Special Agent t-shirt, a DHS cap, and 
        had a fake DHS badge in his possession. Our agents obtained 
        consent to search the person's residence where they found 
        additional t-shirts with Homeland Security Investigations 
        logos.
    We will continue to review and triage the many complaints and 
allegations that we receive each day and judiciously expend our limited 
investigative resources on those matters that pose the greatest threats 
or risks to FEMA programs and operations. And we will do so in close 
and timely coordination with our investigative partners, FEMA, and our 
oversight community. Our intent is clear: To protect disaster survivors 
and the billions of taxpayer dollars entrusted to the critical efforts 
of disaster response and recovery.
    On the audit side of our house, we are planning, or have begun, a 
variety of reviews both at the Federal and local disaster level, 
intended to improve FEMA's programs and operations.
    First, we plan to start several capacity audits in Texas, Florida, 
and Puerto Rico during this fiscal year. Capacity audits and early 
warning audits identify areas where FEMA public assistance grant 
recipients and subrecipients may need additional technical assistance 
or monitoring to ensure compliance with Federal requirements. In 
addition, by undergoing an audit early in the grant cycle, grant 
recipients and subrecipients have the opportunity to correct 
noncompliance before they spend the majority of their grant funding. It 
also allows them the opportunity to supplement deficient documentation 
or locate missing records before too much time elapses.
    Additionally, at the Federal level, our work includes audits in the 
areas of:
  <bullet> FEMA's fraud prevention efforts under the Individuals and 
        Households Program;
  <bullet> FEMA's Transitional Shelter Assistance (TSA) Program;
  <bullet> FEMA's management and oversight of housing inspections; and
  <bullet> FEMA pre-positioned contracts.
    In Texas, we have work under way and planned including:
  <bullet> a review of FEMA and Texas' Intergovernmental Service 
        Agreement for housing;
  <bullet> a review of the Sheltering and Temporary Essential Power 
        (STEP) Pilot Program, called Partial Repair and Essential Power 
        for Sheltering (PREPS) in Texas;
  <bullet> procurement capacity reviews of selected subgrantees;
  <bullet> lessons learned report on repair or replacement (50 percent 
        rule); and
  <bullet> lessons learned report on Direct Administrative Costs.
    In Florida, our planned and on-going work includes:
  <bullet> the implementation of the STEP program;
  <bullet> the use of the new Public Assistance service delivery model;
  <bullet> FEMA's guidance to affected municipalities on private 
        property debris removal;
  <bullet> the use of direct leasing to shelter survivors;
  <bullet> duplication of Federal benefits (in coordination with HUD 
        OIG);
  <bullet> FEMA's automotive assistance, and
  <bullet> mission assignments for vessel removal and private property 
        debris removal.
    In Puerto Rico, we have work under way and planned, including:
  <bullet> challenges with providing Puerto Rico disaster survivors 
        roof coverings to reduce further damage to their homes and 
        property;
  <bullet> review of disaster-related contracting including the 
        contracts with Whitefish Energy, Cobra Acquisitions, Bronze 
        Star LLC (blue tarps), and Tribute Contracting LLC (meals), 
        among others;
  <bullet> additional controls for Puerto Rico's high-risk grant 
        applicants;
  <bullet> FEMA's Sheltering and Temporary Essential Power (STEP) 
        Program;
  <bullet> FEMA's preparedness, management, and distribution of 
        supplies;
  <bullet> lessons learned from repair versus replacement funding 
        decisions; and
  <bullet> FEMA's plan to use alternative procedures for the Public 
        Assistance Program;
  <bullet> debris removal operations;
  <bullet> police overtime pay;
  <bullet> Federal considerations relating to the privatization of 
        PREPA;
  <bullet> duplication of Federal benefits (in coordination with HUD 
        OIG); and
  <bullet> key infrastructure repair costs (such as for the Guajataca 
        Dam).
    In the U.S. Virgin Islands, we plan to review several areas 
including:
  <bullet> FEMA's Sheltering and Temporary Essential Power (STEP) 
        Program;
  <bullet> mission assignment for sunken vessel removal;
  <bullet> mission assignment for medical waste disposal;
  <bullet> off-island debris disposal activities;
  <bullet> billing and payment processes for FEMA-contracted local 
        lodging; and
  <bullet> capacity audits of FEMA grant recipients and subrecipients.
    In addition to these on-going and planned reviews, we will continue 
to work with FEMA, its partners, and our oversight community to help 
ensure challenges are timely identified and addressed.
                               conclusion
    It is incumbent upon the OIG and FEMA to work collaboratively to 
highlight risks, identify control weaknesses, and devise ways to 
improve the efficiency and effectiveness of FEMA's programs and 
operations, while simultaneously mitigating fraud, waste, and abuse. 
The recovery of countless survivors, as well as the accountability of 
billions of dollars in public funds depends upon our collaboration. We 
will continue to approach our work with a sense of dedication and 
urgency, and will keep Congress fully informed of our findings and 
recommendations, consistent with our obligations under the Inspector 
General Act of 1978.
    Mr. Chairman, this concludes my testimony.
    I am pleased to answer your questions, as well as those of the 
other Members.
    Thank you.

    Chairman McCaul. Thank you, Mr. Kelly.
    I now recognize myself for questions.
    Administrator, first, let me commend you for your emergency 
response efforts in my home State of Texas. Katy High School 
turned into a forward operating base with the National Guard 
active duty. We saw the Coast Guard. We saw private citizens, 
the Cajun Navy, and FEMA was there to pre-position assets after 
the President declared it an emergency.
    I think that made a big difference.
    But I think there is some also confusion about the role of 
FEMA versus the role that the State and locals have to play as 
well, working as a team together in the recovery efforts. I did 
speak with my Governor, Governor Abbott recently, who one of 
his frustrations was he had to deal with so many different 
organizations.
    I know we have talked about this. What is your vision to 
possibly streamline and make more efficient the FEMA process in 
these disasters?
    Mr. Long. Thank you for the question. So first of all, I 
would like to acknowledge that Governor Abbott is one of the 
most bold Governors who has truly owned every bit of the 
disaster response and recovery, and that is the way it should 
work. I believe that Texas is a model.
    I say that because it truly is where we need to go as 
Federally-supported, State-managed, locally-executed. FEMA is 
not a first responder. FEMA should not be the primary and only 
responder. My job is to work directly with Governors to 
understand what the response and recovery goals or the 
preparedness goals, mitigation goals, are, organize our 
resources to help that Governor achieve those goals.
    In Texas I do believe that that is the model that was 
played out, and that is the model we should be seeking for. The 
problem particularly is what is complex is housing. As I said, 
I would like to lay out a new vision for housing but it would 
require granting authorities being given to me to help, you 
know, from the Congress, to reorganize it.
    For example, we are not housing experts. We are literally 
good at doing emergency housing provisions. We are good at 
sheltering. We are good at blue tarp missions with the Army 
Corps of Engineers. We are good at transitional shelter 
authority. We put nearly 4.7 million people in hotels or 
overnight--no, excuse me--4.7 million nights in hotels has been 
coordinated to this point.
    It would take a person over I think 12,000 years to stay in 
hotels that many nights. Let us identify what we are good at. 
Give the Governors more granting authority to handle the 
difficult housing issues and then clearly design the hand-off 
between FEMA and the partnering agencies.
    Streamline what we are all responsible for, how we should 
work together, and in some cases the disaster survivor may get 
up to 15 knocks at the door from FEMA to other Federal 
Government agencies, from State governments to non-governmental 
organizations, and it is confusing.
    We have to do one inspection that cuts across the Federal 
Government perspective and down through the agencies. We have 
to streamline what we are doing.
    Chairman McCaul. Yes, I think that is absolutely right. 
One-stop shop, and I look forward to working with you on 
legislation and granting authority for you as well.
    Major General, this is a map that Army Corps, and you have 
probably seen this. I have talked about it a lot. They did this 
in 1940, and it created the Barker Addicks dam. But Cypress 
Creek there is a proposed levee system that was never built.
    So what happened in Hurricane Harvey was that Cypress Creek 
overflowed, went into Barker and Addicks reservoir, then a 
controlled spillage was done at about 1:30 in the morning and 
those residents downstream were not very happy about that. It 
filled up the bayous and then it flooded downtown Houston. So 
it had sort-of a cascading effect here.
    This gets more into flood mitigation. I think, you know, 
you always hear an ounce of--the prevention piece is so 
important. Can you tell me whether the Cypress Creek reservoir, 
the third reservoir, is on your list of projects?
    General Jackson. Congressman, thanks. I can see from here 
even without my glasses that is a 1940's plan, and I think you 
will agree that a lot has changed in the hydrology of the 
region upstream and downstream since 1940, a lot of 
development, which increases significantly the runoff.
    To answer your question, though, we have a number of 
projects that we have identified that we are going to try to 
put forth to the administration for funding in the supplemental 
that Congress passed to be able to take a look at that 
reservoir, other opportunities to improve the flood 
protection----
    Chairman McCaul. If I could just take--my time is getting 
ready--and if I could just say it is the Governor's No. 1 
priority. He told me that and it is also my No. 1 priority is 
to get that Cypress reservoir built and reinforce Barker 
Addicks to make sure this doesn't happen again. Fifty inches of 
rain is a lot of rain.
    We also put language in the supplemental for $90 billion to 
expedite some of these projects, so I would hope you would be 
able to do this as quickly as possible. I think one of the 
concerns we always have with the Army Corps is it takes too 
long, the studies and the actual construction.
    I think that is something that Congress has given you new 
authorities to do it more expeditiously. I look forward to 
working with you to get this done as quickly as possible 
because it has flooded three times in 2 years. It really, you 
know, again, an ounce of prevention is worth a pound of cure. 
We need to get this thing done.
    So with that, I now recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Administrator, you talked about some improvements that 
you hope to see in FEMA going forward. Would you share those 
written improvements with this committee?
    Mr. Long. Yes, sir, absolutely.
    Mr. Thompson. Are they completed at this time?
    Mr. Long. Yes, so what we tried to do is I believe in 
streamlined and concise documents. Basically this is an outline 
of the entire strategic plan on one page that outlines our 
goals and objectives.
    Mr. Thompson. I think they are good. So is your testimony 
also that you have all the money you need to do your job?
    Mr. Long. Can I get back to you on that? I do. I am very 
thankful for the supplementals that went forward. I do have a 
concern that with the magnitude of this event I have the 
ability in FEMA to reimburse everybody but myself. One of the 
problems that I think we are running into within the agency is 
is that the operational budget and staffing pattern, as Mr. 
Kelly alluded to, doesn't grow with the disaster response.
    So the amount of paperwork, the requests that come into the 
agency is exponentially increased with a year like this, but 
the staffing pattern internally to my agency stays the same.
    Mr. Thompson. So that means you won't get back with me?
    Mr. Long. Yes, sir, I would be happy to respond to you in 
writing. Thank you.
    Mr. Thompson. You got a time frame on that, on your 
reponse?
    Mr. Long. Can I have 2 weeks, sir?
    Mr. Thompson. You have it.
    Mr. Long. Thank you.
    Mr. Thompson. Is it also your testimony that the response 
to Florida, Texas, Puerto Rico, and the Virgin Islands was 
acceptable under FEMA's present standards?
    Mr. Long. Well, I think the term acceptable lies in the eye 
of the beholder. You know, I am sure that there are people that 
feel that FEMA slighted them out in the field and didn't give 
them the assistance that they deserved.
    It is very tough to deal with each and every community, but 
as a whole, as I said, I am very proud of the response that was 
put forward and the model of Federally-supported, State-
managed, and locally-executed played out in California, Texas, 
and Florida.
    In regards to Puerto Rico, we are still pushing forward 
every day. I believe we still have 3,000 staff in place along 
with the local hires that are there. In regards to things like 
food and commodity, the amount of commodities that we put into 
Puerto Rico is--one of the estimates I saw was close to $2 
billion. That alone would rank as one of our top 20 most costly 
disasters in the----
    Mr. Thompson. I----
    Mr. Long [continuing]. In the history of FEMA.
    Mr. Thompson. I thank you for that, but I am trying to get 
Brock Long's opinion as to whether or not you are confident 
that the response to Texas, Florida, the Virgin Islands, and 
Puerto Rico was acceptable to your standards. I am not talking 
about anybody else.
    Mr. Long. I would say yes it was acceptable, but do we have 
room for improvement? Always. Always. Yes.
    Mr. Thompson. What room for improvements would you ask for?
    Mr. Long. Well, here again, improvement is not just my 
agency. It is the emergency management profession as a whole. 
What I mean by that is, as I said, catastrophic readiness 
bothers me from a low- to no-notice standpoint of do all 
counties, do States, have their own ability to push water, ice, 
MREs, and life-saving commodities?
    Have they actually written disaster cost recovery plans 
that will help them understand how to receive funding from 17 
different agencies and their outcome-driven, you know, when it 
comes? Do they know how they are going to mitigate their 
communities when these dollars arrive? And they know what their 
goals are going to be?
    You know, are we pre-planning up front at all levels of 
government and doing it in an integrated fashion to where we 
are pushing forward to do the greatest good with the taxpaying 
dollars?
    Mr. Thompson. So can you get this committee in writing what 
you consider the acceptable consequences for the response to 
those four disasters?
    Mr. Long. Sure, yes, sir.
    Mr. Thompson. Thank you.
    Now, Administrator Long, I understand that the Trump 
administration is requiring Puerto Rico to use public 
assistance alternative procedures on a permanent work projects 
as a condition of receiving public assistance grants. Why is 
Puerto Rico being treated differently than other areas?
    Mr. Long. We are not treating Puerto Rico differently. In 
everything that we have done with Governor Rossello--we have 
been playing phone tag this morning and as of yesterday as 
well--is everything is negotiated. We believe that the Section 
428 in the Stafford Act is the most prudent way to move 
forward. We briefed the Governors, and ultimately he requested 
that.
    We don't strong-arm people into doing things by any means. 
That is not the way I want to conduct business. The reason we 
went with 428 is because of the sheer magnitude of the amount 
of damage to the infrastructure and the deferred maintenance 
problems that we ran into.
    For example, there were thousands of roadway obstructions. 
It would be too cumbersome, it would be too costly for FEMA to 
write a project worksheet for each one of those obstructions 
that could be reversioned and reversioned time and time again 
and then FEMA ends up being there for 20 years. A 428 program--
--
    Mr. Thompson. I am reclaiming my time.
    Mr. Chair, I would like to have your response to that 
specific question in writing back to the committee?
    Mr. Long. Yes, sir.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Ranking Member yields back.
    Per the agreement with the Ranking Member's U.C. request, I 
now recognize Ms. Velazquez for an opening statement.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Thank you Ranking Member Thompson for the opportunity to 
speak here today. I also want to recognize you both for your 
leadership in examining the aftermath of last year's 
unprecedented hurricane season.
    This work is critical because our disaster response 
capabilities must continually evolve to meet the types and 
frequencies of the disasters that we face. While much has been 
debated about the Federal Government's response to Puerto Rico 
and the Virgin Islands, I am here today to find solutions.
    I am worry about the emotional toll that this unprecedented 
hurricanes have taken upon the people of Puerto Rico. I am here 
today because the people in Puerto Rico are losing hope. More 
than 300,000 have left the island.
    I am here because I am worried that before we know it, 
hurricane season will be before us again. The truth is before 
the hurricanes made landfall it was widely known that if a 
natural disaster, especially one of catastrophic proportions 
were to hit the island, the most vulnerable asset was Puerto 
Rico's energy grid. As everyone in this room knows, this turned 
out to be the case.
    So months after the hurricanes some areas still look as 
they were hit yesterday. I was in my hometown of Yabucoa 2 
weeks ago where Maria made landfall. It looks like the 
hurricane struck yesterday. They still desperately need our 
help.
    So today, as we near the half-year, I want to say to you, 
Mr. Chairman, we are all keenly aware of what is at stake come 
June when hurricane season starts again.
    As we hear from FEMA, the Army Corps, DHS and local 
officials, I want to make sure that we all coalesce leaving 
behind our political inclinations and we work to come up with a 
meaningful plan for future disasters, one that would allow us 
to proactively deploy Federal resources and prevent the 
mistakes of the past.
    Mr. Long, we all knew Hurricane Irma, Category 5, was in 
its track to hit Puerto Rico and we all knew how vulnerable 
Puerto Rico was in terms of the power grid.
    What steps proactively, knowing what we knew then, we need 
to take in order to be quickly there to deploy the Federal 
assets that we need, not to wait 2 weeks later to send the 
Comfort when we knew that no hospital in Puerto Rico will have 
electricity?
    The people in Puerto Rico, the U.S. Virgin Islands, Texas, 
Florida, California, and frankly all those subject to the wrath 
of climate change destruction need to have the full faith and 
confidence in the institutions meant to keep America safe.
    I look forward to hearing about what has worked so far and 
what gaps this committee can address moving forward.
    Thank you again for allowing me to participate today, and I 
yield back.
    Chairman McCaul. The gentlelady yields back.
    I now recognize Delegate Plaskett for an opening statement.
    Ms. Plaskett. Thank you very much. It is not coming on. 
There it is. Thank you. Thank you, Chairman McCaul and Ranking 
Member Thompson for the opportunity to say a few words before 
the committee for this hearing on preparedness, response, and 
rebuilding.
    As we all know now, Hurricanes Irma and Maria caused dozens 
of injuries and some deaths in my district, the U.S. Virgin 
Islands. The damage from the storms, the psychological and 
long-term economic impact is unparalleled as the occurrence of 
two Category 5 hurricanes making landfall in a specific area 
over a span of 2 weeks.
    Recovery is far from over and the rebuilding has yet to 
begin. The catastrophic destruction caused by the hurricanes 
continue to demand massive amounts of aid to address the 
overwhelming needs of the victims, who very much remain faced 
with the daunting task of rebuilding their lives.
    I will give you a couple of examples of where this is quite 
evident. It has been found that approximately 19,000 homes have 
been damaged. However, the Army Corps installed 3,658 blue 
roofs. It became a long negotiation with FEMA for approval in 
spending for the sheltered restoration and essential power 
program, the STEP program.
    The Federal Government's ingenious alternative to temporary 
housing to get people back in their homes rather putting them 
in temporary shelters long-term. This rapid repair program, as 
it is called, was announced later February. That would be 
September is the hurricane, February, 6 months after the 
storms, and homeowners are still awaiting inspection and 
approvals.
    The next hurricane season begins June 1. Mounds of 
hurricane debris, a second example being including appliances 
and scrap metal are disposed near public schools and pose real 
health and safety risks to the people. Debris removal on St. 
Thomas and St. John was managed by the Army Corps of Engineers.
    On St. Croix, three times the size of St. Thomas, debris 
collection was run by the local government. Debris was 
collected three times faster on St. Croix as it was on St. 
Thomas. You heard testimony here this morning that they are 
going to be picking up that debris for removal from the islands 
this week.
    That is for islands that are on St. Thomas, 32 square miles 
and 84 square miles of space on St. Croix--6 months for debris 
removal. As of today, the period of the 100 percent Federal 
cost share for debris removal and emergency protective measures 
has ended although Congress has requested an extension from 
FEMA.
    I would ask unanimous consent to submit for the record a 
letter written by the Governor of the Virgin Islands on 
February 14, 2018 requesting an extension of debris removal, 
100 percent Federal cost share and a March 13 letter from 
Ranking Member Peter DeFazio of the Committee on Transportation 
and Infrastructure and your own Ranking Member, Ranking Member 
Bennie Thompson on the Committee on Homeland Security, 
requesting of the President that this extension be granted.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
       Letter From Kenneth E. Mapp, Governor, U.S. Virgin Islands
                                 February 14, 2018.
The Honorable Donald J. Trump,
President of the United States, The White House, Washington, DC 20500.
    Dear Mr. President: Greetings to you from the grateful people of 
the U.S. Virgin Islands.
    On behalf of the tens of thousands of our families who continue to 
benefit from the federal assistance and support that you have 
authorized, I sincerely thank you. The federal team here in the 
Territory remains extremely collaborative and is working very hard 
alongside my team every day as we continue to make tremendous progress 
in our recovery from the historic devastation caused by Hurricanes Irma 
and Maria.
    I am writing today to respectfully request that you extend the 
period of 100% federal funding for FEMA Public Assistance Program 
Emergency Work. Specifically, I am appealing to you to extend the time-
period by 120-days for Category A, including Direct Federal Assistance 
related to Debris Removal activities and 180-days for Category B, 
including Direct Federal Assistance related to Emergency Protective 
Measures.
    While we are extremely appreciative that you initially allowed us a 
180-day period for 100% cost share, despite our best collective 
efforts, we are not physically going to be able to finish all of these 
projects by the March 15th deadline--and simply do not have the 
financial resources available to cover the local match on the 
remainder, which is expected to total tens of millions of dollars just 
to finish the most immediate work.
    When you generously authorized the 100% federal share on October 
3rd of last year, less than two weeks after the Virgin Islands was 
decimated by the second Category 5 hurricane in the month of September, 
none of us could have fully anticipated how much time and effort it 
would take to achieve the most immediate response and recovery 
objectives, yet we have made substantial progress.
    Over the past five months, we have restored nearly 100% of the 
power; cleared our roads and harbors of debris; completed distribution 
of unprecedented quantities of food, water and other essential 
supplies; started to make emergency repairs in our homes; and together 
with our federal partners have taken the first bold steps on the long 
road to recovery.
    I hope that you will understand that we have been diligent, 
accountable and transparent in our efforts and rigorous in our response 
and project management. Without the significant results I described 
above to demonstrate our progress, I would be hesitant to ask the 
federal government to continue to pay 100% of the costs for a little 
bit longer.
    In considering our request, please consider the following examples 
of why we believe that an extension is justifiable:
    Category A--Off-Island Shipment of Debris.--Our two landfills in 
the USVI are both nearing capacity and under federal consent decree to 
be closed; therefore, we are extremely limited in our debris removal 
options.
    For several months we had been working on a plan with FEMA and the 
US Army Corps of Engineers (USACE) to incinerate most of the 750,000 
cubic yards of vegetative material that has been collected; however, in 
January, FEMA advised us that, due to their new interpretation of 
territorial laws, they could no longer able to support incineration. 
Subsequently, FEMA has agreed to ship hurricane debris out of the 
Territory, but it will take additional months for the Mission 
Assignment amendment to be fully implemented and for all debris to be 
sent to its final destination off-island. While we are fully 
cooperating with our federal partners, we cannot control FEMA's timing 
for completion of the debris removal.
    Similarly, FEMA, USACE, the US Coast Guard and EPA are working 
under a Mission Assignment to crush and dispose of nearly 350 salvaged 
vessels outside of the Territory. This has been a complex and well-
executed project; however, the schedule for this project is also 
federally managed and will take at least several more weeks to complete 
beyond the deadline.
    Accordingly, on January 26th, our FEMA Federal Coordinating Officer 
(FCO), Mr. William Vogel, wrote to Mr. Christopher Logan, FEMA Public 
Assistance Division Director:

``FEMA's denial of ACI [Air Curtain Incineration] use was just 
rendered. Understandably, this multi-agency coordination effort will 
take time and resources that will extend outside the March 15, 2018 
deadline. Based on these extenuating circumstances that are outside the 
control of the territory, I recommend the approval of the time 
extension and 100% federal cost share funding requested.''

    We hope you will support FCO Vogel's recommendation.
    Category B--Emergency Housing Repairs.--On February 12th the USVI 
finally launched our FEMA-funded STEP Emergency Housing Repair program, 
which is expected to complete critical repairs to the homes of as many 
as 12,000 Virgin Islands families over the next 3 to 4 months.
    While we now have a comprehensive plan and full slate of 
contractors in place to carry out this work at an unprecedented pace, 
we only received the final program guidance from FEMA on December 8th, 
and even now, we are still awaiting the FEMA Project Worksheet that 
will lock-in the federal funding commitment. While we are willing to 
lean as far forward as possible, in order to be fiscally responsible, 
we were forced to delay our start date until we at least received the 
tentative funding commitment from FEMA which we only received last 
week.
    Category B--Temporary Hospitals and Schools.--One of the most 
severe impacts of Hurricanes Irma and Maria is that they completely 
decimated the critical healthcare system of the Territory, wiping out 
our only three primary care facilities--one hospital each on St. Thomas 
and St. Croix as well as the clinic on St. John. As a result, to this 
day, any seriously ill or injured Virgin Islanders must be evacuated to 
the mainland for medical care, and those with chronic illnesses who 
were taken to the mainland after the hurricanes are unable to return 
home.
    Recognizing that it will very likely take at least a couple of 
years to reconstruct our hospitals and clinic, on September 23rd--just 
a few days after Hurricane Maria--our hospital leadership made their 
initial request to FEMA for temporary (modular) hospital buildings. 
Unfortunately, FEMA's first attempt to meet this requirement was to 
provide a tent structure; however, after the first one arrived in late 
October, all stakeholders agreed this would not provide a safe 
condition for providing medical care in the Territory.
    Since that time, we have been working with FEMA to gain approval 
for installation of suitable modular structures; however, it was only 
on January 30th that we finally received approval for the architectural 
and engineering design work necessary to develop the bid specifications 
for these temporary facilities. Once these specifications and bid 
documents are completed, FEMA will then have to approve the purchase of 
the modular buildings; FEMA expects that it will then take several 
months for the structures to be manufactured, shipped and installed.
    We do understand that this type of work takes time; however, we are 
heavily reliant on federal expertise to guide us through the 
procurement process and, as a result, we cannot move the process along 
any faster than our federal partners can support.
    Similarly, we have three dozen damaged school buildings, nearly a 
third of which need to be completely reconstructed. In the meantime, 
our students have been attending classes in split sessions and in 
partially damaged buildings, some of which are plagued with mold and 
have roofs that leak during the frequent rainstorms that we experience 
throughout the year.
    As you know, one of my top priorities is to ensure that all of our 
school children are in a safe and secure learning environment when they 
return to school next September. Although we have been working 
diligently on this project since last September, it was just last week 
that FEMA gave tentative approval for us to purchase the first 154 
temporary (modular) classrooms. As is the case with the hospitals, the 
design, bidding, manufacturing and transportation and installation of 
these facilities will take many months and we are hopeful that with 
maximum efforts by all that we can have these in place for the next 
school year, but much of the timing remains under FEMA's control for 
approval of both the scope of work and funding.
    Mr. President, these are just a few examples of the types of 
projects which, despite the best efforts of many hundreds of 
hardworking federal and territorial staff, simply cannot realistically 
be completed by March 15th. We have all tried very hard and now must 
appeal to you for relief. I am hopeful that your intent in setting the 
March 15th deadline was to encourage us to work as hard as we have, and 
that you will see fit to recognize these remarkable accomplishments by 
granting us the additional time for 100% federal funding as requested 
above.
    As Governor of the U.S. Virgin Islands, I understand that we cannot 
expect our fellow U.S. citizens to carry the full financial burden of 
our recovery; however, the fiscal reality is that we have borrowed 
funds up to our full debt capacity, including taking FEMA Community 
Disaster Loans, we have had to commit all of our insurance proceeds to 
urgent needs beyond what federal programs will cover, we have exhausted 
what small amount of emergency funds we had at our disposal, and we are 
still facing the need for nearly a half-billion dollars of local match 
on FEMA Public Assistance Permanent Work (Categories C-G) and the FEMA 
Hazard Mitigation Grant Program.
    For the foreseeable future, the only source of funds that we will 
have available to us to cover the non-federal share on any FEMA work is 
the HUD Community Development Block Grant (CDBG-DR) funds allocated to 
us from Congressional appropriations. While we are thankful to have 
recently been allocated $243 million of CDBG-DR funds as announced by 
HUD just over a week ago, we have been strongly encouraged by HUD to 
use these funds to the maximum extent possible to address unmet housing 
and local business recovery needs. While we will undoubtedly have to 
carve out some of the CDBG-DR funds for non-federal match on FEMA 
projects, we would be very appreciative if you could help us to 
minimize this by extending the 100% federal funding for all FEMA 
Emergency Work.
    Mr. President, let me end where I started, by thanking you 
immensely for all that you and your Administration have done to support 
us. I trust that the U.S. Virgin Islands can be viewed as a model for 
working with the national government in responding to natural disasters 
and more hopeful that our success can be viewed as one of the wins of 
your Administration.
    On behalf of a grateful Territory, I am deeply thankful for your 
leadership and our partnership with our federal family.
            Sincerely,
                                           Kenneth E. Mapp,
                                                          Governor.
                                 ______
                                 
  Letter From Honorable Peter DeFazio and Honorable Bennie G. Thompson
                                    March 13, 2018.
President Donald J. Trump,
The White House, 1600 Pennsylvania Ave NW, Washington, DC 20500.
    Dear President Trump: We write to urge you to extend the Federal 
cost share for debris removal and emergency protective measures, 
including direct Federal assistance, for the U.S. Virgin Islands (USVI) 
for damage caused by Hurricanes Irma and Maria. As you are aware, the 
100 percent Federal cost share for these activities expires on or 
around March 15, 2018. Much work remains on the Islands, and an 
extension of the 100 percent Federal cost share is crucial to 
completing this work.
    Under a mission assignment from FEMA, the U.S. Army Corps of 
Engineers has been in charge of the timetable for collecting and 
removing debris. As of March 2, 2018, the U.S. Army Corps of Engineers 
(USACE) and territorial agencies have collected 870,726 cubic yards of 
storm debris, while the U.S. Coast Guard has overseen the pollution 
mitigation and removal of 479 displaced vessels. Collected hazardous 
waste includes 5,950 bags of medical waste, 1,525 propane tanks, 69 
pounds of refrigerant, 14,464 batteries and other waste products.\1\ 
This is a substantial amount of debris over which the USVI has had no 
control.
---------------------------------------------------------------------------
    \1\ https://www.fema.gov/news-release/2018/03/02/6-months-after-
two-category-5-hurricanes-struck-us-virgin-islands.
---------------------------------------------------------------------------
    This vast amount of debris has greatly exacerbated waste disposal 
issues. In fact, two landfills on the Islands were at or near capacity 
and, pursuant to a Consent Decree between USVI and the Environmental 
Protection Agency, were scheduled for permanent closure before the 
hurricanes. An extension of the cost share is warranted as certain 
debris must be moved off Island and this entire process has been 
outside of the USVI's control. The Territory should not have to pay a 
cost share because the Federal Government did not complete its job in a 
timely manner.
    With respect to emergency protective measures, despite the 
extensive damage and lack of power, the Virgin Islands Housing Finance 
Authority was prepared to begin work in early January and requested 
approval of a Sheltering and Temporary Essential Power (STEP) program 
at that time. FEMA, however, did not enter the request into its system 
until on or about February 16, 2018. Although FEMA has still not issued 
final approval of the STEP program request, the USVI recently began to 
implement the program. As a result, the STEP program in the USVI is 
barely underway. Once again, an extension of the Federal cost share is 
necessary due to the delay caused by FEMA.
    We strongly supported the recent extension of the 100 percent 
Federal cost share for debris removal and emergency protective 
measures, including direct Federal assistance, for Puerto Rico and 
believe that conditions on the USVI justifying a similar extension. We 
urge you to execute such an extension without delay. Thank you for your 
consideration of this request.
            Sincerely,
                                             Peter DeFazio,
    Ranking Member, Committee on Transportation and Infrastructure.
                                        Bennie G. Thompson,
                    Ranking Member, Committee on Homeland Security.

    Ms. Plaskett. Thank you.
    Progress has been made, but despite best collective 
efforts, the territory has not physically been able to finish 
all of these projects by March 15 deadline, and it simply does 
not have the financial resources able to cover the local match 
on the remainder. The territory is still awaiting modular 
structure for use by schools and medical centers.
    Until then, public schooling for the children of the Virgin 
Islands is operating on 4-hour rotations. This is expected to 
continue at least into the next school year, and access to care 
at hospitals remains limited. As a result, dialysis patients, 
inpatient care, and other services in the entire U.S. Virgin 
Islands remain off-island.
    Congress has set up a system where FEMA structural demands 
that it guards its budget and gives only when requested or 
pressed by local governments. This is a structure which must be 
changed. It does not support the best interests of American 
citizens living in disaster areas.
    FEMA has to, and as we have heard here, is willing and 
needs to the support of Congress to streamline the processes so 
that results and support can get to the people. The examples I 
give are just a few of the issues that the Virgin Islands 
remains faced with 6 months after Irma and Maria, and I look 
forward to the discussion and more questions on how to resolve 
these issues.
    Thank you.
    Chairman McCaul. The gentlelady yields back.
    The Chair recognizes Resident Commissioner Gonzalez-Colon 
for an opening statement.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman and I want to 
thank you and all Members, Ranking Members of this committee 
for calling this hearing and allow us to be here on such an 
important matter.
    I will thank the witnesses for answering the call and 
coming before Congress to answer for the response to an 
unprecedented disaster that affected millions of American 
citizens, including Puerto Rico and the Virgin Islands.
    It has been more than 5 months now that since we saw an 
event that none of us expected to see in American soil in our 
lifetimes. As I mentioned in a prior committee testimony, the 
jurisdiction of the size of Connecticut if that kind of 
jurisdiction lost all power generation and distribution 
capabilities. Most of the communication system collapsed. 
Nobody would allow Connecticut to be without power for so many 
months. That is the size of Puerto Rico.
    We live in a scenario of the failure of all technological 
resources in which we counted for our daily lives. I think that 
when we check on that, we have still got 90 percent of 
generation but that doesn't mean people got power in their 
homes.
    When you are looking to what is the goal to finish the job, 
most of the agencies are saying that that could be even March 
or even May of this year. So we are talking about 5 or 6 months 
waiting for power, not to account the hundreds of people with 
diseases or medical conditions that require for them to get a 
generator or have power in their houses.
    According to FEMA and to the U.S. Army Corps of Engineers, 
this has been the biggest mission to restore utilities in those 
agencies' history. Yet, millions of Puerto Ricans ask 
themselves, what is taking so long?
    One of my biggest question will be how much more resources 
both agencies need to finish the job? How long it will take to 
finish the last line of help in the center part of the island, 
which we still got a lot of towns with less than 40 percent of 
power.
    All things are currently occurring under discussion, but 
the estimate of the Corps is that the restoration should be 
done by the end of March. We are not talking about having a 
reliable system or a resilient system. We are talking about the 
level of destruction defy everyone's expectation.
    But my biggest concern will be here is that are we or any 
part of America spending months with their utilities down, what 
should happen? You will have a lot of people angry waiting for 
that kind of response.
    So I do think the people of Puerto Rico are being very 
patient waiting to receive that kind of help. We know that our 
aging infrastructure was in a bad shape before the hurricane 
and that is the reason I thank all Members of this committee 
and the Members of the House who voted for assign the resources 
in the last supplemental. I think that supplemental will help 
guide Puerto Rico in terms of the recovery.
    One of my biggest question will be how long it will take or 
what do you need to finish the job in 30 days? We cannot say 
that May or June or July are the best scenario for finish and 
having a 100 percent recovery of the island when we are going 
to face the hurricane season again during this summer. So this 
is one of the biggest challenge we got.
    I do ask unanimous consent, Mr. Chairman, to allow a letter 
that I just sent to Commanding General Semonite and District 
Commander Jason Kirk to the Army Corps of Engineers asking them 
to extend the mission of the U.S. Army Corps and the contracts 
that have been provided to the island that are set to expire in 
March 19 and April 7, if you allow that to happen, Chairman?
    Chairman McCaul. Without objection, so ordered.
    [The information referred to follows:]
               Letter From Hon. Jenniffer Gonzalez-Colon
                                    March 13, 2018.
LTG Todd Semionite,
Commanding General and Chief of Engineers, U.S. Army Corps of 
        Engineers, 441 G St. NW, Washington DC, 20314-1000.
COL Jason A. Kirk,
District Commander, Jacksonville District, USACE PO Box 4970, 
        Jacksonville FL, 32232-019.
RE: POWER RESTORATION MISSION IN PUERTO RICO

    Dear Lieutenant General Semionite and Coronel Kirk: Restoring 
electrical power to Puerto Rico has been our collective priority since 
the day Hurricane Maria exited the Island. Without power, our economy 
could not move; without power, water could not be distributed; without 
power, our fellow citizens were left in the dark.
    Puerto Rico's critical need for power restoration in the aftermath 
of disasters has been a test for all of us who have been involved. 
USACE has been an invaluable resource in this moment of great need and 
it is vital to see to the full completion of the maintain good lines of 
communication between the team addressing the relief and rebuilding 
missions in Puerto Rico.
    As of today, we are officially at the 90 percent generation 
capacity mark. However, the observation on the field makes it evident 
that electrical generation does not correlate with electrical service 
to homes across Puerto Rico. Only six out of 78 municipalities have 
reported 100 percent power restoration, knowing full well that the 
fragility of the system can erase these gains in the blink of an eye. 
There are still municipalities in the central mountainous region with 
less than 60 percent restoration of service, with power restored mainly 
in the towns and commercial areas, leaving vast rural areas left in the 
dark. The movement of crews from areas with a high restoration rate to 
address the lagging areas only causes distress in the former 
communities, who feel that they are being abandoned without the job 
being completed. With well over a hundred thousand customers still 
lacking service, that is distressing.
    USACE's contracts with Fluor Corporation and Power Secure are set 
to expire on March 19th and April 7th, respectively. Personnel from 
these companies have been working for the past 5 months in the 
municipalities that compose the mountain region--such as Cayey, Lares, 
Ciales, Morovis, and Utuado, to name a few examples--and, due to the 
difficulty of the terrain and the immensity of the devastation, they 
have not concluded their task; they should not leave until they do so.
    Raising camp and leaving PREPA to finish the job is not an option. 
PREPA's contracting process to substitute USACE's personnel will take 
time, delaying relief for people who have already spent more than 6 
months without power. Moreover, last week's winter storm Riley further 
highlights the uncertainty that would be caused if Fluor and Power 
Secure were to leave, when personnel working under PREPA's mutual aid 
agreement were recalled to attend to natural disasters in their own 
jurisdictions. After 6 months of no power or unreliable service, the 
average citizen on the street in those communities cannot tolerate even 
the perception that at this point we will begin to wind down the urgent 
relief mission and that the process of finishing the job will slow 
down.
    I must urge USACE in the strongest terms to maintain the intensity 
of effort; to extend contracts as required, to maintain the presence of 
crews at a higher level than projected to address the areas where the 
job is not finished; to inform and advise the local authorities and the 
public of what are the time lines and keep the communications lines 
open; to assist in supplying PREPA with materials and technical 
assistance if and as necessary. The goal must be to have near 100 
percent restoration--not generation--of power within a month and for 
the people in Puerto Rico to have visible evidence of this being 
pursued with a sense of urgency.
    I wish to impress on the Corps leadership the importance of taking 
this need of the American citizens living in Puerto Rico into 
consideration in the making of decisions about the power restoration 
mission, and I am ready to bring before my colleagues in Congress any 
need for additional appropriations or for statutory language that will 
move this forward.
    Again, I must thank all the men and women both military and 
civilian in USACE who have helped so much in the effort of Puerto 
Rico's recovery. Our mission is not complete. We must act quickly so 
that this project may retain its priority position. I look forward to 
an effective communication with the USACE team to make sure that Puerto 
Rico's needs are addressed.
            Thank you for your service,
                               Jenniffer A. Gonzalez-Colon,
                                                Member of Congress.

    Miss Gonzalez-Colon. Of course, we have got a lot of 
questions but the biggest of all those questions will be do we 
have the resources? Do we have the materials? Do we have the 
crews to handle those issues? I do know that that is not the 
mission of the Corps of Engineers, but in a moment like this we 
want you to finish the work you begin.
    Thank you, Mr. Chairman, and with that, I yield back the 
balance of my time.
    Chairman McCaul. The gentlelady yields back.
    We will go back to Members of the full committee, Mr. 
Rogers, from Alabama.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Long, it is good to have you here. It is refreshing to 
finally have a witness that doesn't have an accent before this 
committee. But before I get to my questions, I wanted to 
address some of the comments about local government officials 
being disgruntled after a disaster.
    I have been in this business 32 years. I was elected as a 
local county commissioner first and then served in the 
legislature 26 years here. Seen a lot of disasters over that 
period of time. These are traumatic events that are 
overwhelming to communities and is a Herculean effort to come 
in and try to do recovery.
    I have always seen disgruntled local officials, and we 
always will. There is never going to be the perfect recovery. 
But we then need to remember how far we have come.
    After the hurricane that struck New Orleans, that was a 
very poor performance anybody's standard. But FEMA has come a 
long way since then. I was on this committee and down in New 
Orleans during that period, but the last FEMA administrator was 
a complete pro and brought that department a long way.
    This FEMA administrator is top quality, too, and they are 
doing a good job. They have done a really good job in this last 
year with these overwhelming numbers of disasters. We need to 
keep in mind that perfection is never going to happen.
    But with that, Mr. Long, there was a story that came out 
that disturbed me. You know, it was in February that said it 
was reported that an entrepreneur, a Tiffany Brown, was awarded 
a $156 million contract to provide some 30 million meals to 
Puerto Rico in the wake of Hurricane Maria. She delivered only 
50,000 with only some limited staff working for her.
    Then the story went on to describe how shoddy those meals 
were and how incapable she really was. It turns out she had 
been getting Government contracts from a lot of different 
departments over the years that she was not able to perform.
    How is that happening? I mean, because it is just not 
happening in FEMA. How did this woman get this huge contract 
that she couldn't keep, fortunately, and we got somebody 
professional that took it. But how would that happen?
    Mr. Long. So there was never through the Federal awardee 
procurement systems that we use Government-wide, particularly 
FEMA as well, there was never an alert on the background that 
this company was not able to perform to meet the ramifications 
of the contract.
    Let me back up to talk about the magnitude of this year as 
well when it comes to procurement and contracts. Going into the 
2017 hurricane season we had 59 pre-positioned contracts to do 
water, ice, MREs, blue tarps, plastic sheeting, whatever. We 
had to initiate 1,973 additional contracts to cover the entire 
country from Calcinuria to the Virgin Islands.
    Out of the nearly 2,000 contracts we had, only three were 
canceled, Tribute being one of them. But there was no alert 
process that went through that said stay away from this 
company. Now, of the two companies that defaulted on the three 
contracts, two of them no taxpaying dollars went out to.
    You are correct. We spent $225,000 on 50,000 meals which 
were delivered. They were not packaged correctly, in my 
opinion, and the timing of getting the meals, for whatever 
reasons, they defaulted on the contract. We canceled it in our 
due diligence. Three out of 1,973 contracts were canceled.
    The problem with it is, is that now my agency as a result 
of going through this because there may have been other parts 
of the Government that didn't do their due diligence to throw 
the red flags into the system, now it is incumbent upon my 
agency to make sure that if the actions that were not taken or 
if they were trying to defraud us or whatever, that we alert 
them into the system as then follow the Department process if 
deemed necessary.
    Mr. Rogers. OK. Shifting gears, during these multiple 
disasters how did your emergency communications work, given the 
fact that power, as we just heard, power has been out for so 
long. Did that affect your ability for your first responders to 
communicate with each other and communicate with local folks?
    Mr. Long. So obviously, as I said in my opening statement, 
the problem is is we do not have a resilient and a redundant 
communications network so everything----
    Mr. Rogers. Why?
    Mr. Long. Well, because I think we have gotta reach out to 
the private-sector partners that, you know, we are being 
desensitized to our cellphones and to digital technologies. We 
are stepping away from landlines. But in the California 
wildfires a good portion of the capability was burned up. A 
good portion of the capability was blown out by Hurricane Irma 
and Maria.
    Anytime you lose the ability to communicate two things 
happen. You lose situational awareness, you lose the ability, 
for example, in my opinion, it wasn't that there wasn't enough 
food and water on the island of Puerto Rico. It was 
communicating to people where to go to get it. It makes 
everything difficult.
    We have to go back and navigate by stars, per se, to enter 
people into our individual assistance programs. So we have to 
strike up a very, you know, thoughtful conversation with the 
private-sector vendors of how do we build a system that doesn't 
go down, that is prepared for all hazards so that we don't lose 
that capability? It is crucial. It is beyond FEMA's ability to 
do it.
    Mr. Rogers. Thank you for your service.
    I yield back, Mr. Chairman.
    Mr. Long. Thank you.
    Chairman McCaul. The gentleman yields.
    Ms. Jackson Lee from Texas is recognized.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member for very wise effort. I hope that we can have succeeding 
hearings on the on-going recovery of our respective 
communities.
    Let me acknowledge that to date, and the numbers may be 
somewhat inaccurate, but let me offer to say that there were 88 
deaths due to Hurricane Harvey in the State of Texas and about 
30 as of September 4 in my surrounding area, including my 
constituents who were a family of 6 who drowned trying to 
escape in northeast Houston.
    I think it is important to acknowledge again that when we 
speak we speak for our brothers and sisters in the Virgin 
Islands and Puerto Rico, certainly in Florida and Louisiana and 
certainly in California. We speak in two different formats, one 
in appreciation. Being at the command station from the moment 
Hurricane Harvey hit, being based at the George R. Brown 
Convention Center in Houston, there was no doubt that it was a 
collective effort that we were dependent upon the FEMA's rescue 
part of their work.
    Certainly along with them the Coast Guard, and I personally 
am reminded of the first responders as we were sitting police 
and fire with two phones to our ears as people were calling in 
to be rescued. Those were difficult and dangerous and troubling 
times that many of my colleagues have been involved in in their 
own respective districts.
    So Administrator, let me first of all say thank you and of 
course as you well know I had more than 300-plus individuals 
gathered in my district not even enough on Monday last who were 
denials, people in hotels that were crying and frustrated about 
whether they could stay or find housing. So we are still in a 
period of recovery.
    I think it is important to express appreciation, but also 
to be honest on where we are today. Let me quickly try to 
express my interest and concern with breaking up FEMA or having 
FEMA have components of the rescue period, which is that early 
stage and then long-term recovery.
    I have a text on my phone from a pastor who indicates that 
inspectors came and there was 4 feet of water and they said it 
was 4 inches and denied. My meeting was based upon recovery and 
asked people to bring their denial letters and I must say, all 
of our local officials will acknowledge that the numbers of 
denials in our community were enormous.
    They particularly hit minority communities. In this text, 
it indicated the inspectors were not assessing some of our 
older homes properly and one statement, which I am trying to 
research, but I think it is important, that there were too many 
black employees that were hired that were temporary. We hope 
that that is not true.
    But my question to you is: What are your thoughts about 
reforming FEMA on the rescue immediate and then the long-term 
part of it? As you answer that question, would you answer the 
question about the enormous number of vacancies that I hope to 
put into the record--I ask unanimous consent to put in the 
record--the list of vacancies which are enormous. I don't want 
to take time to call them at FEMA. I don't know how you can 
possibly do your job as you have indicated when there are so 
many vacancies.
    Then the question with our----
    Chairman McCaul. Without objection, so ordered.
                   List Submitted by Hon. Jackson Lee
         Positions that are Vacant or are Designated as Acting
Source: Federal Yellow Book Pages Winter 2018 Edition (pages 423-428)
Office of the Administrator
Advisor to the Administrator (Vacant)
Counselor to the Administrator (2 positions) (Vacant)
Assistant to the Administrator Area of Responsibility: National Guard 
Bureau (Vacant)
Office of the Deputy Administrator (Acting)
Senior Advisor to the Deputy Administrator (Vacant)
Staff Assistant and Scheduler (Vacant)
Staff Assistant (Vacant)
Office of Executive Secretariat
Director (Vacant)
Office of Equal Rights
Affirmative Employment Program Manager (Vacant)
Equal Employment Opportunity Specialist (Vacant)
Senior Advisor to the Secretary
Senior Advisor to the Secretary for Emergency Management (Vacant)
Center for Faith-Eased and Neighborhood Partnerships
Director (Vacant)
Deputy Director (Vacant) [The only position staffed is the Executive 
Officer]
Office of the Chief Financial Officer
Chief Financial Officer (Acting)
Deputy Chief Financial Officer (Acting)
Business Operations Staff Director (Vacant)
Office of Policy, Program Analysis, and International Affairs
Associate Administrator (Acting)
Deputy Assistant Administrator (Acting)
Grant Program Directorate
Senior Advisory (Vacant)
Integrated Public Alert and Warning System Division
Director (Vacant)
National Preparedness Directorate
Assistant Administrator (Acting)
Deputy Assistant Administrator (Acting)
National Exercise Division
Director (Vacant)
National Integration Center
Director (Acting)
Deputy Director (Vacant)
National Preparedness Assessment Division
Director (Acting)
Deputy Director and Program Evaluation and Special Projects Branch 
Chief (Vacant)
Enterprise Business
Chief (Vacant)
Support Services and Facilities Management Division
Director (Vacant)
Executive Officer (Vacant)
Publishing, Personal Property and Support Branch Chief (Vacant)
Regional Operations Branch Chief (Vacant)
Office of the Chief Component Human Capital Officer
Deputy Chief Component Human Capital Officer (Acting)
Office of the Chief Procurement Officer
Deputy Chief Procurement Officer (Vacant)
Executive Officer (Vacant)
Field Operations Directorate
Deputy Director (Vacant)
Recovery Directorate
Deputy Assistant Administrator (Acting)
National Disaster Recovery Planning Division
Contract Financial Management Branch Chief (Acting)
Technology and Support Branch Chief (Vacant)
Response Directorate Operations Division
Director (Acting)
Federal Insurance Mitigation Administration
Associate Administrator (Acting)
Administrative Specialist (Vacant)
Senior Counselor (Vacant)
Risk Analysis Division
Director (Vacant)
Assessment and Planning Branch Chief (Vacant)
Business Analysis Branch Chief (Vacant)
Risk Insurance Division
Director (Vacant)
Risk Reduction Division
Director (Vacant)
Deputy Director (Vacant)
Floodplain Management Branch Chief (Vacant)

    Ms. Jackson Lee [continuing]. Resources the Texas General 
Land Office is trying to staff up. We need 90. I understand 
there are 33. I don't know if FEMA will help with the monies 
coming in that are part of FEMA assistance dollars to be able 
to help do the housing part of the second half of the work.
    So could you start on the reordering of FEMA and the 
staffing and how we are going to recover? Let me also 
acknowledge Representative--I am sorry, Mary Turner and our 
Harris County judge, the Governor, all of us working together? 
I yield to you.
    Mr. Long. Thank you, Congresswoman. So in regards to the 
response, you know, it is my job to coordinate the firepower of 
32 Federal Government agencies down to do the life-saving, 
life-sustaining mission, which from where I sit was pretty 
unprecedented, the number of lives that were saved and 
different things that are there.
    The problem is is that it has got to be more than FEMA from 
the standpoint in the recovery, but I believe it starts on the 
preparedness and then it goes back to a true culture of 
preparedness. For example, there is too much of an insurance 
gap and we learned that in Harvey. We learned that in Texas 
alone that we have got to go back to the basics to say that any 
house can flood regardless if you are shown in a flood map or 
not.
    We have to double the number of insurance policies and, you 
know, the level of assistance that FEMA puts out on an average 
through individual assistance is like $3,000, $4,000, $5,000. 
If you are properly insured the average payout in Harris 
Country right now is like $110,000. How do we help people get 
insurance and properly insured to speed up their recovery?
    I cannot make people whole, as you realize. You know, the 
toughest part is we still have a huge population in hotels and 
it is the toughest part is transitioning them out of the hotel 
and into more of a housing solution that is on their property.
    That is going to require more than FEMA again. We are not 
housing experts, and that is why I am asking for the granting 
authority to be able to give the Governor the ability to 
purchase their own trailers, purchase their own innovative 
housing, you know, tech capabilities that are out there.
    I believe that a Governor can do it faster, quicker, and 
cheaper than FEMA ever can because I am having to physically 
buy manufactured homes. I am having--use through the defense 
production authorities that I have. It is a cumbersome, time-
consuming process.
    I proactively put travel trailers back on the table because 
there is more volume and easier access to travel trailers to be 
able to do that. But I am not the housing expert. We have to 
have more conversations with HUD, with SBA, with our Governors 
to say what is the right mix? What are the swim lanes and 
capabilities that we need? Thank you.
    Chairman McCaul. The gentlelady's time has expired.
    I recognize Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. Gentlemen, thanks for your 
attendance. I am over here. I will start out as as a guy who 
has worked in this arena a little bit, State disasters and some 
Federal disasters as as a Pennsylvania guardsman. I am just 
wondering, especially in these broad-scale disasters from 
FEMA's standpoint and from the Corps' standpoint as well, is 
there anything that the Guard can do better? Is there anything 
that inhibits us?
    I know that it is hard to pre-position certain--you don't 
know what you need sometimes until you need it, right? You have 
different States and different services, whether it is the Air 
Guard or the Army Guard with different requirements and so on 
and so forth.
    I am just wondering from your standpoint is there anything 
that we fall short on? Is there anything that we can improve 
State-to-State to respond and be helpful and responsive in a 
critical time of need?
    Mr. Long. Well, first of all, my hat is off to the National 
Guard. I mean, we, you know, here again, they are one of the 
most critical partners that we have and one of the most 
critical assets that a Governor has. We saw them do yeoman's 
work when it comes to delivering water, ice, MREs, to saving 
lives.
    The issues that have been raised to me by General Lengyel 
and others and as well as Governors falls in line with the 
emergency management mutual aid assistance compacts in EMAC.
    Mr. Perry. Right.
    Mr. Long. The speed in which the National Guard assets are 
reimbursed. I don't have the authority. If you were the 
Governor of New York and say and Governor Rossello worked out 
an EMAC deal and you are going to provide Governor Rossello 
your National Guard, I don't have the ability to reimburse you 
directly.
    All my reimbursement authority under the Stafford Act has 
to go through the Governor to you so you are dependent upon 
that Governor, the requesting Governor, reimbursing you back.
    That is the problem as I understand it. I don't know how to 
solve that problem but----
    Mr. Perry. So that is not a FEMA relationship, so to speak. 
It is more of a guard bureau-to-State relationship----
    Mr. Long. Well, EMAC----
    Mr. Perry [continuing]. As you understand it?
    Mr. Long. Yes, so EMAC is a Governor-to-Governor contract. 
Quite frankly, I don't know if you want FEMA involved in that 
Governor-to-Governor contract.
    Mr. Perry. Right. I am not saying we do. I just want to 
know where the shortcomings----
    Mr. Long. Right.
    Mr. Perry [continuing]. So we can try and improve.
    Mr. Long. Yes, right, so that is it. If I get involved then 
they have got to adhere to my procurement rules, 2 CFR Part 
200. Honestly, you don't want that.
    Mr. Perry. So it is essentially just the speed between 
which Governors come to agreement and then inform you?
    Mr. Long. Right, and then reimburse each other.
    Mr. Perry. OK.
    Mr. Long. You know, it is they have to cut that contract up 
front.
    Mr. Perry. OK. I have another question. I am sensitive to 
some of the things that my good friend Ms. Gonzalez spoke to 
regarding power and per the information I have it is, you know, 
September 20 was when the hurricane hit Puerto Rico.
    Irma I think about 10 days prior so they already sustained 
damage from Irma. Now we are, you know, we are nearly 7 months 
on, right? You know, March 20 it will be 7 months.
    From the information I have Puerto Rico's power has been 
restored and I am curious about generation because the 
information I have says power has been restored to customers 90 
percent, Virgin Islands 99.8, St. Thomas 99.1, or St. Croix--
St. Thomas and St. Croix.
    So the question I have is, is we had a hearing some time 
ago about how many crews the folks that are restoring the 
power, whether it is generation or whether it is distribution 
on the island, how many crews were available and we get the 
situation with PREPA, how bad the infrastructure was prior to 
the storm and that the ports of entry, whether air or sea were 
damaged heavily and it just made it hard to, even if you had 
pre-positioned assets, all those things withstanding, how many 
crews do you know, if you do know, are still on the ground on 
the island and to do this work? How many do you think are 
required?
    Mr. Long. I would need to yield to General Jackson.
    Mr. Perry. Sure, absolutely.
    Mr. Long. He owns the contracts for that.
    General Jackson. Sure, Congressman, thanks for that. You 
know, at the height of the activity on Puerto Rico where we had 
the most number of boots on the ground we had about 6,000 line 
workers that were a combination of what fell underneath the 
Corps of Engineers command and control and what fell underneath 
the contracts that PREPA's managing.
    Today the Corps of Engineers has about 1,317 folks on the 
ground. PREPA has 2,100 or so, 2,200 line workers on the 
ground. That has changed over time.
    There is something called a unified command group which is 
headed by Mr. Carlos Torres, who is the Governor's storm 
response coordinator. He is the one who leads a group, includes 
FEMA, Corps of Engineers and includes PREPA leadership and 
representatives from the Governor's office.
    Every day they meet and they take a look at material 
availability, prioritization of line repair, and they make 
decisions on how lines are assigned, what requirements are out 
there and try to----
    Mr. Perry. Sir, I don't want to cut you short, but I am out 
of time here. I am interested to know what your estimate is of 
100 percent distribution completion on the island, if you know? 
If you know that?
    General Jackson. Congressman----
    Mr. Perry. It has been a long time to be without power. I 
mean, you can imagine, right?
    General Jackson. Yes, it has been a long time. We are 
estimating or we have estimated that it would be probably mid-
May before 100 people, 100 percent of all the stuff----
    Mr. Perry. Mid-May?
    General Jackson [continuing]. Is done. Yes, sir.
    Mr. Perry. All right, thank you.
    I yield, Mr. Chairman.
    Chairman McCaul. The gentleman yields.
    Mr. Payne is recognized.
    Mr. Payne. Thank you, Mr. Chairman.
    Thank you for being here and appreciate your testimony.
    You know, staying focused on the territories, in Puerto 
Rico nearly 1 in 3 schools lacks electricity and many also lack 
consistent access to clean water. This has forced many schools 
to operate on a limited daily schedule leading to school-age 
children in Puerto Rico missing out on more than 20 million-
fold days of learning.
    What plans do you have in place to ensure that no displaced 
child is out of an educational setting for more than 30 days in 
the future?
    Mr. Long. Congressman, I would have to get back to you in 
writing on that. I don't know.
    Mr. Payne. Well, you know, we have situations that I have 
brought up in the past surrounding children and their needs 
during disasters. You know, we feel that more attention has to 
be paid to the special circumstances not being with the parents 
reconnecting with them after disasters.
    The example that I use the most is several years ago the 
tornadoes in Oklahoma, there was an issue about reuniting 
children with their parents after the situation. Also the need 
to identify areas of learning. You know, their daycare centers 
sometimes aren't listed and first responders just went right 
past, you know, because they are in private areas.
    So we need to designate how we locate children as well in 
these areas. But it is something that, you know, I have been a 
proponent of, making sure that we have some type of, you know, 
they are not little people.
    They are children and so they need guidance and someone to 
look out for them during these issues as they arise and then 
being reunified with their parents.
    So please, as you formulate, you know, your mission going 
forward that you keep that in mind and also, you know, we can 
discuss it more at at a later day.
    Mr. Long. Just a couple resources we do have resources for 
children in disasters. I agree with you. We have to do more. I 
have two young boys, 11 and 8, and I think, but here again, 
this is far greater than FEMA.
    This is a partnership with FEMA, nongovernmental 
organizations and the Department of Education for example, 
because there are tons of statistics. You know, for example, 
spousal abuse goes up after disasters, all types of things. So 
we have to be able to recognize these things.
    But here again, I don't know if FEMA's the expertise when 
it comes to this, and we need partners. The other thing is is 
that FEMA in the past has developed programs such as NMETS. It 
is the National mass evacuation tracking systems for large-
scale disaster evacuations of trying to reconnect.
    We have established family reunification concepts after 
disasters as well. It might just be we need to further promote 
and train at the local and State level as to what the 
availability of our resources are. Thank you, sir.
    Mr. Payne. Absolutely, and, you know, last year, you know, 
FEMA had the National advisory council recommend the creation 
of something along that line to support center of excellence, 
you know, type training for emergency preparedness. So, you 
know, that might be an area to look at as well.
    Thank you, and I yield back.
    Chairman McCaul. The gentleman yields.
    Mr. Donovan is recognized.
    Mr. Donovan. Thank you, Mr. Chairman.
    Thank you, all three of you, for coming and sharing your 
expertise with us. I am the Chairman of the subcommittee of 
this committee that deals with emergency preparedness, 
response, and communications. Five minutes of questioning, even 
with all my colleagues, there is not enough time for us to 
delve into all the areas of, as we have put as the title of 
this hearing, ``Lessons Learned''.
    So I was wondering if there is a way you could compile for 
us the lessons that we have learned from these disasters? It is 
absolutely amazing to me the amount of disasters that you had 
to deal with simultaneously or consecutively with the resources 
that you have. We haven't even talked about the wildfires and 
mudslides in California, the amount of hurricanes we have had.
    In my role as Chairman, it would be very helpful to us if 
we had a compilation of all the things that you have learned 
from this that we could help you for the future. Because places 
like Puerto Rico, the Virgin Islands, Florida, Texas, 
Louisiana, they are going to get hit with other hurricanes.
    My understanding is, from my colleagues who live in tornado 
areas or even earthquake areas, there is not much warning 
there, but with hurricanes we follow these models, these 
patterns from storms developing off the coast of Africa and 
then try to predict where they are going to hit. So it would be 
very helpful to us if we had that so we could help you.
    In my role, I visited Puerto Rico about 3 weeks after the 
storm and then recently with Jenniffer went down to--and John 
Rutherford--went down to see how the recovery is coming.
    The island was consumed. The storm was bigger than the 
island. It sat over there. My recollection is it moved at about 
8 miles an hour after it hit landfall and for 36 hours dumped 
more rain than Puerto Rico experiences in an entire year. The 
ground couldn't absorb it.
    When we flew over in Blackhawk helicopters without doors 
and I told you in the muster room I am afraid of heights, but 
we went up to visit the island and to observe all the 
devastation. The island was brown there.
    The challenges of getting supplies to folks who were just 
isolated because they are an island, and I suspect when you 
have a disaster that you are responding to in the mainland you 
could drive supplies to. You have them pre-staged somewhere and 
after the storm is over you can--it is very difficult, the 
airport being closed, the port being closed. Your first 
responders on Puerto Rico being victims themselves, very 
challenging.
    We witnessed when we went back a few weeks ago to see how, 
General, you have to take telephone poles by helicopter up to 
the mountains to get them into the ground and then by 
helicopter stringing along the electrical wiring to provide 
those poor folks up there with electricity.
    It is an amazing challenge and one that I think, again, 
would be helpful if you could tell us in some type of report of 
what we could do to better be prepared for the future.
    One of the things I would also ask you to do for me, Brock, 
is I have a lot of attached housing where I live. I represent 
New York City, parts of New York City, and to mitigate for 
flood insurance a lot of the people that live in my district 
cannot raise their houses.
    So if FEMA could come up with some mitigators to those 
folks who can't raise their homes so they can experience 
reductions in their flood insurance, that would be very 
helpful.
    The last thing I would like to speak about before my time 
runs out, I have constituents who took that responsibility and 
spoke about and are trying to get flood insurance.
    But they are not able to pay it in full at one time. Part 
of the Homeowner Flood Insurance Affordability Act of 2014 
created this system where people could pay by payment plan.
    One particular woman who reached out to me, Camille Soulle, 
who tried to do that and the system is not in place yet. So if 
you could look into that for me, I would very much appreciate 
it.
    Again, this woman and many people are trying to do the 
right thing, protect their properties by having National flood 
insurance, but can't pay it in full or in whole and want to use 
this payment plan that we have put into place. If you could 
look into that for me I would very much appreciate it.
    Mr. Chairman, I yield back the remainder of my time. Thank 
you.
    Chairman McCaul. All right. The gentleman yields.
    Mrs. Demings from Florida is recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman, and to our 
Ranking Member and to our witnesses. Thank you for being here 
today and thank you for all that you do to restore families 
after natural disasters. I grew up in Florida, still represent 
Florida, served as a first responder and so I am no stranger to 
hurricanes.
    Mr. Long. I do want to ask you, according to reports, FEMA 
has denied about 23 percent of the 2.9 million applications for 
individual assistance after Hurricanes Harvey, Irma, Maria, 
with the majority of those denials being in Florida. Several of 
my constituents report that their applications have been 
rejected for technicalities, typos, or an omitted document.
    Rather than a plain language request for additional 
information, they received a 4-page denial. My office had the 
opportunity to assist one of the families whose home was 
destroyed by patches of toxic mold covering every surface, but 
because they were missing one insurance form they faced a 
termination of their transitional housing assistance.
    Now fortunately we were able to help them resubmit their 
application and they qualified for an additional 18 months of 
continued rental assistance.
    So my question is how does this denial rate compare to 
prior disasters? What factors might explain the difference, if 
any?
    Mr. Long. So I don't know what the, you know, where that 
rate compares, but I can tell you that the fundamental problem 
when it goes back to reducing the complexity of FEMA, one of 
the problems that we have is we immediately go out and say call 
1-800-621-FEMA. We blanket communities.
    The problem that I have with that is is that we need to 
change the dialog on that. It needs to be call 1-800-621--if 
you meet this specific criteria to where aid can be rendered to 
begin with, because it sets up a negative relationship with the 
disaster survivor versus our agency right off the bat. It leads 
to too many calls being rejected.
    Now, if your citizens are being not afforded individual 
assistance because of simple technicalities, I would like to 
work with you directly on what those technicalities are so that 
we can streamline whether it is the way the website is designed 
to register systems or maybe we got it wrong and I can refer 
you back to an NIA case manager in the joint field office in 
Florida. I would be happy to do that.
    We regularly have dialog like that, and I do believe it is 
incumbent upon us to make sure that we leave no stone unturned 
when it comes to the citizens, so----
    Mrs. Demings. So would you say the process if a person did 
not have all of the documentation that they needed, do you know 
if the process is an automatic denial at that point? Or do you 
see----
    Mr. Long. Well----
    Mrs. Demings [continuing]. This as additional information?
    Mr. Long. I wouldn't say it is a denial, but the problem 
is, is that people don't come prepared to the first phone call 
because we are not doing enough to say when you call make sure 
you have your insurance information, Social Security number, 
and in some cases I think it is a messaging problem that we 
have got to get better at the first time.
    Then maybe they come back and then they are put in. But if 
there is a true fundamental flaw with the system and the way it 
is designed then I am all ears. I would be happy to understand 
it and change it.
    Mrs. Demings. OK. Thank you for that. Earlier you talked 
about Texas and it being a model, and I believe you said that, 
you know, in order to appropriately respond it has to be 
Federally-supported, State-managed, and locally-executed. Is 
that correct?
    Mr. Long. Right.
    Mrs. Demings. You know, and as I mentioned in my opening 
statement, you know, being no stranger to hurricanes in 
Florida, could you talk a little bit about the Florida response 
and may perhaps we might be able to improve and at which level?
    Mr. Long. So Governor Scott has done a tremendous job as 
well, and me calling out Texas specifically is no shot at 
Governor Scott by any means or any of the other Governors. 
Florida is also a model. Florida has also been a gold standard 
as well.
    They are also flush with resources, too. You know, the 
thing about it is what I appreciate is, is that when a Governor 
takes over the response and the recovery and provides me clear 
outcome goals of what they are striving for, then I can better 
the resources down to them from a financial standpoint or from 
physical resource standpoint.
    I would like FEMA to become more of a block-granting agency 
to fund the response and allow the community to respond and 
recover the way they see fit. I don't know Florida better than 
you, ma'am.
    I don't know Florida better than Governor Scott. So how do 
I get the authorities and arrange the support down to where 
Florida can recover the say Florida wants to recover? Puerto 
Rico can recover the way Puerto Rico wants to recover.
    It is my goal to provide technical expertise to Director 
Wes Maul is going to be testifying with you together to say, 
hey, here are some best practices. Here is the way to use this 
funding to ultimately create a more resilient Florida.
    I am tired of going back into communities as an emergency 
manager and repeating this vicious cycle of things get blown 
out, we repair it. Things get blown out and we repair it. That 
is why I believe we have to also do more mitigation on the 
front end to prevent these things.
    The insurance gap is only growing. It is frustrating 
because when people are uninsured or let their insurance lapse, 
like what we saw in California, they paid off their mortgage, 
the fire comes in and burns down their house. They are trying 
to have a little extra money in retirement.
    As a result then that becomes an individual assistance 
problem. My individual assistance program grows daily the need 
for FEMA is growing daily. I want it to go the opposite 
direction. But we can't do it alone.
    Mrs. Demings. Thank you.
    I yield back.
    Chairman McCaul. The gentlelady yields.
    Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Mr. Chairman.
    Thank you, Mr. Long, for your continued service and General 
Jackson, as well Mr. Kelly. Thank you for being here today.
    I represent south Louisiana, gentlemen, and we are 
certainly well-experienced regarding hurricanes and natural 
disasters and recovery thereafter and preparation prior. My 
State provided support to Texas pre-staging a rescue operation, 
sheltering prior to Harvey, and in the wake of Harvey.
    I personally went into Texas immediately after Harvey on 
the Thursday morning and participated in rescue operations on 
the ground in Texas. I would like to talk about infrastructure 
challenges in the continental United States versus Puerto Rico.
    But regarding the process for reimbursement to the States 
for domestic response, Mr. Long, what do you believe is an 
acceptable time frame for reimbursement? How can FEMA improve 
the process for reimbursement to the States that at their own 
expense, sometimes tremendous expense, immediately participate 
in sheltering and rescue operations in the wake of a natural 
disaster?
    Mr. Long. So we started to look at and it is something that 
we have implemented kind-of after post-Katrina as expedited 
public assistance payments down, particularly if there are 
liquidity issues or issues to pay for the emergency services 
right off the bat, which I believe is a success. We need to 
continue to do it.
    Always we have to protect against waste, you know, waste or 
inaccurate funding and that type of thing. We----
    Mr. Higgins. Do you think the reimbursement process that we 
hope to improve would be included in you vision for reform and 
streamlining the operations? Where greater availability of 
block grants to Governors and give them----
    Mr. Long. Yes.
    Mr. Higgins [continuing]. Give them the opportunity to make 
these decisions and be your filters so we get FEMA out of it? 
And allow the Governors of the 50 sovereign States greater 
flexibility on how to respond quickly?
    Mr. Long. Absolutely. That is--you know, and we have to do 
it. It would be a phased, delicate process to make sure that 
we, you know, we are protecting the taxpaying dollars but we 
are affording the Governor to truly find ways to be resilient.
    I believe Governors can do business quicker and more 
innovatively than the Federal Government.
    Mr. Higgins. I agree, and I support that effort and hope to 
be a part of the legislative effort to make that happen.
    General Jackson, regarding infrastructure post-storm, 
Houston, one of the most advanced cities in the Nation, 
certainly by any measure, and yet in the city of Houston both 
air traffic control towers at the two major airports in Houston 
were down after Harvey.
    First responders--of course commercial traffic was shut 
down, but first responders' air traffic was handled through the 
Army Memorial Hospital air traffic control tower at their--they 
have a helipad, of course, at their airport.
    It struck me as in the continental United States the level 
of construction and infrastructure is quite different from, for 
instance in Puerto Rico, the island of Puerto Rico. Yet even in 
Texas, in Houston, the air traffic control towers were down 
immediately after Harvey for first responders to use.
    So regarding the standards for grid construction, for 
instance in Puerto Rico, my understanding, my sources advise me 
that prior to the storm approximately 20 percent of the grid 
was down in Puerto Rico. Is that correct?
    General Jackson. Congressman, the grid had some significant 
deferred maintenance issues and significant operability issues 
before Irma hit. Irma, when it came through caused some damage 
to the grid that wasn't fully repaired before Maria came in and 
further damaged the grid.
    Mr. Higgins. So your efforts in Puerto Rico, have you 
essentially restored the grid to its pre-storm performance?
    General Jackson. Congressman, the Stafford Act allows us to 
restore the grid in its current configuration, but in fact, the 
grid in Puerto Rico is about 44 years old. The average grid in 
the rest of the United States is about 15 years old.
    So as we have gone and repaired the lines and the towers 
and all the components of the grid, and it is only transmission 
and distribution. We haven't been given any authority to work 
generation other than temporary generation that we have used to 
augment repair operations.
    I mean, we are working continuing to build that back, and 
it is going to be a much better grid than it was when we 
inherited it just because of the State that it was in when we 
took over the restoration effort.
    So it is not changing in configuration so we are not 
burying lines where lines were strung with transmission towers 
before-hand. But we are replacing what was damaged with modern 
equipment up to code. You know, the Puerto Rican grid had about 
15 different types of transformers. The industry standard is 
four.
    So as we have had to piece this back together we have had 
to put different components back in the system, which is going 
to make it a more efficient system when we are done.
    Mr. Higgins. Thank you for your very thorough answer.
    Mr. Chairman, I yield back.
    Mr. Donovan [presiding]. The gentleman yields.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank all of you for your service. This is titled ``Lessons 
Learned''. Part of what I want to get into is that those 
lessons learned should be geared toward mitigation and 
prevention in the future of disasters. In that case I also want 
to associate with everything that is being said by the other 
Members, but I want to gear in on my district in particular.
    It is probably the most coastal area. It is the south 
shore, the south coast, Cape Cod, and the islands. If it is not 
one of the biggest coastal areas it is one of them. I just want 
to address some of the important issues.
    I think this boils down to we can't be expecting all of you 
to do more, and we are going to have to do more the way the 
cycle of climate change is going, with less. But in my 
district, you know, there are some examples. We are doing a 701 
study on the Cape Cod Canal, vital safety area, navigation area 
in our area that has just been so delayed.
    We have two connectors to almost 300,000 people in Cape Cod 
area--only two bridges. There is a study with that that is just 
so delayed. It is on-going, but delayed, and the Commonwealth 
of Massachusetts is ready and willing to work with us, and that 
is holding things back.
    The potential for disaster is enormous. We have a nuclear 
plant, right, in one of the third worst in terms of safety, 
built on the coast, Fukushima's designed plant, yet those two 
bridges can cut off access to all those people if there is any 
kind of disaster.
    On a daily basis the dredging issues in our area are 
enormous and that affects rescue missions and dealing with it.
    So I want to say just a couple of things. No. 1, 
particularly General Jackson, we deal with the Army Corps daily 
in our area, the personnel there, the administration there, the 
communication is excellent.
    We work together. We strategize together. They do a great 
job, but again, the real issue, and when we talk to them is, we 
don't have enough money to do this. There is no way to 
prioritize for everything that is of equal or greater need. We 
have to do a job here.
    Now, I have helped with the appropriation process here 
targeting in areas without earmarking, but we have been able to 
do that and work together. I understand the constraints that 
all of you are sitting under if you have to comment about not 
being funded adequately. Not just this administration but 
administrations before, sort-of they don't encourage you to say 
you are not adequately funded.
    But the plain fact is you just can't do, I think it is 
irrefutable, you just can't do all these things with less.
    So couple of things No. 1, I would ask you if you could, 
outside the hearing, in the next few weeks maybe deal with our 
staff here on that end. We are dealing so well with your staff 
in the regional level, honestly, working these things out.
    Also if you could just comment generally, if you could, 
with the factor that not having enough resources to please 
everyone, without talking about budget numbers and getting 
yourself maybe compromised. How important that is, if you 
could?
    General Jackson. Congressman, sure, I will be glad to do 
that. First of all, you know, authorized but unconstructed 
projects that are in the Corps' portfolio right now top $96 
billion in fiscal year 2016 numbers. But we are only able to 
generate about slightly over $1 billion every year in 
construction funding because there is not a limitless Federal 
budget.
    I mean, there are a lot of demands, a lot of hard decisions 
have to be made. So but that is just the fact of what we have 
to deal with every day.
    What we are doing is we are working very closely with the 
administration as they are putting forth their infrastructure 
package to the Congress. You talked about the speed at which we 
operate. We have identified or helped to identify a number of 
legislative proposals that will help us move faster.
    We are working a number of proposals inside the 
administration to allow us to operate more quickly. We are 
participating in all of the different initiatives that the 
administration put forth specifically on regulatory 
streamlining, permit streamlining, and environmental review 
streamlining.
    We are fully participative in all that as a whole of 
Government, which allows us and all the other resource agencies 
that work together to be able to sort-of move faster than we 
have been able to in the past.
    Mr. Keating. Well, I would certainly work with you on that. 
My time is running out but I would like to say on the flood 
insurance as well, we have questions outside of that where 
there is good bipartisan work being done. But go on.
    Mr. Long. Yes, so we need a lot of work on the NFIP 
reauthorization. It is not a healthy program and we need to 
make it financially solvent, no doubt about it.
    In regards to funding, one thing I want to point out though 
is that the bread and butter of emergency management is the 
State and local levels of emergency management and Government. 
It is not just whether or not FEMA has got enough money.
    It is our Governors and States--and not even Governors--
State legislatures total, you know, really taking a look as a 
result of going through the season and saying does their State 
emergency management agency have what it needs?
    Do their local emergency management agencies have what they 
need? Because a majority of the events that the locals and 
States are going to face, FEMA is not going to be involved.
    Mr. Keating. Right.
    Mr. Long. Yes.
    Mr. Keating. Well, thank you. Thank you. I would say in our 
State we are doing a pretty good job in that regard.
    I yield back.
    Mr. Donovan. The gentleman yields. I know Mr. Long has a 
hard stop at 12:30 so I would ask the remainder of the 
questions to be kept within the time period.
    The Chair now recognizes Mr. Rutherford from Florida.
    Mr. Rutherford. Thank you, Mr. Chairman.
    General Jackson. I represent the three coastal counties in 
northeast Florida, Nassau, Duval, and St. Johns, and my 
question is, is beach nourishment and sand dune construction 
treated differently than other mitigation from storms?
    General Jackson. Congressman, it is not treated any 
differently.
    Mr. Rutherford. OK. Because here is my question, and I was 
really glad to hear you say that we are looking for ways to 
speed the process up. Colonel Kirk has been great to work with, 
him and his personnel.
    But one of the issues that we are looking at, I have one 
home that is literally already falling into the ocean, and many 
more South Ponte Vedra Beach that are really on the edge of 
falling in, literally. I mean, they have already been 
undermined.
    And FDEP, the Florida Department of Environmental 
Protection is working closely with us, but an 18-month study 
seems like a long time when your house is hanging on the edge.
    So my question is: Are there other ways that we can get 
funding to the State after they pick up their piece of it, as 
they should, is there other ways that we can get that funding 
to them more quickly so that we can address these houses that 
are really on the verge?
    General Jackson. Congressman, I can tell you right now we 
are wide open to any ideas that you or your staff might have as 
well as Florida and the State government there. We have been in 
a number of discussions with them about how to move faster.
    A lot of times the study process that you referred to that 
takes some period of time is driven by the environmental review 
process, which I think the administration has been looking at 
very closely to try to get done much more quickly and with less 
ability for other Federal agencies to have long-standing 
decisions that cause us to redo different portions of it.
    So we are going to work really hard on that. I think the 
supplemental that the Congress passed has given us some broad 
discretion to take a look at areas that are either need to be 
studied or are being studied right now or just need funding for 
nourishment. They have been very specific about waiving 902 or 
the cost limits that have been imposed based upon the 
authorization.
    Also that when we do build the beaches back that we build 
them to full design, full construction requirements. So I think 
there is a lot of great potential for the projects that you are 
talking about with the supplemental that Congress passed.
    Mr. Rutherford. Thank you very much for that, and I will 
look forward to working with you on that.
    Mr. Long, I have to tell you, as a first responder myself, 
I am familiar with pre-positioning equipment and the mitigation 
after some of these horrible storms. Look, the last thing you 
want to do is pre-position your equipment on an island that is 
about to get hit by a Category 5 storm. So that is a bad idea.
    But I will tell you that there was some pre-positioning 
that went on of some goods that were pre-positioned in a city 
that I represent, Jacksonville, Florida. As you know, I think 
the American maritime industry did a fantastic job in response 
to Puerto Rico's needs.
    In fact, they had pre-positioned container units in 
Jacksonville within days of the port opening. Those goods were 
on the port, which actually allowed the mayor of San Juan to 
stand there and criticize the response with thousands of 
container units stacked up behind her.
    The challenge was, is more people know, and I would like 
everyone to know, the challenge was distribution. You mentioned 
that. The communications, the transportation, all of that got 
in the way of distribution of goods and services.
    As somebody who has been responsible for that in the past, 
I understand completely what you all were facing. So I would 
mention that, you know, the Jones Act was so politicized that 
there were folks on the news talking about how quickly the 
President suspended the Jones Act in Texas and how long it took 
for Puerto Rico. It was a 1-day difference. I went back and 
checked--1-day difference.
    In addition to that, so much misinformation about the Jones 
Act and the cost of goods and services. Folks were actually 
improperly describing how the Jones Act even works, talking 
about--I heard an individual in Jacksonville on the news 
talking about the reason it costs so much is because foreign 
vessels have to sail into an American port, drop those goods 
off, and then reload those goods onto an American-flagged ship 
and sail it down to San Juan. Wrong. Those foreign ships can 
sail directly into San Juan, and they do all the time.
    So, you know, there was a lot of politicization of what was 
going on down there. But I would like to ask one thing about 
the contract issue. Would it help if we created a database of 
these bad actors through these contracts?
    Mr. Long. Well, I believe that the database in the system 
exists. It just wasn't put in prior to us reaching out.
    Mr. Rutherford. Oh, OK.
    Mr. Long. There was a resource training. But one thing I 
would like to follow up on regarding distribution and 
commodities, this is the story that is not being told. As I 
said, we have hired approximately 1,300 Puerto Ricans to be 
part of the response and recovery and the future arm of 
emergency management.
    What we are doing to prepare for the 2018 hurricane season 
is now we are starting to build a true network of emergency 
management at the commonwealth and local level that did not 
exist, in my opinion.
    So what we are doing is we have planned a series of 
training and exercises that are going to culminate in a full-
scale exercise in this coming June with the Governor, with the 
mayors, specifically designed around the distribution of 
commodities. We are also reconfiguring some contracts. You 
don't just execute a contract and the ship shows up 
immediately.
    Mr. Rutherford. Right.
    Mr. Long. It takes 7, 8 days to fully execute the Comfort 
in motion and ships like that. So we are doing a tremendous 
amount of work that is not being talked about, and it is not 
FEMA doing it for Puerto Rico and the commonwealth.
    It is we are working with the commonwealth to make sure 
that they will have the State level and local level capability 
to manage this disaster in the future so that we reduce our 
footprint in that manner.
    Mr. Rutherford. Thank you. I have several other questions, 
but my time is up.
    I yield back, Mr. Chairman.
    Mr. Donovan. The gentleman yields.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, Ranking Member 
Thompson, and Members of the panel here today. Thank you very 
much for your testimony.
    Let me start with Administrator Long and General Jackson. 
Climate change continues to increase the incidence of major 
storms and flooding, especially threatening the lives and 
livelihoods of residents in coastal States like my home State 
of Rhode Island.
    Administrator Long and General Jackson, what steps are FEMA 
and the Army Corps of Engineers taking to prepare coastal 
communities like mine for this increased risk and to mitigate 
the damage of future disasters?
    Mr. Long. I will start. There are provisions and mitigation 
planning so we require States and local governments to have 
mitigation plans. They are signed off on by FEMA, just kind-of 
your understanding of how you want to mitigate for future 
disasters.
    There are sea-level-rise provisions that are in those 
mitigation standards that are there. The problem goes back to 
you have got to get hit with a disaster to be able to execute 
your mitigation plan if you want FEMA mitigation funding.
    So the problem we have to solve in my opinion is we have 
got to get the pre-disaster mitigation up front so that people 
can execute those mitigation plans before the disaster occurs 
or things like sea level rise start to occur.
    General Jackson. Congressman, after Superstorm Sandy, the 
Corps worked with all the States in the northeastern part of 
the United States and also with experts adorn the world to 
identify coastal risk and published the North Atlantic Coastal 
Comprehensive Study, which identified a lot of different risk 
areas and identified things that the Federal Government, the 
States, and the localities could do to address just what you 
have talked about.
    So we are in the process right now of working with all the 
States on the northeast side that were impacted by Sandy to try 
and address those mitigation measures and lower the risks to 
the communities that are on the coastline.
    With the Corps we incorporate everything that we know about 
climate change and sea level rise in our designs. So as we 
conduct studies on coastal resilience and in areas that we know 
have significant risk, we incorporate everything that we know 
about that and those are implemented into our design standard 
when we put those projects forward to the Congress for 
authorization.
    Mr. Langevin. Good. I think it is essential that we be as 
forward-leaning, as forward-thinking as we can on this issue 
preparing for climate change because it is here. What we can do 
to mitigate it is going to make everyone better off in the long 
run.
    That is probably a whole other discussion about what we 
really need to do long-term to reverse the effects of climate 
change.
    But let me start this. Natural disasters like hurricanes 
and floods and fires that we saw in 2017 certainly were 
devastating to countless people and communities in their path. 
For individuals with critical health conditions or 
disabilities, these effects are magnified, sometimes 
significantly.
    Despite requirements that disaster planning consider and 
include accommodations for individuals who require accessible 
modes of communication or transportation and medical devices or 
other types of assistance, too many we found are left to fend 
for themselves when catastrophe strikes.
    So Administrator Long, in your testimony you mentioned the 
importance of learning lessons about meeting the needs of 
survivors with access and functional needs. What lessons have 
FEMA and its partners learned from last year's disasters? What 
changes have been made to procedural guidance?
    How were these recommendations monitored for compliance and 
implementation to ensure that people with disabilities are 
carefully considered in disaster planning, response, and 
recovery?
    Mr. Long. Well, first of all, I believe as a Nation, not 
just FEMA, but all entities need to bake in inclusion and 
functional and access needs as to part of their DNA every day. 
You know, I can't force a city to be ADA, you know, compliant.
    But what I can do is start to organize recovery dollars 
that go into communities after the fact or mitigation dollars 
to help communities and emergency managers achieve a higher 
level of functional and access needs.
    Most recently I hired a lady by the name of Linda 
Mastandrea, who is now FEMA's Office of Disability Integration 
Coordination. I have asked her to go out to understand and work 
across the lines with FEMA recovery office to say, look, when 
all of this funding comes down how do we actually help these 
communities improve facilities in a manner that they become 
more functional and access needs-compliant to ensure inclusion, 
you know, not only through the future of the infrastructure 
that is built but also within our shelters.
    We have a lot of work to do as a Nation, but that here 
again, this problem is far greater than FEMA. But we are 
working to address it every day. I would be happy to set you up 
with Linda Mastandrea. She is phenomenal.
    She was most recently in South Korea. She is a Paralympian 
that has won, I think, 15 gold medals and phenomenal lady. She 
is also a lawyer, so she is very, very well-versed and I think 
you are going to see some changes in the way we handle 
functional and access needs.
    Mr. Langevin. Well, thank you. I look forward to that 
meeting and I would like to further continue our discussion on 
this topic. I have several more, but my time has expired.
    I will yield back at this point, but I look forward to 
submitting my questions for the record and hope that you can 
get back to me as soon as possible on these and then I look 
forward to our continued discussion on this important topic.
    Thank you, Mr. Chairman. I yield back.
    Mr. Donovan. The gentleman yields.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I want to thank all three of you for your leadership. You 
were put in a very tough situation with terrible hurricane, the 
airport down, the roads, the power. I mean, what a challenge. 
So I know you have been working this very hard.
    My first question is for Administrator Long and General 
Jackson. What would be the criteria for considering mission 
complete?
    Mr. Long. We are still there. We are going to be there for 
years.
    Mr. Bacon. Be there for years.
    Mr. Long. You know, those--yes, I mean, you know, it is too 
early to grade myself or say mission complete. Bottom line is 
we are going to be administering dollars to help these 
communities overcome for years.
    The one thing that I think that we are missing here is is 
that there weren't just four events last year.
    Mr. Bacon. Right.
    Mr. Long. Right now my staff is diligently working in 14 
different States. Last year we picked up a new event every 3 
days.
    Mr. Bacon. But just to clarify you think you will be in 
Puerto Rico for years?
    Mr. Long. Absolutely.
    Mr. Bacon. Like got to----
    Mr. Long. Absolutely.
    Mr. Bacon. General Jackson, anything else with that?
    General Jackson. Congressman, I mean, we are in Puerto Rico 
now. I have an area office there. We have Federal projects 
there. We work with the Government there on a daily basis, so 
we will always be in Puerto Rico----
    Mr. Bacon. Right.
    General Jackson [continuing]. And we will be supporting 
FEMA as long as Mr. Long has mission assignments for us to 
follow up on.
    Mr. Bacon. Let me ask you both, what would be the largest 
unexpected challenge that you had in Puerto Rico? Is there one 
thing that took you by the most surprise?
    Mr. Long. Getting the power back on solves so many 
problems. Bottom line is that was the toughest challenge. I do 
not control an aging system. I do not control deferred 
maintenance on a power grid.
    I have to fix what I have inherited, and, you know, we 
rapidly put forward the mission and the mission assignment to 
the Army Corps of Engineers. This is the only situation where 
the Army Corps of Engineers is rebuilding the grid.
    We have got to get to a model to where the gird is rebuilt 
by private industry, in my opinion, similar to the way it was 
done in California, Texas, and Florida.
    Mr. Bacon. All right. How has the bankruptcy of PREPA 
impacted the recovery efforts?
    Mr. Long. The liquidity efforts or the liquidity issues as 
a whole are very difficult. It compromises simple things such 
as EMAC agreements. People demand 100 percent right off the bat 
to do work when you bring in private contractors or other 
support for fear that they may not be repaid.
    Mr. Bacon. OK.
    Mr. Long. You know, we are working very closely with 
Governor Rossello, working very closely with the Treasury to 
make sure that we solve some of these problems so that the 
response and recovery doesn't slow down.
    Mr. Bacon. OK.
    One final question for General Jackson, what regulatory 
relief is necessary to help you speed up these kind of efforts? 
Is there something we can to do pull some of the regulatory 
problems off your shoulders?
    General Jackson. Congressman, I think the administration 
has already taken a look at that, and they are really looking 
at how to streamline all environmental reviews that all 
ultimately result in permitting and other things that----
    Mr. Bacon. Right.
    General Jackson [continuing]. We are involved with. So I 
think we are well on track and everybody has been participating 
fully in that effort.
    Mr. Bacon. Thank you. Knowing that your time is short, I 
will yield back. Thank you.
    Chairman McCaul [presiding]. The Chair recognizes Mrs. 
Bonnie Watson Coleman.
    Mrs. Watson Coleman. Thank you, sir.
    Mr. Long, hi. More than a decade after Hurricane Katrina, 
your office is still involved in audit disputes, including 
efforts to get a $2 billion settlement with roads and 
infrastructure of the city overturned. Do you think that there 
is a limit on how long after an event audits should last? Is it 
an inefficient use of resources to Monday morning 
quarterbacking years-long audits more than a decade later? Are 
the communities affected this summer going to face decades of 
audits and no relief?
    Mr. Long. Well, I think we have to follow out the process 
and the process that is put in place is just for due diligence 
purposes. We have to follow out the process. But when there are 
audits in question, and I have seen this as a former director 
of the Alabama Emergency Management Agency when there are 
deobligations in question or audits in question where there are 
large amounts of money looming over a community that may be de-
obligated then it can impact their credit ratings going 
forward.
    So I do think that we have to move quickly to make sure 
things like that don't occur. We have to move expeditiously, 
but I would also----
    Mrs. Watson Coleman. Well, do you agree, sir, that 2 years 
is not moving expeditiously, that it is too long?
    Mr. Long. I don't----
    Mrs. Watson Coleman. Is FEMA doing anything to sort-of----
    Mr. Long. Which situation are you specifically referring 
to?
    Mrs. Watson Coleman. I am talking about Katrina. That is 
what I was asking you about.
    Mr. Long. Oh, for Katrina?
    Mrs. Watson Coleman. The $2 billion dispute and that has 
been in audit for 2 years?
    Mr. Long. I would have to get back or we would have to work 
with you.
    Mrs. Watson Coleman. Yes.
    Mr. Long. I am not sure which one it is unless I could 
defer to Mr. Kelly?
    Mr. Kelly. Is it the water and sewer audit?
    Mrs. Watson Coleman. Yes.
    Mr. Long. OK.
    Mrs. Watson Coleman. Listen, may we have a specific----
    Mr. Long. Sure.
    Mrs. Watson Coleman. Update on----
    Mr. Long. Sure.
    Mrs. Watson Coleman. Why this is taking so long? What is 
being done? Why are you lacking the resources to respond to it 
after 2 years? When can we expect relief here? Mr. Long, can we 
get that?
    Mr. Long. Yes, absolutely, but I would also refer to Mr. 
Kelly with OIG.
    Mr. Kelly. Yes. That audit was initiated and completed 
within roughly a year of the additional obligations for that 
water and sewer project.
    Mrs. Watson Coleman. Yes.
    Mr. Kelly. Very little was done immediately after Katrina. 
The inspector general's office has changed its style of 
auditing.
    Mrs. Watson Coleman. Thank you.
    Mr. Kelly. We try to be more proactive and much closer to 
when the money is being spent, not 10 years after it has been 
spent.
    Mrs. Watson Coleman. So, you know, this is all good, you 
know, hypothetically, conceptually, and all that kind of stuff. 
We are talking about communities that are ravaged. People who 
have been displaced. People who can't get a job. People become 
ill because of these terrible hurricanes.
    I mean, look at what has happened in both the Virgin 
Islands and in Puerto Rico. For the life of me, and Mr. Long, 
maybe you can answer this question.
    With all the resources, with all the armed forces, with all 
the rescue emergency and whatever else there is that this great 
country, the United States of America has at its disposal, if 
you can't get up a road to deliver supplies, vitally needed for 
people to live, why couldn't you airlift them in or do 
something else? Why was that situation so inadequately 
addressed and why is it still so inadequately addressed?
    Mr. Long. First of all, ma'am, with all due respect, I 
believe we live in the greatest country on the globe. The 
amount of resources----
    Mrs. Watson Coleman. I never suggested we didn't sir.
    Mr. Long [continuing]. That, well, yes, but the amount of 
resources that the Federal Government put down, the amount of 
resources the State governments, the lengths to which our 
Government goes to help disaster victims can always be 
improved. But it is unmatched. It is second to none in any 
other country on the globe. We put people in hotels----
    Mrs. Watson Coleman. Thank you, sir.
    Mr. Long [continuing]. For months.
    Mrs. Watson Coleman. You know what? I don't need you to 
make excuse. I need to tell you me why you failed there?
    Mr. Long. We haven't failed, ma'am.
    Mrs. Watson Coleman. Yes, you did.
    Mr. Long. No, we did not. The bottom line is my agency made 
a Herculean effort to put food and water in every area and it 
is more complex than--it is not going to move as fast. When you 
are talking about island jurisdictions----
    Mrs. Watson Coleman. OK.
    Mr. Long [continuing]. And the airport systems are 
completely blown out, the ports are completely blown out, I 
don't own the cranes. I don't own the airports. We have to 
rebuild airports. We move rapidly.
    Mrs. Watson Coleman. Right. But you have collaborative 
capacity and that collaborative capacity did not serve the 
citizens of Puerto Rico well. So my concern, it is not just 
you, sir. It is why did the United States of America, with all 
of its vast resources not do its very best for people who are 
indeed our people?
    With that I yield back.
    Chairman McCaul. The administrator has very limited time, 
so I am going to recognize the three, but if you could keep 
your questions within a short period of time it would be very 
much appreciated.
    Ms. Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    I want to first of all thank the people from the Army Corps 
of Engineers and the people from FEMA for all their hard work 
they have been doing on the island. We acknowledge that, 
although we still know that there is a lot to do still.
    I want to thank you for your being always available for 
calls, for meetings with mayors and for all the people in the 
island. I really do that personally because I have been calling 
you mostly every day to ask you about different issues.
    My first question will be what resources will be necessary 
to you to finish the work in 30 days? I am talking to the Corps 
of Engineers in terms of the restoration of the power.
    General Jackson. Ma'am, we have the materiels that we need 
to finish that that are on order and they are either in transit 
or they are on the island right now ready for distribution to 
contractors. So and they will be continuing to flow onto the 
island until the end of April.
    So until we get everything on the ground, I mean, it is a 
physics problem. It is everything had to come off production 
lines. We had to special order materiel to meet the unique 
specifications of the power grid.
    So, you know, we have enough linemen on the ground to do 
the work that needs to be done. It is just a matter of them 
working through and energizing the lines and getting the pieces 
and parts put back together. So there are really no other 
resources that we need that I can think of.
    Everything that we have asked for that we have needed to do 
this mission we have been provided. So it is just a matter of 
the physics of putting together a very complicated system that 
is going to take us some time to finish.
    Miss Gonzalez-Colon. My concern with that is that you are 
downsizing the group of the crew of your private contractors on 
the island. One is going to be gone from the island the 19th of 
March and the other one is 7th of April. So that means that the 
resources are not going to be there to help us out to finish 
the last mile of the process.
    So how the island is going to feel that their issues are 
going to be solved in terms of the connection of those center 
part of the island when you are downsizing the Army Corps 
presence to those areas? That is my main concern.
    It doesn't say that PREPA is going to take charge of that 
because it will take a month or a month and a half for them to 
do the contracting process with the memorandum of understanding 
with other utilities in the States.
    General Jackson. Ma'am, the, you know, when we originally 
asked to do this there were no mutual assistance workers 
available. Now there are almost 1,000 mutual assistance 
workers.
    I know the numbers go up and down based upon how they get 
recalled back to their State, but Mr. Torres and the team, the 
unified command group, look at the numbers of line workers that 
are required to do the missions based upon what is left to be 
completed. They look at that every single day, and there are 
decisions that are made.
    FEMA, the government of Puerto Rico, and the Corps of 
Engineers are all involved with meet and making. They could be 
that, you know, the one company that we have that is going to 
be done in April maybe they get extended a little bit longer.
    We are looking at all those things every single day to make 
sure that the progress of the work that we have in front of us 
to finish is not impacted at all by a lack of people. There is 
no lack of people.
    Even though we are downsizing the contract, the big 
contracts that we awarded in October, it is only because the 
numbers that we have there aren't needed anymore, and they have 
been replaced by mutual assistance workers who should have been 
there in the first place.
    So that is not--the changing of who is doing the work is 
not impacting our ability to get the overall grid restored as 
fast as we can get it restored.
    Miss Gonzalez-Colon. I just urge you to reconsider the 
downsizing of the Army Corps on the island. I do think that we 
don't have enough personnel to do that kind of work, and it 
will take longer to the recovery processes in those areas just 
because of the downsizing.
    I do recommend extending the current contracts until the 
time that PREPA or the mutual alliance linemen will be arriving 
on the island. Remember that weeks ago with the winter storm 
just took away 68 of those linemen to New York and 
Pennsylvania. So we can't continue to be waiting for personnel 
to arrive on the island.
    General Jackson. Ma'am, we are not waiting. We have--
everybody is there. It just should be--they are going to be 
different people. It is some cases it is the same 
subcontractors that are working for different contractors.
    So you know, PREPA has about 2,200 line workers on the 
ground now, which includes, I mean, their own organic work 
force and three other subcontractors that are doing work.
    Miss Gonzalez-Colon. Thank you, Mr. Jackson.
    Chairman McCaul. The gentlelady's time has expired.
    I just for the last two Members, we are about 20 minutes 
past the administrator's hard stop, so if you could keep your 
time at a minimum.
    Ms. Velazquez is recognized.
    Ms. Velazquez. I will make it simple, Mr. Chairman.
    If I could send you, Mr. Long, some of my questions so that 
you can send them, your answers to my office?
    General Jackson, I hear what you are saying to the 
Congresslady from Puerto Rico, the gentlelady from Puerto Rico. 
You are downsizing and you are allowing for PREPA to continue 
to do the work with some of the subcontractors that they have.
    Do you think that will--PREPA, given the conditions of 
PREPA itself, should that provide any comfort to the people of 
Yabucoa, my hometown, where Hurricane Maria made landfall and 
to this day they have no electricity?
    General Jackson. Congresswoman, as we discussed yesterday, 
I am confident only because the experts that are making the 
decisions on how we determine how we apportion the work force 
are fully confident that based upon demonstrated capability 
that the line workers that are there, both from PREPA's organic 
work force and from the subcontractors that they have, are more 
than capable of doing the work and are continuing to 
demonstrate their ability to do that. Those are the----
    Ms. Velazquez. I am worried. Why is that, that being the 
town that where Maria made landfall, that 6 months later, what 
is it about Yabucoa?
    General Jackson. Congresswoman, I think Yabucoa's biggest 
problem is it was the point of impact and it had sustained the 
greatest damage and so the most work is being done right there.
    Ms. Velazquez. I have been there four times. I never saw 
any crew until just my last visit.
    In any case, General Jackson, I really want to thank you 
for getting back to me yesterday in our telephone call where I 
raised some of the issues of the people of Vieques are facing 
today. My question to you is regarding Puerto Rico's 
preparedness for the upcoming hurricane season, particularly in 
the area of energy.
    It seems to me that no matter how much money we put into 
the reconstruction of the grid, unless we ensure the entire 
grid is strengthened to withstand Category 4/5, are just 
throwing money away. Can you comment on the repair work being 
done so far?
    General Jackson. Congresswoman, I would be glad to do that. 
I mean, the mission that we were given was to restore the power 
and get people the light back on as fast as possible. So that 
is what we are doing.
    What you are describing is a more long-term goal that we 
are working on it. We are working as part of FEMA's team, as 
part of the Governor's team, to help the Governor develop a 
long-term recovery strategy, which is going to take into 
account all the things that you discussed, which would be 
things like taking the power generation capabilities, making 
them more modernized, putting them more closer to where the 
population centers are, which allows us to more economically 
bury lines where now, as Administrator Long talked about, these 
lines crisscross the island.
    That is what the power distribution transmission system is 
based upon. So that is in the works right now and that will be 
presented to the administration sometime at the end of the 
summer.
    Ms. Velazquez. Thank you.
    Mr. Kelly, this week Puerto Rico is effectively pursuing a 
policy that will weaken the Puerto Rico Energy Commission, an 
effort that will severely undermine generally accepted 
regulatory and accountability practices. As the inspector 
general, can you provide us some detail in the importance of 
oversight of Government and institution--if this type of entity 
is weakened, how do we ensure good stewardship of taxpayers' 
funds?
    Mr. Kelly. Ma'am, that is going to be very difficult to do. 
If you reduce oversight, especially on an organization that has 
known risks, that is a recipe for disaster.
    Ms. Velazquez. Thank you.
    Chairman McCaul. The gentlelady's time has expired.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman and thank you Ranking 
Member for this. I am going to have as well try and bring a 
bunch of questions in writing which I hope that you will 
respond to as quickly as possible. I know that bureaucracy can 
take some time, but the faster these answers come back to us 
the better I think for everyone.
    Administrator Long, one of the things that I brought up in 
the opening statement, and I am hoping you can give me some 
definition for, is who is responsible and what is the time line 
for the modular units that are going to the schools as well as 
to the hospitals in the Virgin Islands?
    Mr. Long. So ultimately, in my opinion, the Governor, you 
know, of the Virgin Islands, Governor Mapp, is responsible. It 
is my job to make sure that he has the mechanisms and the 
funding to do so, and we are working very closely with him. But 
what I would be happy to respond in writing----
    Ms. Plaskett. I would appreciate that.
    Mr. Long [continuing]. About the whole entire process.
    Ms. Plaskett. Because it seems like a circular discussion. 
Department of Education says they are waiting for FEMA. FEMA 
says they are waiting for this, and so the people want to know 
who it is. So I----
    Mr. Long. Absolutely.
    Ms. Plaskett [continuing]. Appreciate that. In terms of the 
discussion about full Federal cost share, you have received the 
request. I know the White House has received the request. Do we 
know when there will be an answer as to whether or not the 
Virgin Islands will receive an extension of time for full cost 
share for debris removal?
    Mr. Long. I do not know. Obviously I don't control the 
White House, but I can obviously reach out to them as well to 
see where we are in queue.
    Ms. Plaskett. I wanted to know if you were aware, however, 
that under the Insular Area Acts, all Federal agencies have the 
discretion to waive local match for insular areas, defined to 
include the Virgin Islands and Puerto Rico for Federal funding 
programs. Has FEMA sought to exercise this express statutory 
discretion to waive the local match for all disaster funding 
for the U.S. Virgin Islands?
    Mr. Long. I believe that that is a request that has got to 
come in from the Governor, and I am not sure that we have 
received any request to do so. If so, I will go back and check.
    Ms. Plaskett. OK. The reason I am asking this is, of 
course, that, you know, the insular areas have long had 
underfunding and under inclusion across a litany of programs. 
When you are facing a disaster such as this, that kind of 
express statutory discretion that you have would seem to be the 
appropriate time to do so.
    You know, this is, again, what you just said was something 
that, again, I brought up on my opening statement is that you 
are waiting for a request from Governor Mapp. Oftentimes I am 
not sure if Governors and other individuals in these areas know 
that they can make these specific requests.
    The tension between FEMA and the local agencies are such 
that you wonder, you know, are Governors spending money on 
having outside consultants come and consult them about what is 
he supposed to be requesting? It seems that it is not the most 
efficient use of funding.
    Mr. Long. Congresswoman, so, you know, my approach is in my 
FCOs who play an incredibly important role, I have asked them 
and in their training, their sole purpose is to go out and say 
Governor, this is what you are entitled to.
    Ms. Plaskett. Uh-huh.
    Mr. Long. This is--based on this event. If they are not 
doing that, then that is on me. I can go back and check.
    Ms. Plaskett. Right.
    Mr. Long. But we never hold back things. It is our job to 
administer the Stafford Act and the policies that are out 
there. We have no reason to hold anything back. FEMA is not the 
enemy of a Governor or of the disaster survivor.
    Ms. Plaskett. Well, under FEMA, just that last question and 
when you mentioned the Stafford Act, what is your position and 
would you support an extension of Stafford Act language so that 
it is not only bringing resilience to those things that are 
considered emergency, which is defined as power, water, 
communications, and education?
    But would also extend to other public assistance projects 
such as roads and public housing?
    Mr. Long. I am not sure I understand the question because 
we do fix roads and we----
    Ms. Plaskett. No, no, no. So what I am asking----
    Mr. Long [continuing]. Put in housing under emergency 
provision.
    Ms. Plaskett. An amendment to the Stafford Act which would 
provide for embedding resilience, the resilience that you are 
now going to bring to areas such as power and water and 
communications----
    Mr. Long. Right.
    Ms. Plaskett [continuing]. Does not extend necessarily to 
public roads and public housing.
    Mr. Long. Right.
    Ms. Plaskett. Would you be in favor of or supportive of an 
amendment that addresses that in the Stafford Act to bring that 
as well?
    Mr. Long. Well, I am all----
    Ms. Plaskett. I will yield back.
    Mr. Long [continuing]. For resilience. Let me be honest. I 
am all for resilience because I want to reduce the job. I mean, 
we need to work FEMA out of a job over, you know, through 
resilience and mitigation.
    I believe that the 428 program, which is something that is 
on the table with the Governor as well, allows for more 
alternative projects and resilience projects to be built in. 
The Stafford Act may allow us to do that for the roadway 
systems, but that is a conversation that we can have off-line 
as well if you would like, and I can explain that.
    Chairman McCaul. All right. The gentlelady's time has 
expired.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman McCaul. I want to thank the witnesses.
    Ms. Jackson Lee. I would like to put three questions on the 
record for Mr. Brock Long to hear.
    Chairman McCaul. OK.
    Ms. Jackson Lee. I am going to ask for unanimous consent.
    Mr. Brock, for as it relates to Houston and Texas, answer 
directly to me in writing and by phone on the FEMA denials and 
whether or not you will automatically extend those who are in 
the hotels, the importance of working with local government.
    That is difficult. I know that by the Stafford Act you work 
with the State, but the local governments are really on the 
ground working with the day-to-day complaints.
    Then I think one of the solutions to these large contracts 
that you have that have not been helpful to us is contracting 
with local entities. Sometimes the entire region is not 
devastated. There are local contractors that can do a very 
important job, housing, food services, obviously debris we know 
about that, but I think it is important for FEMA to look--
counseling, case work can be done by local entities.
    I would like to reach back to you on those quests. Thank 
you for having your staff be at my meeting on March 5.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you. Thank you. I want to thank the 
witnesses for your patience. I know this went well over 
schedule, but you stood by and answered all of our questions. I 
appreciate that very much.
    I would just like also to say that Major General Jackson I 
look forward to working with you on the reservoir project.
    To Administrator Long, the first bill I got passed in the 
Congress was a FEMA reform bill after Katrina. So I think there 
will be some great lessons learned from this, things that we 
can work together to make it more streamlined, effective, and 
efficient.
    I want to thank you and commend you for the job that you 
are doing right now.
    Mr. Long. Thank you, sir.
    Chairman McCaul. Thank you.
    Mr. Long. Thank you.
    Chairman McCaul. We are going to take a brief break and the 
second panel will be joining us.
    [Recess.]
    Chairman McCaul. Yes. We are pleased to welcome our second 
panel of witnesses. Thanks for your patience. I know it is 
getting late. I think we have got a subcommittee hearing at 2 
here.
    Our second panel includes Mr. Reed Clay, chief operating 
officer of the Office of the Governor, State of Texas, great 
State of Texas; Mr. Wesley Maul, director of Division of 
Emergency Management for the State of Florida; and finally the 
Honorable Josephine Melendez-Ortiz, vice chairman of the 
Committee on Federal and International Relations and Status for 
the Commonwealth of Puerto Rico and Ms. Jeanne-Aimee De 
Marrais, senior director of Save the Children. Thank you all 
for being here today.
    I guess we will start with Mr. Clay.

STATEMENT OF REED CLAY, CHIEF OPERATING OFFICER, OFFICE OF THE 
                    GOVERNOR, STATE OF TEXAS

    Mr. Clay. Good afternoon. Chairman McCaul, Ranking Member 
Thompson, and distinguished Members of the committee, thank you 
for holding this important hearing and for the opportunity to 
share lessons that we have learned from Hurricane Harvey in 
Texas.
    Let me quickly offer three key messages. The first is thank 
you for your partnership. Governor Abbott and the State of 
Texas are grateful for the strong partnership that we have 
shared with our Federal counterparts to date.
    President Donald Trump, Vice President Pence, multiple 
members of the President's Cabinet, and FEMA Administrator 
Brock Long showed their commitment to Texas even before the 
storm made landfall. They pledged their full resources and 
continue to show their commitment to the State to this day.
    Of course, Congress, too, deserves our deepest gratitude. 
Within days of Harvey's dissipation, as Texans had only begun 
to understand the magnitude of devastation, Congress moved 
quickly to appropriate needed financial assistance to quickly 
begin the rebuilding process.
    That hard work continued in the passage of additional 
appropriation bills that will help Texas recover and rebuild.
    I wouldn't be a proud Texan if I didn't pay particular 
thanks to the Texas delegation, Chairman McCaul, Congresswoman 
Jackson Lee, and the entire Texas delegation have been true 
champions for their constituents and for all Texans. Thank you.
    Next, let me share a couple lessons we have learned. The 
first lesson is that disaster recovery could be substantially 
improved by drastically cutting regulations and red tape at all 
levels of government. When it comes to disaster response, we 
must be outcome-focused, not process-oriented. Rest assured 
Texas has done its part.
    Governor Abbott has used his emergency authorities to waive 
hundreds of regulations, employing a similar outlook, 
Commissioner John Sharp, who leads the Governor's Commission to 
Rebuild Texas, has consistently found ways to push past 
bureaucratic barriers.
    But there's more to do. Beginning next week, the Commission 
to Rebuild Texas and the Texas Department of Emergency 
Management will hold a series of workshops to develop lessons 
learned and to focus on how best to restore, redevelop, and 
rebuild a more resilient Texas.
    These listen-and-learn sessions will inform a comprehensive 
report delivered by the commission outlining changes that the 
State must make. But Federal regulations also pose a problem. 
Because disaster recovery is administered across multiple 
agencies, amid multiple layers of government, recovery is 
saddled by a redundancy of government.
    The Federal Government has opportunities to simplify the 
process and it must be streamlined. Too often, individuals are 
passed between several agencies with different paperwork and 
different rules.
    Disaster response and recovery, as Administrator Long said 
earlier, is best when executed at a local level, but under the 
current process local governments are buried under layers of 
government regulations. Disaster response and recovery cannot 
truly be executed at the local level if it is micromanaged in 
Washington.
    The second lesson is that we must rebuild Texas stronger. 
We now know Harvey was the biggest tropical cyclone rainfall 
event in U.S. history. Peak rainfall measured over 60 inches, 
with much of the area receiving more than 3 feet.
    The amount of rain was literally off the charts. This was 
not a 100-year flood or a 500-year flood. This was a 1,000-year 
flood. It was so much rain that the National Weather Service 
added additional colors to their rainfall charts to show just 
how much rain was falling in Texas.
    Not surprisingly then, Harvey is already the second-
costliest storm in U.S. history. The National Hurricane Center 
estimates more than $125 billion in losses. It is reported that 
only $30 billion of that is insured, meaning Harvey will be by 
far the largest uninsured loss of 2017.
    If Harvey teaches anything it is surely that we must invest 
now to mitigate against losses from future storms that history 
tells us will happen again and again and again.
    Texas is already deploying hazard mitigation funds made 
available under the Stafford Act to undertake valuable 
mitigation projects through the affected region. The Governor 
today will be in Houston announcing the first three projects 
later today.
    But many of the projects need to truly future-proof the 
affected area will require further Federal assistance. Much of 
the damage in the affected areas could have been prevented or 
mitigated by Federal projects that have been considered for 
years or in some cases decades.
    If there is only one lesson to be learned from Harvey it is 
this. We must rebuild stronger to future-proof our valuable 
assets--human, natural, and economic--from future disasters.
    Let me close with this. The pace of recovery is never fast 
enough. If the numbers I cited above are any indication this 
will be Texas' longest and hardest rebuilding effort yet.
    We are grateful for the strong partnership with our Federal 
partners thus far, but we also recognize that a recovery of 
this size will require the continued commitment of resources 
from our Federal partners for months to come. Thank you.
    [The prepared statement of Mr. Clay follows:]
                    Prepared Statement of Reed Clay
                             March 15, 2018
    Chairman McCaul, distinguished Members of the committee, thank you 
for the opportunity to share with you lessons learned by the State of 
Texas in preparing for, responding to, and recovery from Hurricane 
Harvey. My name is Reed Clay, chief operating officer for Governor Greg 
Abbott.
                             historic storm
    More than 6 months since Hurricane Harvey first made landfall as a 
Category 4 storm near Rockport, Texas, at about 10 p.m. on Aug. 25, 
2017, we now know from the National Hurricane Center that Harvey was 
``the most significant tropical cyclone rainfall event in United States 
history, both in scope and peak rainfall amounts.'' The storm impacted 
nearly 50,000 square miles of Texas; some 57 tornadoes were spawned; 
and record-breaking rainfall of over 60 inches was recorded in 
Nederland and in Groves, Texas. The previous record in the continental 
United States of 48 inches was also broken in communities throughout 
the Coastal Bend Region and in Houston, with many areas deluged by 
historic flooding. As a result, nearly 1.4 million Texans likely 
evacuated from their homes. More than 35,000 rescues were recorded. 
More than 42,000 Texans sought refuge in 258 official shelters. Nearly 
300,000 households were left without power. And tragically, it is 
estimated that 68 people died, making Harvey the deadliest hurricane to 
hit Texas in nearly 100 years. But we also know that no force of nature 
is more powerful than Texans helping Texans, and Americans helping 
Americans. We are grateful so many lives were spared, and inspired by 
the resilience of the people of Texas, our commitment to help families 
recover and communities rebuild is stronger than ever.
                            advance actions
    This disaster was unprecedented in recent history, as was the 
aggressive advance action and coordination of Federal, State, and local 
emergency management resources and personnel in the 53 Texas counties 
in the Presidential Disaster Declaration and 60 Texas counties in the 
State Disaster Declaration. We are grateful for the swift action taken 
and the continuing support offered by the President, Vice President, 
Cabinet members, Congressional Members, and all of our Federal 
partners.
    Harvey left little time for the State of Texas to prepare, but we 
believe actions taken before, during, and after Harvey to this very day 
as rebuilding continues, serve as a model going forward for the Nation. 
Let me provide a snapshot of advance actions taken in preparation for 
the storm and to save lives.
  <bullet> On Aug. 23, 2017, 3 days in advance of then-Tropical 
        Depression Harvey's projected arrival, Governor Greg Abbott 
        ordered the multi-agency State Operations Center (SOC) to 
        elevate its readiness level, and directed State agencies to 
        make available any and all State resources to assist in 
        preparation, rescue, and recovery. The Governor pre-emptively 
        issued a State Disaster Declaration for 30 counties most at 
        risk of the anticipated storm, activated the Texas National 
        Guard and Texas State Guard, and asked Texans to heed all local 
        warnings.
  <bullet> On Aug. 24, 2017, Harvey was upgraded to a Tropical Storm. 
        Governor Abbott discussed hurricane preparedness and the 
        importance of local evacuation warnings with Acting Secretary 
        of Homeland Security Elaine Duke and Federal Emergency 
        Management Agency (FEMA) Administrator Brock Long. President 
        Donald Trump called Governor Abbott and pledged all available 
        Federal resources. The Governor again urged all Texans to heed 
        local officials' warnings, strongly consider voluntary 
        evacuation orders, and strictly comply with all mandatory 
        evacuation orders.
  <bullet> On Aug. 25, 2017, following a briefing by the Texas Division 
        of Emergency Management (TDEM) and all activated State agencies 
        at the State Operations Center (SOC), Governor Abbott held a 
        press conference where he again urged all Texans to heed local 
        officials' warnings, strongly consider voluntary evacuation 
        orders, and strictly comply with all mandatory evacuation 
        orders. Governor Abbott requested a Presidential Disaster 
        Declaration in advance for 6 counties to more rapidly secure 
        Federal aid to supplement State and local recovery efforts. The 
        Governor then visited Texans seeking refuge at a San Antonio 
        shelter, and suspended State and local hotel and motel 
        occupancy tax for relief personnel and victims of the storm. 
        Hurricane Harvey made landfall at 10 p.m. near Rockport as a 
        Category 4 hurricane.
                    rescue, recovery, and rebuilding
    Immediately following landfall, coordinated rescue, recovery, and 
rebuilding efforts began. With the support of our Federal partners, 
here is a snapshot of actions taken by the State of Texas the first 33 
days after landfall.
  <bullet> On Aug. 26, 2017, Governor Abbott contacted local officials 
        in the region by phone to hear damage estimates first-hand and 
        to offer support. The Governor began receiving formal daily 
        briefings from the Texas Division of Emergency Management 
        (TDEM) and FEMA, provided a media update at the State 
        Operations Center (SOC), and added 20 Texas counties to the 
        State Disaster Declaration. Following multiple media interviews 
        and while receiving reports from the region on rescue and 
        recovery operations, Governor Abbott and First Lady Cecilia 
        Abbott visited an Austin Red Cross Shelter where they helped 
        serve dinner.
  <bullet> On Aug. 27, 2017, following the daily State Operations 
        Center (SOC) briefing and based on continuing updates from the 
        region, Governor Abbott requested 12 Texas counties be added to 
        the Presidential Disaster Declaration, and he added 4 to the 
        State Disaster Declaration. Governor Abbott requested of 
        Secretary of Defense General James Mattis that a Texas National 
        Guard Dual Status Command be established to allow for a single 
        commander of both Federal and State forces providing disaster 
        response. The Governor was joined by U.S. Coast Guard Vice 
        Admiral Karl Schultz and agency officials at SOC for a media 
        update on on-going rescue and recovery operations.
  <bullet> On Aug. 28, 2017, Governor Abbott activated the entire Texas 
        National Guard, added another four counties to the State 
        Disaster Declaration, and issued a proclamation allowing public 
        utilities to access private property as needed to repair power 
        lines and reconnect the electric utility grid. The Governor 
        visited the Coastal Bend Region for an on-site briefing and 
        provided what became a daily media update. After an aerial tour 
        of the region to survey the extensive damage, the Governor 
        spoke with local officials and Texans impacted by the storm. He 
        was joined on the ground by Senator John Cornyn and FEMA 
        Administrator Long. At the Governor's direction to State 
        agencies to extend deadlines, waive fees, and cut red tape, the 
        Texas Department of Public Safety began providing a free 
        replacement driver's license or ID card for survivors.
  <bullet> On Aug. 29, 2017, Governor Abbott joined President Trump and 
        Cabinet members in Corpus Christi to meet with local leaders 
        and relief organizations before traveling to Austin for a 
        detailed briefing at the State Operations Center (SOC). They 
        were joined by Federal and State officials, including Senators 
        John Cornyn and Ted Cruz. Governor Abbott reminded residents of 
        Houston threatened by rising floodwaters that preserving life 
        remained the top priority. The Governor announced an award of 
        $25 million in Federal funds to the Texas Department of 
        Transportation for debris removal, clean-up, and transportation 
        infrastructure repairs.
  <bullet> On Aug. 30, 2017, Governor Abbott requested the addition of 
        14 Texas counties to the Presidential Disaster Declaration.
  <bullet> On Aug. 31, 2017, Governor Abbott sent a letter to county 
        judges outlining available assistance, and he increased the 
        number of National Guard troops helping with hurricane response 
        to 24,000. The Governor suspended vehicle registration, 
        titling, and inspection rules for hurricane victims, and he 
        eased restrictions on truckers bringing fuel and relief 
        supplies into the State. Governor Abbott and Texas First Lady 
        Cecilia Abbott joined Vice President Mike Pence and Second Lady 
        of the United States Karen Pence on a visit to Rockport and 
        Victoria to meet with victims, volunteers, and first 
        responders. The Governor proclaimed Sept. 3, 2017, as a Day of 
        Prayer in Texas; then Governor Abbott and Vice President Pence 
        assisted with debris clearing in Rockport.
  <bullet> On Sept. 1, 2017, Governor Abbott announced that Gulf Coast 
        refineries were coming back on-line, that Louisiana, Oklahoma, 
        and New Mexico were shipping gas into Texas, and that a 
        pipeline carrying gasoline to Oklahoma had been reversed, 
        keeping the fuel in the State, as the Port of Corpus Christi 
        also opened for barges loaded with fuel. President Trump 
        authorized an increase in Federal funds for debris removal and 
        emergency protective measures, increasing the Federal cost-
        share from 75 percent to 90 percent. Governor Abbott announced 
        the Michael & Susan Dell Foundation in collaboration with the 
        OneStar Foundation was forming the Rebuild Texas Fund. The 
        Governor requested three more Texas counties be added to the 
        Presidential Disaster Declaration, and he issued a proclamation 
        warning against price gouging.
  <bullet> On Sept. 2, 2017, Governor Abbott and Texas First Lady 
        Cecilia Abbott greeted President Donald Trump and First Lady 
        Melania Trump in Houston for a briefing and visit with 
        resilient victims, emergency responders, and volunteers. The 
        Governor and the President met with Texans taking refuge at NRG 
        Stadium where they also helped serve meals. Governor Abbott and 
        President Trump also visited the First Church of Pearland, 
        which was serving as a hurricane relief center for victims of 
        the storm. Members of the President's Cabinet, Senator Cruz, 
        and Houston Mayor Sylvester Turner joined them for the day.
  <bullet> On Sept. 3, 2017, Governor Abbott joined in the National and 
        Texas Day of Prayer for victims of Hurricane Harvey at Hyde 
        Park Baptist Church in Austin. Governor Abbott met with Senator 
        John Cornyn, Majority Leader Kevin McCarthy, and Chairman 
        Michael McCaul at the SOC to discuss the Congressional response 
        to the costliest disaster to ever hit Texas.
  <bullet> On Sept. 4, 2017, Governor Abbott announced FEMA had 
        approved his request for Community Disaster Loan assistance to 
        help cities maintain operating budgets and provide essential 
        services. The Governor requested seven Texas counties be added 
        to the Presidential Disaster Declaration.
  <bullet> On Sept. 5, 2017, Governor Abbott visited the communities of 
        Wharton and Beaumont to thank local officials for their 
        tireless efforts on behalf of their citizens.
  <bullet> On Sept. 6, 2017, Governor Abbott thanked the U.S. House of 
        Representatives for voting to allocate $7.85 billion as an 
        initial down payment to Texas in the aftermath of Hurricane 
        Harvey. The Governor suspended the State's waiting period for 
        auto claims payments to hurricane victims.
  <bullet> On Sept. 7, 2017, Governor Abbott announced the Governor's 
        Commission to Rebuild Texas, and appointed Texas A&M University 
        System Chancellor John Sharp as commissioner. The Governor 
        charged the Commission with efficiently and effectively 
        bringing the resources of all State agencies together to help 
        communities in assessing their needs, and in navigating State 
        and Federal resources for the rebuilding of roads, bridges, 
        schools, and government buildings. The Governor directed the 
        Texas Workforce Commission, Texas Higher Education Coordinating 
        Board, and Texas Education Agency (TEA), to develop an 
        education and workforce training plan to support the rebuilding 
        of communities and to put Texans back to work. Governor Abbott, 
        Commissioner Sharp, and State agency heads met with local 
        officials in Corpus Christi and Richmond. The Governor 
        announced aerial spraying for mosquitoes would begin with added 
        assistance from the U.S. Air Force Reserve and specially-
        equipped cargo planes.
  <bullet> On Sept. 8, 2017, Governor Abbott, Commissioner Sharp, and 
        State agency heads met with local officials in Houston and 
        Victoria. Governor Abbott thanked Congress for passing and the 
        President for immediately signing a $15.3 billion disaster 
        relief package for several States. The Governor announced a 
        Texas Education Agency hotline with public education updates 
        for parents, and he announced the Texas Commission on 
        Environmental Quality and the Environmental Protection Agency 
        (EPA) had completed the initial assessments of all 60 Superfund 
        sites in the area.
  <bullet> On Sept. 9, 2017, Governor Abbott, Commissioner Sharp, and 
        State agency heads met with local officials in Beaumont. The 
        Governor sent a letter to EPA Administrator Scott Pruitt 
        expressing his support for a Texas Water Development Board 
        request to streamline Federal funding for flood and water 
        infrastructure projects.
  <bullet> On Sept. 11, 2017, Governor Abbott announced the Texas 
        Health and Human Services Commission would begin offering D-
        SNAP disaster food relief for hurricane survivors.
  <bullet> On Sept. 12, 2017, Governor Abbott proclaimed Sept. 12 as 
        ``Hand In Hand Day'' in Texas to promote the telethon featuring 
        George Strait, Miranda Lambert, Lyle Lovett, Robert Earl Keen, 
        Chris Stapleton, and other artists. At the Governor's direction 
        to State agencies to extend deadlines, waive fees, and cut red 
        tape, the State began waiving the fee for replacement copies of 
        birth certificates for hurricane survivors.
  <bullet> On Sept. 13, 2017, Governor Abbott announced a $30 million 
        Federal grant to the Texas Workforce Commission to create 
        temporary jobs to assist with clean-up, recovery, and 
        humanitarian efforts. The Governor announced the launch of 
        RebuildTexas.Today, a real-time resource for local officials 
        with information on State and Federal assistance available for 
        infrastructure rebuilding. The Governor suspended the State's 
        7-day waiting period for disaster unemployment insurance.
  <bullet> On Sept. 14, 2017, Governor Abbott announced Texas 
        Department of Transportation (TxDOT) crews, having already 
        reopened roads for emergency responders, replaced signage, 
        reactivated signals, and resumed ferry service, was now 
        removing roadside debris in the region. Governor Abbott 
        announced that Texas Land Commissioner George P. Bush would 
        head the State's short- and long-term housing recovery efforts 
        that were to be locally-led, State-supported, and Federally-
        funded. The Governor added two Texas counties to the State 
        Disaster Declaration.
  <bullet> On Sept. 15, 2017, Governor Abbott released the first issue 
        of the on-going Update from the Commission to Rebuild Texas, 
        with recovery reports from State and Federal agencies, and 
        local communities.
  <bullet> On Sept. 19, 2017, Governor Abbott suspended State trucking 
        regulations to aid Hurricane Irma relief in Florida.
  <bullet> On Sept. 20, 2017, Governor Abbott sent a letter to county 
        judges encouraging the utilization of disaster relief funding 
        for their communities. Governor Abbott extended the State 
        Disaster Declaration for now 60 Texas counties. The Governor 
        announced the Texas Department of Transportation (TxDOT) had 
        removed approximately 432,000 cubic feet, or 8 football fields, 
        of debris from roadways in addition to local efforts to remove 
        debris as quickly as possible. The Governor joined Attorney 
        General Ken Paxton in a letter to President Trump, urging him 
        to ensure that churches and religious organizations are treated 
        equally with other nonprofits and not excluded from FEMA 
        disaster funding.
  <bullet> On Sept. 21, 2017, Governor Abbott joined George Strait and 
        Acting DHS Secretary Duke in Rockport to reaffirm his 
        commitment to help Texans rebuild even stronger than before.
  <bullet> On Sept. 22, 2017, Governor Abbott was joined by HUD 
        Secretary Ben Carson and Commissioner Bush in a tour of 
        impacted housing developments in Port Arthur where they spoke 
        with survivors of the storm.
  <bullet> On Sept. 26, 2017, Governor Abbott, Lt. Governor Dan 
        Patrick, and Commissioner Sharp joined Texas State legislators 
        at the FEMA Joint Field Office in Austin for a briefing.
  <bullet> On Sept. 27, 2017, Governor Abbott announced TxDOT had now 
        collected more than 2.4 million cubic feet, or 45 football 
        fields, of debris left behind by Hurricane Harvey on roadways 
        across the 4 districts hardest hit by the storm.
  <bullet> On Sept. 29, 2017, as a critical milestone, Governor Abbott 
        announced all but 3 public school districts had returned to 
        class. The Governor traveled to Houston to present a $50 
        million check for urgent debris removal to Mayor Turner.
                     economic loss/damage estimates
    The enormity of Harvey's destruction has now been revealed. The 
National Hurricane Center estimates that Harvey is the second-costliest 
storm in U.S. history, and by far the costliest storm in Texas' 
history, at $125 billion in damages or more. The Insurance Journal 
estimates that Texans suffered in excess of $70 billion of uninsured 
loss. Nearly 900,000 applications for Individual Assistance, and nearly 
1,200 requests for Public Assistance from jurisdictions, have been 
received by FEMA. And communities in the impacted region have requested 
more than $61 billion in expedited Federal funding for public 
infrastructure repairs and U.S. Army Corps of Engineers projects that 
could mitigate the potential for future storm damage.
                             state expenses
    Current best estimates show that the State and local governments 
will incur approximately $2.72 billion in obligations. State funds 
spent or allocated for rescue, recovery, and rebuilding include: $438 
million for repair of our public schools; $90 million to cover local 
jurisdictions' cost-share for debris removal of approximately 16 
million cubic yards; $38 million for immediate housing needs; and due 
to property value declines, Texas school districts stand to suffer up 
to a $1 billion loss in the local property taxes that fund our school 
finance system.

------------------------------------------------------------------------
                                                            Amount
------------------------------------------------------------------------
State Agency Actuals as of Jan 2018.................        $421,225,019
State Agency Projected for remainder of fiscal year          747,100,000
 2018...............................................
Texas Education Agency Estimates for fiscal year             438,000,000
 2018-19............................................
School finance estimated State increase due to local       1,000,000,000
 property value loss for fiscal year 2020...........
Transfer to General Land Office for housing programs          38,600,000
Remainder of $90 million made available to local              77,000,000
 governments for debris removal match...............
                                                     -------------------
      TOTAL.........................................      $2,721,925,019
------------------------------------------------------------------------

                           federal assistance
    As of March 9, 2018, more than $13.3 billion in Federal funds have 
been provided directly to Texans, including FEMA grants to households, 
National Flood Insurance Program claims payments, and SBA disaster 
loans; and more than $362 million in Public Assistance funding from 
FEMA for State and local governments has been obligated. Additionally, 
Congress has appropriated over $100 billion toward hurricane relief and 
recovery. A portion of that money will be allocated to Texas for 
housing recovery, infrastructure, mitigation, and numerous other needs.
                                housing
    As of March 12, 2018, repairs have been completed on 8,356 homes 
through the Partial Repair and Essential Power for Sheltering (PREPS) 
program, and nearly 8,000 homes are in the process of receiving 
repairs. Sixty-nine homes have completed repairs through the Direct 
Assistance for Limited Home Repair (DALHR) program, with 538 additional 
applicants. Some 2,263 families have been housed through the Direct 
Housing Program, receiving temporary housing units such as a 
manufactured housing unit, a travel trailer, or Direct Lease; 
additional housing options are being prepped for occupancy for an 
additional 2,621 applicants. And 7,249 households are taking advantage 
of FEMA's Transitional Sheltering Assistance, staying in hotels or 
other accommodations while seeking longer-term housing solutions.
                            lessons learned
    Now more than 6 months after Hurricane Harvey made landfall, and as 
rebuilding efforts continue, much progress has been made through the 
outstanding coordination of teams at the Federal, State, and local 
levels. In each community, it was because of the courage and calm 
leadership of local emergency managers, elected officials, law 
enforcement, and first responders that so many lives were spared, and 
that many of their citizens are on the long road to recovery--even as 
they too suffered personal loss. Our Federal partners have been 
responsive and innovative, including improvements to speed funding to 
impacted communities. In the early days after landfall of Hurricane 
Harvey, as the devastating damage became apparent, it was clear the 
affected jurisdictions would need assistance and need it quickly--both 
for debris removal (Category A) and to reimburse the massive emergency 
protective measures (Category B) that were deployed across 53 counties 
in the Presidential Disaster Declaration. As a result, FEMA and the 
State worked together to expedite payments for Public Assistance. These 
efforts pushed over $290 million to locals in the first 30 days. And 
the work of the Governor's Commission to Rebuild Texas in helping local 
communities navigate State and Federal resources for infrastructure 
rebuilding has also been commendable, as have the county extension 
agents who have served as a force extender for those efforts in the 
field. With lessons learned in terms of training needs at the local 
level, as well as technology improvements made to track response and 
recovery efforts, this Commission is a model that could be replicated 
in future disasters. However, even as all State agency resources were 
leveraged, and our partnership with Federal agencies is strong, there 
is much room for improvement at all levels of government to meet our 
ultimate goal of helping Texas families and communities to recover from 
a devastating storm of historic proportions.
Obstacle: Bureaucratic Delays
    The disaster recovery apparatus is saddled by redundancy of 
Government. Disaster relief is administered across multiple agencies 
amongst multiple layers of Government. The complexity related to the 
coordination of the numerous Federal programs (FEMA, HUD, SBA, USDA, 
etc.) is challenging at best for individuals and communities that must 
apply and qualify for assistance from these numerous programs. Most 
often an individual or entity is required to apply for multiple sources 
of assistance, with each program requiring new applications containing 
much of the same information. The individual or entity also must 
navigate the maze of qualifying for and receiving assistance from the 
source of prime responsibility before they can qualify for assistance 
under other programs. This is very confusing, cumbersome, and 
complicated. This results in some individuals or entities ultimately 
not receiving the assistance they rightly qualify for because they fail 
to properly navigate this bureaucratic labyrinth.
            Recommendation: Streamline and speed immediate relief for 
                    individuals.
    The complexity of the sequence of delivery for Individual 
Assistance (IA) through FEMA must be remedied. Even within the 
centralized Disaster Recovery Centers, already traumatized survivors 
must navigate a confusing gauntlet of Federal agencies, State agencies, 
and relief organizations. And multiple organizations send multiple 
inspectors to the same property, then debate and delay the actual 
delivery of services because everyone wants to be the payer of last 
resort. Families would recover faster if FEMA would develop a tiered IA 
structure that delivers grant funds to families based on damage 
assessments regardless of who else might be supporting the survivors. 
This needs to be regardless of insurance status.
            Recommendation: Cut red tape at all levels.
    Some jurisdictions encountered challenges in quickly procuring 
needed support services, while many others discovered that the 
contracts they had in advance of the storm did not include all of the 
contract provisions required under the governing Federal laws and/or 
rules. Many of these required Federal provisions seem to be onerous, 
such as the prohibition to use interlocal agreements to allow contracts 
procured by one jurisdiction (i.e. the county) to be used to perform 
work for another jurisdiction (i.e. a city). This is common practice 
under State procurement laws, but prohibited by Federal laws governing 
disaster response. This prohibition greatly reduces the options 
available to local jurisdictions to quickly and efficiently respond to 
their needs. Additionally, confusion as to what is required for Public 
Assistance (PA) funding was problematic. Due to this inconsistency, 
local auditors, finance directors, and emergency managers operated 
under a cloud of anxiety. The lack of a true and cohesive checklist 
detailing the documentation requirements can greatly affect a 
jurisdiction's Public Assistance funding.
    Cutting red tape works. For example, in the aftermath of Hurricane 
Harvey, Governor Abbott used the authority provided to him in Texas 
Govt. Code section 418 to suspend hundreds of regulatory statutes and 
State agency rules that would in any way prevent, hinder, or delay 
necessary action in coping with the disaster. The suspended 
regulations/rules fall under the authority of more than 30 State 
agencies and cover a variety of topics including peace officers, 
vehicle storage facilities, professional license renewal, animal 
health, and many more. (A complete list is available on request.) The 
removal of the regulations allowed for State and local entities to 
focus on the goal of picking up the people of Texas, rather than on 
complying with procedures and process.
Obstacle: Housing Delays
    The loss of family homes and family memories, and the sense of 
security those bring, was deeply devastating for many Texans. Given the 
enormity of the potential housing project in Texas, and the likelihood 
that FEMA would be spread too thin to manage responses to three 
separate storms concurrently, Texas agreed to take the primary role in 
delivering temporary housing. A cooperative federalism of this sort has 
the potential to radically transform the way housing is delivered. In 
its best form, the Federal Government can provide tremendous financial 
assistance to those whose lives have been devastated by the storm, 
while permitting States to provide solutions that satisfy the unique 
geographical, legal, and even political concerns of their State. But 
such a method will only work if the insertion of the State into the 
implementation of the temporary housing programs does not simply insert 
an additional layer of process and procedure. In some places, the 
temporary housing program has been slowed by trying to coordinate 
procedures and ensure compliance at three different levels of 
government.
            Recommendation: Streamline delivery; remove regulatory 
                    roadblocks.
    Though still on-going, Texas learned two valuable lessons from its 
implementation of the temporary housing program. First, in order for 
the cooperation to work, States must truly be relieved of complying 
with the tangle of Federal regulations governing the temporary housing 
program. Indeed, it would seem that even FEMA--which continues to help 
implement the temporary housing program in some parts of the State--
struggles to efficiently deliver housing solutions while complying with 
these regulations. And while the labyrinth of regulations and processes 
is long and tortuous, many of the rules themselves have the perverse 
effect of being both more costly and less effective. Second, Texas 
itself must do a better job of removing regulatory obstacles from the 
successful delivery of temporary housing solutions. The patchwork of 
codes and local ordinances that crisscross the State has made it 
extremely difficult to design a one-size-fits-all solution to immediate 
housing needs. Take for example, the RV and Manufactured Home 
solution--the most widely-used FEMA program. Many areas, such as the 
city of Houston, do not permit the installation of RVs or manufactured 
homes.
Obstacle: Debris Removal and Procurement
    The faster debris is removed, the faster recovery begins. With an 
estimated 16 million cubic yards of debris generated by Hurricane 
Harvey, debris collection and removal was a huge issue early during the 
response and recovery phases, and to a certain extent continues today. 
We are thankful that the President rapidly authorized a 90 percent 
Federal cost share for debris removal, which helped alleviate some of 
these burdens, however on-the-ground problems ranged from insufficient 
resources to remove debris to a lack of disposal sites available in 
some areas to accept mixed debris. And many cities let a single 
contract for debris removal. At its best, this scenario provides no 
incentive for debris haulers to move quickly. At its worst, it provides 
a perverse incentive for price gouging and coercion. Opportunities 
exist to improve the debris collection and removal response through 
improved contracting practices, pre-approved collection and disposal 
sites, and prepositioning of critical assets.
            Recommendation: Remove regulatory roadblocks.
    Federal regulations have posed a problem for local jurisdictions as 
the requirements involve more stringent guidelines, as well as 
additional personnel and resources for already overwhelmed and 
understaffed departments. Jurisdictions struggle to implement the 
Federal guideline of full and open competition due to the extreme 
nature of the event. As these jurisdictions were responding to public 
safety and saving lives, the task of publishing solicitations, 
adjusting time lines, researching products and services, and 
prohibiting local preferences all took a secondary role in the response 
effort. Jurisdictions were forced to take time away from their efforts 
of managing the devastation to focus on Federal grant requirements, 
which were more stringent than local or State laws, regulation, or 
policy. Although many jurisdictions had prepared for disaster services 
by awarding pre-positioned contracts prior to the event, the 
jurisdictions found that these contracts were not compliant with 
Federal procurement regulations.
    The three hurricanes in 2017 found many debris contractors leaving 
Texas (often without fulfilling their contract), assisting other 
States, returning to Texas, and then raising their agreed-upon contract 
prices with Texas jurisdictions. Under Federal guidelines, a cost 
change to an original contract would require a detailed cost analysis. 
Due to the unusual and unique circumstances of three devastating events 
affecting the United States, Texas jurisdictions were not only at the 
mercy of the debris contractors, but they were also under pressure to 
remove the debris quickly and expediently due to health and safety 
hazards. Conducting detailed cost and price analysis under such 
circumstances became a heavy burden on these jurisdictions.
    FEMA could speed up recovery by removing regulations on private 
property and commercial property debris removal. It has been theorized 
that insurance should cover private and commercial properties, but 
since FEMA is the insurer under NFIP, by applying outdated regulations, 
all FEMA is doing is slowing the recovery process.
Economic Losses
    As a result of Hurricane Harvey, nearly 1.4 million Texans likely 
evacuated from their homes, more than 35,000 rescues were recorded, 
more than 42,000 Texans sought refuge, and nearly 300,000 households 
were left without power. And tragically, it is estimated that 68 people 
died, making Harvey the deadliest hurricane to hit Texas in nearly 100 
years. The event upended millions of Texans' lives. On top of this, 
Hurricane Harvey's economic impact was in the range of $125 billion, 
according to the National Hurricane Center.
            Recommendation: Prioritize mitigation projects.
    Disaster recovery is a long and expensive process--and one that 
should be thought of both in terms of present and future need. Governor 
Abbott has made clear that we cannot simply repair the damage left 
behind by Hurricane Harvey--but that we must ``future proof'' for the 
next storm. Spending precious taxpayer dollars without consideration of 
future costs, both in terms of dollars and lives, is short-sighted and 
fiscally irresponsible. Texas has asked the Federal Government to 
provide assistance to ensure that Texas rebuilds stronger than ever 
after Hurricane Harvey, and it is our intention to be good stewards of 
those dollars both in terms of present and future need. Thanks to the 
hard work of the Texas Congressional delegation and Members of 
Congress, we are off to a good start toward ``future-proofing.''
    We can minimize the cost of future disasters by investing money now 
to mitigate damage in the future. For example, Texas is funding hazard 
mitigation projects in communities impacted by Hurricane Harvey through 
FEMA's Hazard Mitigation Grant Program (HMGP). The funding from FEMA 
will provide an estimated $1 billion for projects designed to both help 
Texas rebuild and reduce the risk of future damage from flooding and 
hurricanes. The HMGP is an example of a State-Federal partnership that 
targets financial resources toward local projects that will help 
``future proof'' against the next storm.
                               attachment
Historic Storm
  <bullet> NATIONAL HURRICANE CENTER, ``Tropical Cyclone Report, 
        Hurricane Harvey,'' Jan. 23, 2018. https://www.nhc.noaa.gov/
        data/tcr/AL092017_Harvey.pdf
    ``Harvey started as a typical weak August tropical storm that 
        affected the Lesser Antilles and dissipated over the central 
        Caribbean Sea. However, after re-forming over the Bay of 
        Campeche, Harvey rapidly intensified into a category 4 
        hurricane (on the Saffir Simpson Hurricane Wind Scale) before 
        making landfall along the middle Texas coast. The storm then 
        stalled, with its center over or near the Texas coast for 4 
        days, dropping historic amounts of rainfall of more than 60 
        inches over southeastern Texas--Harvey was the most significant 
        tropical cyclone rainfall event in United States history, both 
        in scope and peak rainfall amounts, since reliable rainfall 
        records began around the 1880's. The highest storm total 
        rainfall report from Harvey was 60.58 inches near Nederland, 
        Texas, with another report of 60.54 inches from near Groves, 
        Texas. Both of these values (and from five other stations) 
        exceed the previously accepted United States tropical cyclone 
        storm total rainfall record of 52.00 inches at Kanalohuluhulu 
        Ranger Station, Hawaii, in August of 1950 from Hurricane 
        Hiki.''
  <bullet> @NWS, Aug. 28, 2017. https://twitter.com/NWS/status/
        902174274571689984/photo/1
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Rescue, Recovery, and Rebuilding
  <bullet> OFFICE OF THE GOVERNOR, REPORT TO THE PEOPLE, ``Steps to 
        Recovery,'' Jan. 29, 2018. A snapshot of action taken by the 
        Governor; not inclusive of all briefings, hearings, 
        proclamations, actions, or events in Texas. Begins on page 28: 
        https://gov.texas.gov/uploads/files/press/
        2018ReportTOThePeople_- 01292018.pdf
Economic Loss/Damage
  <bullet> NATIONAL HURRICANE CENTER, ``Costliest U.S. tropical 
        cyclones tables updated,'' Jan. 26, 2018. Table 3b. Costliest 
        mainland United States tropical cyclones, 1900-2017, after 
        accounting for inflation to 2017 dollars. https://
        www.nhc.noaa.gov/news/UpdatedCostliest.pdf
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> INSURANCE JOURNAL, ``Top 10 Global Economic Loss Events,'' 
        Jan. 24, 2018. Insurance Journal estimates Harvey exceeded $100 
        billion in economic loss; only $30 billion was insured. https:/
        /www.insurancejournal.com/news/international/2018/01/24/
        478246.htm
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman McCaul. Thank you so much. Let me just say I think 
the Governor made us all Texas proud and strong, so thanks for 
your testimony.
    The Chair now recognizes Mr. Maul for his testimony.

   STATEMENT OF WESLEY MAUL, DIRECTOR, DIVISION OF EMERGENCY 
                  MANAGEMENT, STATE OF FLORIDA

    Mr. Maul. Thank you, sir. Good afternoon. At 9:10 a.m. on 
September 10, 2017, Hurricane Irma made landfall at Cudjoe Key 
as a Category 4 storm, becoming the first major hurricane to 
impact Florida since Wilma in 2005.
    Hurricane Irma's constantly-changing course and intensity 
required the State emergency response team to plan for dozens 
of impact scenarios and resulted in one of the largest storm 
responses in Florida's history.
    Record-breaking evacuations, shelter populations, commodity 
distribution, mission requests, and quite possibly the largest 
power restoration in American history. The success of our 
State's response would not have been possible without the 
steadfast support of our mutual aid and EMAC partners.
    In the end, 38 States and the District of Columbia aided 
our efforts either through dedicated teams or through resources 
shipped.
    Additionally, the military's contributions to Florida's 
response cannot be understated. Strategic partnerships with the 
National Guard and DOD proved to be the game-changing element 
in our response. It is important to remember that Hurricane 
Irma was not the only challenge we faced in 2017. Irma's 
impacts came just 2 weeks after Hurricane Harvey caused 
catastrophic damage in Texas. Ten days after Irma made landfall 
in Florida, Hurricane Maria impacted Puerto Rico, devastating 
the island. Nate was not far behind, impacting the Gulf Coast 
on October 7.
    Despite the effects of one of the largest storms to hit our 
shores in over a decade, Florida stood ready in support of 
Texas' efforts associated with Hurricane Harvey; the division 
coordinated the deployment of three search-and-rescue teams in 
a voluntary agency liaison.
    To prepare for the Gulf Coast impacts associated with 
Hurricane Nate, we pre-staged an IMT and we made sure that 
ambulance, swift water rescue, recon, and US&R teams were on 
standby.
    The aftermath of Hurricane Maria's devastating landfall in 
Puerto Rico presented a unique set of challenges for those 
affected by the storm. However, Florida once again stood ready 
to help our neighbors. We fulfilled critical EMAC missions, 
requests for law enforcement, National Guard, transportation, 
and utility professionals in support of the response effort.
    Division staff worked closely with their Puerto Rican 
counterparts and members of Governor Rossello's administration 
to provide technical and strategic expertise, as well as 
information regarding the availability of Florida-based 
resources.
    Florida remains the only State to have entered into a host 
State agreement to directly assist Maria survivors. This helped 
us coordinate the opening of resource centers to provide tens 
of thousands of Maria evacuees in Florida with a one-stop shop 
for available survivor resources.
    At the request of Governor Scott, the disaster case 
management program was also approved for Maria evacuees in our 
State. This, when considered alongside TSA and the marks proves 
Florida's commitment to providing every storm survivor with the 
same level of care regardless of their origin.
    The 2017 Atlantic hurricane season was a defining event for 
the division and our partners. We will continue to review and 
reflect upon the actions taken during our many response 
operations, seeking ways to improve our practices and provide 
Floridians with the best possible quality of service.
    As we chart the course forward, Florida must strategically 
position itself to build a culture of preparedness, ready our 
communities for catastrophic disasters, and reduce the 
complexity of disaster programming. The 2017 season was the 
most expensive in U.S. history.
    FEMA Administrator Brock Long said that if this is the new 
normal, Americans can't rely on a Federal cavalry when disaster 
strikes. They will need to have to take care of themselves.
    In Florida, we couldn't agree more. As emergency managers 
we are taught that disasters are inherently local, and we 
recognize that until we return to a culture of localized 
responsibility, we will never truly be prepared for all 
disasters.
    To that end, there are things we can do now together to 
ensure that we are ready for whatever the future may hold. Let 
us streamline our policies and our procedures at every level. 
The last thing a storm survivor needs to deal with in the 
aftermath of a devastating impact is another bureaucratic maze.
    We can partner to train and mitigate on the front end, thus 
buying down the cost of disasters. Maximizing resiliency prior 
to emergencies will always prove more cost-effective than even 
the best of recoveries.
    Let us plan and fund strategies that are Federally 
supported, State-managed and locally executed. For example, 
increasing management costs 12 percent would better position 
States and communities to manage disasters on their own while 
decreasing their overall dependency on Federal resources.
    Administrator Long was correct in his statement: Building a 
culture of preparedness will be the most effective way to deal 
with the new normal. It is time to be bold and hit the reset 
button on much of what we thought we knew in this profession.
    Moving forward, I want this committee to know that my team 
and I are available to discuss with, partner on, and work with 
you on all issues. We also stand ready to work alongside 
Administrator Long and our fellow States to move this 
profession forward.
    I want to close by saying thank you to our Federal, State, 
and local partners. It was a pleasure working with you last 
season, and we appreciate all of your hard work. You 
contributed to our success, which in turn allowed us to support 
our neighbors when they needed it the most. That is exactly how 
this business is supposed to work. Thank you.
    [The prepared statement of Mr. Maul follows:]
                   Prepared Statement of Wesley Maul
                             March 15, 2018
                               section i
    At 9:10 a.m. on September 10, 2017, Hurricane Irma made landfall at 
Cudjoe Key as a Category 4 storm, becoming the first major hurricane to 
make landfall in Florida since Wilma in 2005.
    Later that afternoon, Irma made landfall in Florida for a second 
time, now on Marco Island as a Category 3 storm. The State Emergency 
Operations Center (SEOC) had been at the highest level of activation 
since September 5; almost a week of round-the-clock operations in 
anticipation of a major hurricane impact.
    As Irma moved across our State, hurricane strength winds extended 
up to 80 miles and tropical storm force winds extended up to 400 miles 
from the center of the storm. At least 32 of Florida's rivers and 
creeks flooded, and 18 tornadoes were confirmed across the peninsula.
    Fifty-four out of our State's 67 counties issued evacuation orders 
to a record 6.8 million people, resulting in our State's largest 
evacuation to date.
    On September 11, as the storm made its way north, more than 6.7 
million customers lost power--more than 64 percent of Florida utility 
customers.
    Hurricane Irma's constantly changing course and intensity 
projections required the State Emergency Response Team (SERT) to plan 
for dozens of potential impact scenarios simultaneously and resulted in 
one of the largest storm responses in Florida history.
    The SERT began operations by initiating coordination calls with the 
National Hurricane Center and county emergency management officials on 
September 4, a week before landfall. On September 5, the SEOC activated 
to Level One, the highest level of activation, and sustained its 24-
hour operations until the 21st of that same month. The SEOC remained 
activated for a total of 35 consecutive days, until the evening of 
October 8, when the Activation Level returned to Three.
    State and local governments utilized Alert Florida, the State-wide 
alert notification system, to send more than 4,500 alert messages to 
more than 7,000,000 unique recipients. The total number of 
registrations grew by 156,675 in the month of September alone.
    In the SERT's common operating platform, Emergency Management (EM) 
Constellation, a total of 6,768 missions have been entered to date--
2,000 more than Hurricane Charley and almost 5,000 more than last 
year's Hurricane Matthew.
    Five first responder base camps were opened by the State, while 95 
SERT Liaisons deployed to EOCs.
    Urban Search and Rescue (USAR) operations were conducted across our 
State, with tens of thousands of structures searched.
    State-wide, 1,440 personnel from nine Florida and 21 out-of-State 
USAR Task Forces completed 64 USAR missions, resulting in 751 residents 
assisted and 62 animals rescued.
    State law enforcement also played a vital role in Florida's 
response, as evidenced by the 400 mission requests completed through 
the SERT. These operations included dedicated escorts for emergency 
fuel and commodity shipments moving across the State, security and the 
staffing of critical checkpoints.
    Sixty-two Florida Department of Law Enforcement (FDLE) personnel 
deployed, including 21 who supported SEOC operations. These agents and 
officers spent 27 uninterrupted days working tirelessly to coordinate 
pre- and post-landfall law enforcement missions. Their contributions 
formed an important pillar of Florida's response.
    Beach fortification and marine debris cleanup occurred on an 
impressive scale. In addition, 62,189 cubic yards of sand were used to 
fortify beaches in St Johns, Volusia, and Flagler Counties.
    State-wide, 2,377 vessels were assessed and 2,118 were removed; 
1,685 of those removed were in the Florida Keys alone.
    Two hundred fifty-two thousand, forty-five cubic yards of 
vegetation, construction and demolition debris were cleared, including 
much from waterways in Duval, Clay, St. Johns, Putnam, Brevard, 
Collier, Marion, and Lee Counties.
    In total, the SERT distributed more than 14,945,854 liters of 
water, 13,870,560 meals, 270,042 tarps, and 13,000 cots.
    Seven hundred three shelters opened throughout the State, housing a 
record-breaking peak population of 191,764 people.
    These totals include 117 Special Needs shelters that housed a peak 
population of 14,290 individuals. In addition, sheltered survivors were 
served more than 1 million meals.
    Forty-four thousand, eight hundred three volunteers donated almost 
1.5 million hours to the response effort, a time commitment valued at 
almost $3.2 million. Five-point-eight million pounds of food donations 
were received.
    The Florida Disaster Fund, working with Volunteer Florida, has 
contributed $2.5 million in grants to 77 organizations, and hopes to 
commit another $5 million.
    Thanks to the outstanding efforts of our team and partners, every 
request for resources from county emergency management agencies was 
met. The SERT successfully planned and actively coordinated the 
strategic and logistical operations required of an effective response 
to a major storm impact.
                               section ii
    The success of our State's response would not have been possible 
without the steadfast support of our Mutual Aid and EMAC partners.
    Last year, the Florida Division of Emergency Management (FDEM) 
successfully coordinated 145 EMAC and Mutual Aid requests-129 for 
Hurricane Irma, 11 for Maria, 4 for Harvey, and 1 for Nate.
    Thousands of linemen arrived through Mutual Aid agreements and 
helped restore electricity to those more than 6.7 million customers 
left without power. Their round-the-clock efforts resulted in a 91 
percent restoration of State-wide power in only 6 days.
    Two-hundred twenty-six trucks carried 1,422,587 gallons of fuel 
into Florida. The 24 emergency fueling stations supplied through these 
operations supported the efforts of our first responders throughout the 
State.
    Thirty-four Incident Management Teams (IMTs) deployed, 28 from 
outside Florida, and conducted a host of missions, including Basecamp, 
Field, EOC Support, Recovery, and MARC Support Operations.
    In the end, 38 States and the District of Columbia aided our 
efforts, either through dedicated teams or through resources shipped.
    Federal agencies also proved invaluable partners during the 
response to Irma. The Federal Emergency Management Agency (FEMA), for 
example, supplied 8,455,768 meals, 70,042 tarps, 42,491 gallons of 
fuel, and 5,446,546 liters of drinking water.
    Federal personnel deployed across the State in a variety of mission 
roles. These included including 465 FEMA and 294 Department of Homeland 
Security (DHS) surge staff, 11 management teams, and 8 FEMA Urban 
Search-and-Rescue teams.
    The military's contribution to Florida's response cannot be 
understated. Almost 11,000 uniformed Service Members were deployed, 
3,228 of them from outside our State.
    The Florida National Guard supported nearly every aspect of the 
State's response through sheltering, search and rescue, security, 
communications, and commodity distribution operations. Two thousand 
eight hundred seventy-seven Guard personnel supported 352 shelters in 
42 counties, distributed more than 4.8 million meals and almost 6.5 
million liters of water, and de-mucked 471 homes in the Florida Keys.
    Regarding Title X resources, the Defense Coordinating Element (DCE) 
integrated extremely well into daily operations.
    The Defense Coordinating Officer (DCO) and his team assisted in the 
development of a plan that helped the Florida Air Operations Branch 
build a robust set of planning, coordination, and tracking 
capabilities. This plan's implementation allowed for the 
synchronization of aviation assets between 6 agencies and across 853 
fixed-wing and 423 rotary-wing missions.
    The DCE also coordinated, planned, and executed operations 
involving four uniformed services.
    They provided operational coordination with the ships USS Iwo Jima, 
USS New York, and USS Abraham Lincoln, major naval assets positioned to 
help with Florida's response.
    In addition, Naval Air Station (NAS) Key West provided responder 
housing as well as docking and support for the TS Empire State, a troop 
ship that ensured the availability of critically-needed rescue and 
support capabilities in the Florida Keys.
    They worked with FEMA and the Defense Logistics Agency (DLA) to 
track the delivery of more than 800 trailers containing life-saving and 
life-sustaining FEMA supplies.
    Emergency Preparedness Liaison Officers (EPLO) coordinated more 
than 20 air transport missions carrying the medically dependent, 
critical supplies, and personnel.
    Last, the Joint Regional Medical Planning Officer (JRMPO) attached 
to the DCE successfully integrated with the SERT's Health and Human 
Services personnel. The partnership assisted in the development of 
mission assignments, such as for the movement of critical medical 
assets under the National Disaster Medical System (NDMS).
    The JRMPO also assisted the ESF-8 with the development of patient 
movement and sheltering plans and coordinated with U.S. Northern 
Command (USNORTHCOM) and the SERT to develop a vector control plan for 
anticipated threats stemming from post-storm expanding mosquito 
populations.
    In all, the FEMA Region IV DCE identified the necessary Title X 
resources and deployed 49 staff from all four service branches. During 
the response, the DCE completed 48 mission assignments and 11 tasking 
orders, resulting in the obligation of more than $300 million--all with 
zero loss or damage. Their operational contributions and strategic 
insights only enhanced the SERT's capabilities, proving, once again, 
that DoD contributions are indispensable.
                              section iii
    It is important to remember that Hurricane Irma was not the only 
challenge we faced in 2017. Irma's impact came just 2 weeks after 
Hurricane Harvey caused catastrophic damage in Texas. Ten days after 
Irma made landfall in Florida, Hurricane Maria impacted Puerto Rico, 
devastating the island. Nate was not far behind, impacting the Gulf 
Coast on October 7.
    Despite the effects of one of the largest storms to hit our shores 
in over a decade, Florida and FDEM stood ready to support.
    In support of Texas's efforts associated with Hurricane Harvey, the 
Division coordinated the deployment of a volunteer agency liaison as 
well as three Search-and-Rescue teams. These assets travelled to the 
Houston area and helped their Texas counterparts respond to the storm.
    To prepare for potential West Florida impacts associated with 
Hurricane Nate, we pre-staged an IMT at the SEOC. We made sure 
Ambulance, Swift Water Rescue, Recon, and USAR Teams were on Standby.
    We also expanded the operation of the State Assistance and 
Information Line (SAIL) in anticipation of any potential impact 
scenarios and coordinated the opening and staffing of seven public 
shelters.
    Hurricane Maria's devastating landfall in Puerto Rico presented a 
unique set of challenges for those affected by the storm. However, 
Florida once again stood ready to help our neighbors. In preparation 
and response to the storm's impact, the Division and our partners took 
several important steps.
    We fulfilled critical EMAC mission requests in support of the 
response effort. These included:
  <bullet> an FDOT crew to evaluate traffic signal installations and 
        transportation systems,
  <bullet> an 8-member FDLE Law Enforcement IMT,
  <bullet> a 26-airman National Guard sheltering support mission,
  <bullet> 50 Florida Highway Patrol (FHP) officers, along with 12 
        officers from the Orlando Police Department, providing security 
        and law enforcement support,
  <bullet> a 20-day National Guard rotary-wing mission.
    Division staff worked closely with their Puerto Rico counterparts 
and members of Governor Rossello's government to provide technical and 
strategic expertise, as well as information regarding the availability 
of Florida-based resources.
    Just as important was our effort to safeguard the hundreds of 
thousands of Puerto Ricans who evacuated to the State of Florida.
    Florida remains the only State to have entered into a Host State 
Agreement to directly assist Maria survivors. This helped us coordinate 
the opening of State Multi-Agency Resource Centers (MARC) at our 
airports, and later in the community, as early as October 10, 2017.
    These MARCs have proven an incredibly helpful resource for many of 
those who were displaced by the effects of Hurricane Maria. The centers 
brought together State and Federal agencies as well as volunteer 
organizations to provide Maria evacuees in Florida with a one-stop shop 
of available survivor resources.
    Participating agencies included include FEMA, the Florida 
Department of Children and Families, Department of Highway Safety and 
Motor Vehicles, Department of Agriculture and Consumer Services, 
Department of Health, Department of Economic Opportunity, the American 
Red Cross, and Catholic Charities.
    These partners offer storm victims a wide range of important 
services, including help with registering for FEMA Individual 
Assistance, crisis counseling, Supplemental Nutrition Assistance 
Program (SNAP) information, assistance with unaccompanied minors and 
agency social services, assistance with animal services, medical 
attention and health concerns, employment information and training 
services, food and water resources, language guidance, and spiritual 
care.
    To date, 34,017 individuals have visited Florida MARCs and received 
assistance, leaving little doubt that these facilities made a 
substantial contribution in addressing the needs Maria survivors.
    Additionally, the Division has supported Individual Assistance 
programming for Maria survivors in Florida, such the Transitional 
Shelter Assistance (TSA) program.
    TSA saw a peak of 1,786 households on January 14, 2018, totaling 
4,855 individual Maria survivors checked into Florida hotels.
    At the request of Governor Scott, the Disaster Case Management 
(DCM) program was also approved for Maria evacuees in in our State. 
This, when considered alongside TSA and the MARCs, proves Florida's 
commitment to providing every storm survivor with the same level of 
service, regardless of their origin.
    The SEOC currently remains activated in support of Puerto Rico's 
recovery as FDEM continues to play an integral role in the coordination 
of response efforts between Federal, State, local, private industry, 
volunteer, and faith-based organizations.
                               section iv
    The information regarding Hurricane Irma's total impact is still 
being collected.
    All of Florida's 67 counties were declared under a Presidential 
Disaster Declaration. Out of these, 55 counties were declared for all 
categories of Public Assistance, while 49 counties were declared for 
Individual Assistance.
    To date, 9,444 recovery projects have been initiated through 1,214 
Requests for Public Assistance (RPA). At last estimate, Florida's State 
Agencies spent $727,327,438 responding to the storm, and our local 
community costs are expected to exceed $1 billion.
    A record-breaking 2,644,137 Floridians have registered for 
Individual Assistance.
    The Small Business Administration (SBA) has approved more than 
31,000 loans, totaling $1,059,938,900 in Florida.
    FEMA's Individuals and Households Program (IHP) has approved 
$992,041,840.70 million in assistance, with a to-date disbursement of 
$909,200,734.85.
    This includes $686,487,724.77 in Housing Assistance, of which 
$679,737,471.13 is already in the hands of storm survivors.
    IHP also includes $305,554,225.93 approved in Other Needs 
Assessment (ONA) grants, with a to-date disbursement of 
$229,463,263.72.
    The Transitional Sheltering Assistance program successfully 
provided hotel rooms for 27,332 displaced households over a 6-month 
period, ending just this past week.
    For the first time, Florida executed the Sheltering and Temporary 
Emergency Power (STEP) program. However, unlike in other States, 
Florida took the approach of a Federally-funded, State-administered, 
locally-managed program.
    STEP was authorized in ten Florida counties: Monroe, Collier, Lee, 
Hendry, Miami-Dade, Broward, Palm Beach, Hendry, Charlotte, and St. 
Johns. However, only Monroe County chose to utilize the program for a 
current total of 204 eligible households. To date, approximately $1.6 
million dollars has been spent on STEP within Monroe County at an 
average of $8,827 per unit--all to provide safe, sanitary, and secure 
survivor housing in the Florida Keys.
    Moving forward, there are important considerations regarding State 
mitigation efforts.
    Currently, FEMA's revised 6-month HMGP estimate stands at 
$354,066,081, while counties still have more in unfunded project costs 
than our programs have in available funding--$4,152,347,415 as of last 
estimate.
    For decades, Florida has been a model of mitigation practices, and 
Hurricane Irma provided yet another case study in the value of 
mitigation planning. The juxtaposition of pre-Hurricane Andrew and 
post-Florida Building Codes structures in the Florida Keys will provide 
valuable data as we begin to employ Irma HMGP funds in buying down the 
cost of future disasters.
                               section v
    Hurricane Irma's recovery marks the first full implementation of 
the National Disaster Recovery Framework (NDRF) in Florida, and having 
the full Federal family integrated into the process has proven a 
tremendous success.
    Florida's NDRF structure mirrored the Federal NDRF structure in 
pairing partner agencies to perform in a disaster recovery context. 
This framework was critical in transitioning through the response, 
recovery, and mitigation phases of Hurricane Irma.
    In addition, this level of integration carried into the place-based 
teams, facilitating expeditious resource delivery to the most impacted 
jurisdictions. Staff embodied four guiding principles when engaging 
with impacted entities:
    1. Disasters are local; locals maintain the best knowledge 
        regarding their communities' needs.
    2. Focus on tangible projects that buy down natural hazard risk.
    3. Promote return on investment in all actions.
    4. Always be mindful of a project's life cycle.
    The leveraging of funds and programs through the NDRF provided the 
ability to build resiliency through mitigation. The NDRF structure 
integrated steady-state and Stafford Act funds and programs in support 
of disaster recovery and mitigation needs.
    Exploring the integration of additional disaster recovery 
opportunities is on-going. Current efforts in project advancement 
include the Community Reinvestment Act and Public-Private Partnerships.
    The framework also provides a mechanism for direct access to 
Federal agencies with regulatory oversight or funding opportunities. 
This level of engagement during the early stages of project development 
increases program compliance decreases the odds of funding de-
obligation.
    Florida's success in utilizing the NDRF should serve as a model for 
other States, ensuring the speedy recovery of impacted communities.
                               section vi
    The 2017 Atlantic Hurricane Season was a defining event for the 
Division and our partners. We will continue to review and reflect upon 
the actions taken during the response, seeking ways to improve our 
practices and provide Floridians with the best possible quality of 
service.
    Though the storm moved through Florida only 6 months ago, we have 
already begun to chart a course forward.
    Debris cleanup, evacuations, fuel, mass logistics, health and 
medical risks, communications, and considerations for medically 
dependent and vulnerable populations will be our primary areas of 
focus. Through effective After-Action Reviews and continuously seeking 
opportunities for improvement, FDEM will ensure that every Floridian 
receives the care and service they need to successfully prepare for, 
respond to, recover from, and mitigate against any potential emergency.
    Recovery is a lengthy process--one that takes years of hard work 
and dedication. Considering the magnitude of the event we witnessed 
last year, there is still much to be done before we can officially 
declare this mission accomplished. However, after witnessing the 
outstanding determination and efficiency of our staff during my time 
with the Division, and the exemplary results achieved through our 
team's work during Irma, I have no doubt that Florida is beyond 
equipped to handle the challenges ahead and will continue to set the 
standard for emergency management everywhere.

    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Melendez.

 STATEMENT OF JOSE MELENDEZ-ORTIZ, VICE CHAIRMAN, COMMITTEE ON 
 FEDERAL AND INTERNATIONAL RELATIONS, AND STATUS, COMMONWEALTH 
                         OF PUERTO RICO

    Mr. Melendez-Ortiz. Thank you, Mr. Chairman and Ranking 
Member for the opportunity to appear before this committee 
today. Before I begin, I would like to extend our deepest 
gratitude for your dedicated support in assisting us in the 
process of recovery and rebuilding. I also want to thank you 
for your unconditional assistance to our sole representative in 
Congress, our champion and my friend, the Honorable Jenniffer 
Gonzalez.
    It has been 6 months since Hurricane Irma fumbled through 
the Caribbean including Puerto Rico and 176 days since 
Hurricane Maria ripped through our island. In the span of 2 
weeks, Puerto Rico was hit by two Category 4 and 5 hurricanes.
    For the past 20 years, since Hurricane Georges, we have 
been spared. Up until September of last year, we often boasted 
that Puerto Rico was especially blessed and protected. Then we 
were humbled.
    In September 2017, we were facing one of the worst natural 
disasters in modern history. It was as if Mother Nature was 
reminding us all that no matter how strong one might be, nature 
will always be more powerful and it deserves our utmost 
respect. That, Mr. Chairman and Members of this committee, is 
our first lesson.
    Let us be honest. None of us, either at the State or 
Federal levels, were prepared to tackle the devastation caused 
by Hurricane Maria. This is our second lesson. We must make the 
necessary adjustments to adapt our emergency preparedness and 
recovery efforts for a more effective and efficient response in 
the upcoming hurricane season.
    To do this at the Federal level, a citizen guidance must be 
taken into consideration. No. 1, the Federal Government must 
anticipate shipping delays to the island and take the necessary 
steps to ensure rapid response by sea and air.
    No. 2, nowadays telecommunications are a basic necessity. 
Your smartphone is no longer a luxury. It is a piece of 
emergency equipment that need to function in order for the most 
basic communication to phone.
    No. 3, cut the red tape. Whoever thought that bureaucracy 
could effectively handle emergencies was sorely mistaken. It 
can't despite all good intentions.
    No. 4, there is no space for political pandering in the 
middle of an emergency. To use the pain and suffering of 
millions of American citizens to indulge in cheap politician 
and gain political recognition is simply immoral. It is a 
shameful exploitation of people who are merely trying to recoup 
their normalcy in the midst of chaos.
    No. 5, and this is important, we must urgently invest in 
strengthening our power grid. You know, the recently-approved 
relief package included $16 billion for Puerto Rico. The funds 
are badly needed as Puerto Rico simply lacks the resources, 
human or financial, to fortify the system and prepare for 
hurricane season.
    The simple truth is that we need more time. We need more 
time, more materials, more resources. It pains me to say, but 
we need more sense of urgency.
    So it is with the deep respect that I ask you as Members of 
Congress inject that much-needed sense of urgency to our 
Federal agencies. I make this humble request on behalf of 
millions of families who in the face of adversity rose up the 
day after the storm to clean their houses, clean their debris 
from the streets, and help those in most need in their 
communities.
    I make this request on behalf of the thousands of doctors 
who have continued to attend to the sick in spite of the lack 
of power or internet in their offices or hospitals.
    I make this request on behalf of the thousands of 
entrepreneurs who have invested every single penny they have in 
the bank to save their businesses and open their doors to the 
public. They rose in spite of adversity.
    I make this request on behalf of the thousands of people 
who lost their jobs in the aftermath but have not quit, and 
continue to look for work in order to get ahead.
    I make this request on behalf of the thousands of kids who 
go to school every day in spite of a lack of power or water. 
Dedication continues to be more important than any obstacle 
because you see, behind the devastation of Maria a bigger story 
is being written in Puerto Rico. It is a story of resilience. 
It is a story of people who want to get ahead, who want to be 
self-sufficient, who want to get back to normal.
    With that, I thank you for your time and I hope that we can 
continue to working together so we can build a stronger and 
better Puerto Rico. Thank you.
    [The prepared statement of Mr. Melendez-Ortiz follows:]
 Prepared Statement of Jose Melendez, State Representative, At-Large, 
                              Puerto Rico
                             March 15, 2018
    Thank you Mr. Chairman and Ranking Minority Member Thompson for the 
opportunity to appear before this committee today to share with you 
some of the many lessons learned from the passing of Hurricane Maria 
through Puerto Rico nearly 6 months ago.
    Mr. Chairman, I appear before you as an At-Large State 
Representative, on behalf of the nearly 3.5 million American citizens 
who call Puerto Rico our home. Before I begin, I wish to extend our 
deepest gratitude for your dedicated support in assisting us in the 
process of recovery and rebuilding. In the past 6 months, you have 
maintained a watchful and empathic eye, evaluating the situation on the 
island first-hand with visits, and maintaining constant communications 
with Federal and local agencies to ensure that the needs of our 
American citizens are met and that the normalcy we all long for is 
finally restored. I also want to thank you for your unconditional 
assistance to our sole representative in Congress, the Honorable 
Jenniffer Gonzalez, who has demonstrated exemplary leadership as a 
coalitions builder to secure the necessary resources that afford these 
American citizens sound health, homes, and the restoration of basic 
needs including electricity, potable water, and telecommunications, 
among many other items.
    It has been 6 months since Hurricane Irma pummeled through the 
Caribbean, including Puerto Rico, and 176 days since Hurricane Maria 
ripped through our island. Within a span of 2 weeks, Puerto Rico was 
hit by two Category 4 and 5 hurricanes. For the past 20 years--since 
Hurricane Georges--we had been spared, and up until September of last 
year, we often boasted that Puerto Rico was especially blessed and 
protected.
    And then, in just 15 days, we were humbled. On September 23, 2017 
we were facing one of the worst natural disasters in modern history. It 
was as if Mother Nature was reminding us all that no mailer how strong 
one might be, nature will always be more powerful, and it deserves our 
utmost respect. That, Mr. Chairman and Members of this committee, is 
our first lesson.
    Let me begin by stating that in spite of enjoying a 20-year period 
of relative peace during hurricane season, I can confidently state that 
our emergency preparedness plans have always been comprehensive and 
effective. For both Hurricanes Irma and Maria, our plan was put in 
place on time; allowing the State government and our first responders, 
as well as the mayors, to quickly evacuate residents from at-risk 
communities onto shelters, and for individuals and families to purchase 
food and supplies, and to secure their homes and businesses. When 
Hurricane Irma made landfall, we were ready, and we were fortunate that 
while it devastated certain areas in the northeast of the island, the 
damage caused in other parts was not severe, allowing for swift 
mobilization and recovery.
    As far as Hurricane Irma was concerned, we were lucky, unlike our 
neighbors in the Eastern Caribbean. We were grateful for having been 
partially spared and immediately began to help our neighbors. Thousands 
of Puerto Ricans answered the call for help and packed their boats with 
tons of much-needed supplies and resources. They headed Southeast to 
lend a helping hand to our neighbors in the United States and British 
Virgin Islands, St. Marteen, Antigua & Barbuda, among others.
    And then, suddenly; Maria showed up on the map. It moved rapidly 
through the Atlantic, and we prepared once more and prayed that luck 
would be on our side again. But this time, there was no escaping the 
wrath. Hurricane Maria enveloped our entire island, and for over 12 
hours, it ravaged us with fierce winds and torrential rains. In less 
than 1 day, millions of families were robbed of their most precious 
belongings; stripped of basic services, lost without their livelihood.
    The next day, as we opened the doors of our damaged homes to try 
and recover from the trauma, we found ourselves without no water, no 
power, no communications . . . and just, utter devastation. As I 
mentioned before, our emergency preparedness plan was implemented well 
in advance of the storm. But our plan did not take into account the 
magnitude and sheer force of this hurricane. It was put in place, but 
it was not enough. FEMA's plan was also ready, but it also proved 
inadequate. Let's be honest. None of us--either at the State or Federal 
levels--were prepared to tackle the devastation caused by Hurricane 
Maria. This is our second lesson: We must make the necessary 
adjustments to adapt our emergency preparedness and recovery efforts 
for more effective and efficient response in the upcoming hurricane 
season.
    In making adjustments to emergency preparedness plans at the 
Federal level, a series of important items must be taken into 
consideration:

    1. In order to better prepare for hurricane season, the Federal 
        Government must anticipate shipping delays to the island and 
        take the necessary steps, to ensure rapid response by sea and 
        air, including waiving or eliminating cabotage laws.--Puerto 
        Rico is an island. It may seem obvious, but we quickly learned 
        that because of our distance from the mainland, urgent 
        supplies, including water, power generators, and medical 
        supplies took weeks to get to the island, delaying FEMA's 
        relief efforts. Indeed, shipping delays have caused havoc in 
        the restoration of power as outside contractors and the Corps 
        of Engineers wait impatiently for materials and equipment to 
        arrive.
    2. Nowadays, telecommunications are a basic necessity.--Your 
        smartphone is no longer a luxury. It is a piece of emergency 
        equipment that needs to function in order for the most basic of 
        communications to flow. In Puerto Rico, we expected that we 
        would be without power for some time after the storm. But we 
        did not anticipate that telecommunications would be shot down 
        entirely.
    This is extremely important. I want you to picture being on a 
        mountain after a solid 12-hour pounding of 155 miles per hour 
        winds and over 20 inches of rain in a house that lost its roof 
        . . . has no electricity, no water, and a diabetic mother who 
        needs dialysis. You have no landline, no WIFI, and your telecom 
        company service is down. The road is blocked by debris, so you 
        are unable to move from your location. You don't know if the 
        nearest hospital is open, and you cannot call your neighbor for 
        help. You also won't be able to reach 9-1-1 to request 
        emergency services of any kind. I cannot stress enough how 
        terrible is the feeling of isolation in the midst of 
        devastation. Six months after the storm, this remains the case 
        for many people in Puerto Rico. It is unacceptable.
    The Federal Communications Commission's (FCC) announcement last 
        week to direct $954 million toward the restoration and 
        expansion of communications networks in Puerto Rico and the 
        U.S. Virgin Islands is welcome news. We must afford people in 
        emergency situations access to telecommunications during and 
        after the emergencies so that they can check in with friends 
        and family and seek help, if needed.
    3. Cut the red tape.--Whoever thought that bureaucracy could 
        effectively handle emergencies was sorely mistaken. It can't, 
        despite all good intentions. Sadly, we are still suffering the 
        consequences of inefficiencies brought on by excessive 
        paperwork, inter and intra-agency consultation and needless 
        requirements. Just this week, Governor Rossello, announced an 
        initiative aimed at identifying and eliminating areas of 
        overregulation and bureaucratic burdens. The Federal Government 
        is not immune to these shortcomings. It should follow suit and 
        eliminate red tape in order to ensure a more effective response 
        to emergencies.
    4. There is no space for political pandering in the middle of an 
        emergency.--I--as well as most of the American citizens in 
        Puerto Rico--wholeheartedly believe that our leaders at the 
        Executive branch and here in Congress have done their best to 
        provide for steadfast relief and recovery. You have done so 
        because you are genuinely concerned for the well-being of the 
        3.5 million American citizens in Puerto Rico. Can we improve 
        the way we do it? Certainly. Nobody is perfect. This committee 
        hearing is testament to that, and we are immensely grateful for 
        your consideration.
    But, to use the pain and suffering of millions of American citizens 
        to indulge in cheap politicking and gain political recognition 
        is simply immoral. It is a shameful exploitation of people who 
        are merely trying to recoup their normalcy in the midst of 
        chaos. As we approach rebuilding efforts, I urge all decision 
        makers and leaders to find common ground, set partisanship 
        aside, and rally together for the thousands of families in 
        Puerto Rico that deserve to rise and prosper.
    5. We must urgently invest in strengthening our power grid.--
        According to the Puerto Rico Power Authority (PREPA), as of 
        Monday we had 93% power generation and 91% power consumption, 
        meaning that over 1.3 million customers have had their power 
        restored. In numbers, it looks as if there has been progress. 
        It has been slow, but there has been progress.
    But, let's put this in perspective. Six months after Hurricane Irma 
        hit the island, over 130,000 people are still without power. 
        Imagine living close to 200 days without electricity. And, less 
        than 2 weeks ago, a failure in one of the main distribution 
        lines provoked a major outage and suddenly, about 800,000 
        customers had lost power again. Telecommunications were shot 
        and tensions grew high.
    So, yes, there has been progress. But. we still have a long, long 
        way to go. And, no one, absolutely no one, can be satisfied 
        with these numbers. Just last week, hundreds of thousands of 
        residents throughout the northeast mainland were left without 
        power after the winter cyclone bomb, and authorities could not 
        work fast enough to restore service.
    Our system is old and fragile. Recently, U.S. Army Corps of 
        Engineers Lieutenant General Todd Semonite asserted that the 
        shortage of supplies that has delayed power restoration is due 
        in part to the age of our grid; and pointed at the fact that 
        some of the parts that were needed were no longer available in 
        the market. In order to complete the work, they had to order 
        these parts be manufactured once again just for Puerto Rico.
    Sadly, the investment being made in producing these old parts and 
        equipment is only a ``Band-aid.'' Because the system is not 
        being modernized, it will remain just as vulnerable as it was a 
        day before Hurricane Irma made landfall last September. 
        Wouldn't it be better to invest taxpayers' dollars in updating 
        the system so that it holds better during the upcoming 
        hurricane season, which starts in just 76 days?
    The recently-approved relief package that was approved and signed 
into law included $16 billion for Puerto Rico. The funds are badly 
needed as Puerto Rico simply lacks the resources--human or financial--
to fortify the system and prepare for hurricane season.
    The simple truth is that we need more time. We need more time, more 
materials, more resources. It pains me to say, we need more sense of 
urgency.
    Our request for diligence is far from ungrateful. We are forever 
indebted to the thousands of Federal workers from FEMA, the U.S. Corps 
of Engineers, and other agencies who are working on-site. They are 
committed public servants who want to see our people recover, grow, and 
prosper.
    We cherish our Federal workers' hard work on our behalf. We 
understand that they too, have been humbled by nature. We believe that 
by coming over, they have confronted a challenge that they never 
imagined.
    We know that they have left their families behind to come here and 
look after us. We get that they miss their homes. They want to get back 
to normal. Just like we do.
    So it is with deep respect that I ask that you, as Members of 
Congress, inject that much-needed sense of urgency to our Federal 
agencies. We all need to be more efficient and steadfast in our 
recovery efforts. We need it not just so that the people of Puerto Rico 
get back to normal, but so that ALL of us do.
    I make this humble request on behalf of the millions of families 
who in the face of adversity, rose up the day after the storm to clean 
their houses, clear the debris from the streets, and help those most in 
need in their communities.
    I make this request on behalf of the thousands of doctors who have 
continued to tend to the sick in spite of the lack of power or internet 
in their offices or hospitals. Many of them lost their homes, their 
offices were severely damaged, but that has not stopped them from 
caring for their patients.
    I make this request on behalf of the thousands of entrepreneurs who 
have invested every single penny they have in the bank to save their 
businesses, and open their doors to the public. Some of them are chefs 
. . . others are barbers or mechanics. They rose in spite of adversity. 
They go to work every day hoping for normalcy, for economic recovery 
and salvation of their aspirations.
    I make this request on behalf of the thousands of people who lost 
their jobs in the aftermath, but have not quit, and continue to look 
for work in order to get ahead.
    I make this request on behalf of the thousands of kids who go to 
school every day, in spite of the lack of power or water. Their 
education continues to be more important than any obstacle.
    Because you see, behind the devastation of Maria, a bigger story is 
being written in Puerto Rico. It is a story of resilience. It is about 
people who want to get ahead, who want be self-sufficient, who want to 
get back to normal.
    With that, I thank you for your time, and hope that we can continue 
working together so we can build a stronger and better Puerto Rico.

    Chairman McCaul. Thank you, sir.
    The Chair recognizes Ms. De Marrais.

STATEMENT OF JEANNE-AIMEE DE MARRAIS, SENIOR DIRECTOR, SAVE THE 
                            CHILDREN

    Ms. De Marrais. Chairman McCaul, Ranking Member Thompson, 
and Members of the committee, I am Jeanne-Aimee De Marrais, the 
senior director of U.S. Emergencies for Save the Children.
    Since Katrina in 2005, I have led our response to every 
natural disaster and man-made disaster in the United States, 
and I had the honor of serving on FEMA's National Advisory 
Council and I currently serve on FEMA's IPAWS Subcommittee of 
the NAC.
    On behalf of Save the Children, thank you for this 
opportunity to really highlight the needs of children and the 
lessons learned across all three disasters.
    I would be remiss if I also though didn't thank Ranking 
Member Thompson, Congressman Donovan, Congressman Payne for 
your leadership in introducing and helping pass the Homeland 
Security Act for Children through the House. This legislation 
will go a long way to help children in emergencies and 
hopefully will help fill some of the gaps that I am going to 
highlight today.
    So Save the Children has been working for more than 100 
years to support children in crisis and emergencies in the 
United States and around the world. Through our on-the-ground 
work during the three hurricanes we have identified critical 
gaps. We keep seeing these gaps again and again in emergencies.
    We seek to partner with Congress to help really close these 
gaps to better protect and support children.
    The three hurricanes, as we have heard, had a massive 
impact on infrastructure, but it had a massive even greater 
impact on children's lives across all three disasters. Save the 
Children continues to work on the long-term recovery in each of 
the three areas, helping rebuild schools, helping rebuild child 
care programs, after-school programs, and helping deliver 
mental health and psychosocial recovery programs for children, 
which is the most profound gap that we have seen across all 
three emergencies.
    In Puerto Rico specifically, the estimates are that it is 
going to take more than 10 years for the overall recovery. We 
have heard that from many of the experts.
    We continue to hear that many schools have lacked 
electricity and lacked running water, lacked drinking water. 
Imagine trying to conduct school for hundreds of children each 
day without power in the classrooms, without access to learning 
laboratories, without access to regular support.
    So children in Puerto Rico have missed hundreds and 
hundreds of hours of learning. Many of the most vulnerable 
children will not ever catch up because of the months of school 
that they have had decreased opportunities for learning.
    So while there are many visible indications of damage to 
structures, outdoor spaces, recreational equipment, there is 
also this profound impact and what we call invisible scars and 
emotional and mental stress for children, for teachers, for 
their families.
    So what can we do about this? We would urge Congress to 
consider three areas to help close the gap. The first is in 
education recovery and what we call a return to learning. 
Congress must enact policies with a commitment that no child 
affected by a disaster misses more than a month of school post-
disaster.
    This is something that globally we are trying to work 
toward, but in the United States to have children miss multiple 
months of school related to disasters is not OK. It is not 
enough.
    The commitment to the return to learning should include a 
policy framework that quickly assesses the number of children 
out of school and the amount of recovery support and learning 
support that children need to get back to normal.
    The second area is Congress should consider amending 
Stafford to include child care as a critical service. Right 
now, schools, primary, secondary, and higher ed are included, 
but early learning and child care is still not included as a 
critical service. So that would go a long way to support 
children.
    Then the last area is that Congress must adequately fund 
mental health recovery programs for survivors of natural 
disasters. We are seeing this in every single incident in the 
United States that it is a critical gap that is putting the 
children at risk and families at risk.
    So thank you for this opportunity to provide testimony on 
our work. Children might be only 25 percent of our Nation, but 
they are 100 percent of our future, so thank you for your 
commitment to children.
    [The prepared statement of Ms. De Marrais follows:]
             Prepared Statement of Jeanne-Aimee De Marrais
                             March 15, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, I am Jeanne-Aimee De Marrais, the senior director of U.S. 
Emergencies at Save the Children. Since 2005, I have led the 
organization's response to every natural and man-made disaster in the 
United States since Hurricane Katrina. I also have served on the 
Federal Emergency Management Agency's (FEMA) National Advisory Council 
from since 2014. On behalf of Save the Children, thank you for the 
opportunity to discuss the lessons learned following the three major 
hurricanes that hit the United States in 2017.
    Save the Children is the National leader for child-focused disaster 
preparedness, response, and recovery. We have responded to emergencies 
and humanitarian crises around the world for nearly 100 years. Through 
our on-the-ground work in response to Hurricanes Harvey, Irma, and 
Maria, and other disasters, we have identified critical gaps in States' 
and communities' capacities to protect children in emergencies. Save 
the Children seeks to work with Congress to ensure the unique needs of 
children are addressed during the long road to recovery and to better 
equip States to respond to the next disaster.
    Hurricanes Maria, Irma, and Harvey created catastrophic damage and 
upended the lives of millions of children. Save the Children responded 
quickly to each of these major storms to provide relief to children and 
families in emergency shelters. Our response included child-friendly 
spaces, distribution of essential supplies for children and babies, and 
psychosocial support. Our on-going response is now focused on 
recovery--providing evidence-based programs that strengthen community 
outreach and assist with child care and school restoration recovery 
efforts. Save the Children is also providing psychosocial support (PSS) 
training and programs across program areas and building partnerships to 
support the PSS recovery phase. Our focus is to serve the most 
marginalized children and families in these communities.
    Experts estimate the Puerto Rico recovery process will take 10 
years, longer than the recovery process after Hurricane Katrina. Six 
months post-hurricane, at least 15 percent of the island remains 
without power, and frequent brown-outs impact as much as 50 percent of 
the island.
    Nearly one in three schools lacks electricity and many also lack 
consistent access to clean, potable water. This has forced many schools 
to operate on a limited daily schedule from 7:30 a.m. to 12:30 p.m. 
This has led to school-age children in Puerto Rico missing out on many 
hundreds of hours of learning. Not only are Puerto Rican students 
falling behind their peers academically, but they lack the daily 
routine school brings, which is critical for emotional recovery. While 
the visible damage to structures, outdoor spaces, and recreational 
equipment are a constant reminder of the physical devastation of the 
hurricane, children and families continue to have invisible scars from 
emotional and mental stress. Many children urgently need psychological 
and emotional support.
    Hurricanes Harvey, Irma, and Maria forced children into incredibly 
stressful situations--evacuations, unfamiliar emergency shelters, and 
the loss of homes, possessions, and routines. Families arrived at 
shelters with little or no supplies for hygiene or infant care. Child 
care and early childhood development programs and schools were closed 
or damaged, leaving children and families without these critical 
services. The storms may also impact children's long-term emotional, 
mental health, and psychosocial well-being. If not addressed, this can 
have a detrimental effect on their behavior and school performance and 
affect a family for generations.
    Following Hurricane Katrina, the Presidentially-appointed National 
Commission on Children and Disasters was formed, chaired by Save the 
Children. The Commission released its final report in 2010 documenting 
81 recommendations to improve outcomes for children across 11 emergency 
planning functions (including mass care, disaster case management, 
health, schools, child care, housing, evacuation and reunification, and 
recovery).\1\ \2\ From 2008-2015, Save the Children issued a National 
Report Card on Protecting Children in Disasters measuring the Nation's 
progress against the National Commission's recommendations.\3\ The 2015 
report found that 79 percent of these recommendations remained unfilled 
more than a decade after Hurricane Katrina. Specifically, large gaps 
remain in preparation for family reunification, protection in mass care 
settings, coordinating with child-serving institutions, and providing 
immediate and long-term psychosocial/mental health and pediatric 
support.
---------------------------------------------------------------------------
    \1\ National Commission on Children and Disasters. 2010 Report to 
the President and Congress. AHRQ Publication No. 10-M037. Rockville, 
MD: Agency for Healthcare Research and Quality. (2010).
    \2\ https://archive.ahrq.gov/prep/nccdreport/nccdreport.pdf.
    \3\ Save The Children. Still At Risk: U.S. Children 10 Years After 
Hurricane Katrina 2015 National Report Card on Protecting Children in 
Disasters. Fairfield, CT: Save The Children. (2015).
---------------------------------------------------------------------------
    Much work remains to be done to ensure children are protected when 
crisis strikes. We wanted to focus on four areas today that Congress 
could do to help children as they recover from these three devastating 
hurricanes.
                 education recovery--return to learning
    Each year disasters have a major impact on children, youth, and 
education systems. Big or small, these result in children missing 
school days, absenteeism by teachers who themselves may be affected by 
the disasters, disruption of education cycles, school closure because 
of damage and destruction to school infrastructure, or repeated or 
prolonged use of schools as emergency shelters. For disaster-prone 
areas, this can mean that every year children are losing many precious 
student-teacher contact hours, which severely impacts educational 
outcomes and a child's overall development.
    Additionally, when children have safe spaces to learn and play, and 
can access a full range of services and support, they are less 
vulnerable to the increased risks that go hand-in-hand with disasters. 
Schools can also provide children with the space they need to access 
psychological support and assist with regaining a sense of normality 
and healing from trauma.
    There are significant gaps in information from the education sector 
on both the short- and long-term impacts disasters have on education. A 
lack of official data collection and analysis of the number of children 
and schools affected by disasters inhibits coordination between 
response agencies, Government bodies, and community organizations, and 
impacts the effectiveness of the education response as a whole.
    Congressional Recommendation.--Ensure that no displaced child is 
out of an educational setting for more than 30 days. Congress must 
enact policies with a commitment that no child misses more than a month 
of school, post-disaster. A return to learning policy framework should 
include: Assessing the number children out of school, number of 
learning spaces needed, limiting the use of schools as temporary 
shelters, expediting the rehabilitation and refurbishment of damaged 
schools, establishing temporary learning spaces, and providing 
alternative education delivery programs (such as education in shelters 
or additional funding for afterschool programming). Congress should 
create a permanent funding mechanism to support recovery for schools 
and students to ensure that school systems recovering from disasters 
are provided immediate resources to reopen and restore the learning 
environment in a timely manner and provide support for displaced 
students and their host schools.
    We also urge Congress to call for an investigation and 
documentation of the short- and long-term impacts of disasters on 
schools. Such a study can identify policy, implementation, data, and 
knowledge gaps that will provide an evidence base to inform program and 
advocacy strategies, as well as seek to put more comprehensive numbers 
behind the stories of the impacts of disasters.
                          child care recovery
    Currently, private, for-profit child care programs, which comprise 
the majority of child care programs in the United States, are 
ineligible for FEMA recovery funding. Extensive research has shown that 
child care services are essential to the economic health and vitality 
of a community.\4\ During a disaster, workers with young children 
cannot resume their jobs unless there is safe, secure child care for 
their children. Due to limited funding opportunities for private child 
care programs, most facilities that are damaged or destroyed in a 
disaster receive little to no Federal recovery support.
---------------------------------------------------------------------------
    \4\ http://www.mildredwarner.org/econdev/child-care.
---------------------------------------------------------------------------
    Congressional Recommendation.--Congress should amend the Stafford 
Act to make child care a critical service. This would place it in the 
same category as schools, which would alleviate the requirement for 
child care facilities to apply to for Small Business Administration 
(SBA) loans. Child care providers rarely receive SBA loans because 
their profit margin is so low. This has acted as a deterrent for many 
of these providers to even apply. In addition, we urge Congress to 
authorize a grant funding mechanism, such as an emergency contingency 
fund, to repair or rebuild private, for-profit child care facilities, 
support the establishment of temporary child care, and reimburse States 
for subsidizing child care services to disaster-affected families.
                          mental health needs
    Natural and man-made disasters frequently have wide-spread, deep, 
and enduring impacts on children's mental health. Most children 
experience long-term reactions to a disaster. Therefore, it is 
important that adults who care for children at schools and child care 
facilities are trained to provide supportive services after a major 
disaster, rather than relying exclusively on the traditional clinical 
approach of triage and referral.
    Congressional Recommendation.--Congress and the Department of 
Education should award funds to States to implement and evaluate 
training and professional development programs train teachers on how to 
provide support to grieving students and students in crisis. States 
should also be encouraged to establish requirements related to teacher 
certification and recertification. In addition, Congress should 
adequately fund the National Child Traumatic Stress Initiative (NCTSI) 
and Project SERV State grants to provide trauma treatment, programming, 
and services in schools and communities for children, youth, and 
families who experience or witness traumatic events.
                  government funding & accountability
    The biggest obstacle to supporting children through disaster 
response is inadequate funding. Robust funding and strong 
accountability structures are required to meet the needs of children. 
While the United States invests billions of dollars to support 
emergency preparedness and response, very often children's needs are 
overlooked. In fact, of every $10 in Federal emergency preparedness 
grants, less than one cent has gone toward activities targeting 
children's safety.
    Congressional Recommendation.--Congress, through the appropriations 
process, has the responsibility to fund the Federal Government in such 
a way as to meet the needs of children. We need to dedicate more 
funding to emergency preparedness, response, and recovery to lessen the 
gaps that remain and further support children.
    We thank the committee for the opportunity to provide testimony on 
our work responding to these disasters and look forward to working with 
the Members of the committee to ensure that children and families 
receive the support they need to recover from disasters.

    Chairman McCaul. Thank you for your commitment to children 
as well. I think it was very moving. I went through a lot of 
shelters, you know, after Harvey hit and it was very sad to see 
all these children in the shelters.
    I will take a look at amending the Stafford Act. I think it 
is a very good idea. It is a very good idea.
    I now recognize myself for 5 minutes of questioning.
    Mr. Clay, I would like to kind-of focus on sort-of my 
backyard and yours. That is my State that--your State that 
got--Sheila's State that got hit, and this is kind-of the--I 
thought we had an easel. I am sorry you have got to hold that 
up.
    [Laughter.]
    Chairman McCaul. But so this is a map that I have shown to 
the Governor, and I have shown to actually the President of the 
United States when he came down talking about how the flood 
actually happened.
    Cypress Creek was supposed to be a levee system but they 
never did that and water shedded down to Barker Addicks, and 
then controlled spillage into the neighborhoods downstream at 
1:30 in the morning, which wasn't all that great, and then 
Buffalo Bayou downtown Houston.
    So it seems to me, you know, since this has flooded three 
times in the last 2 years, doing some of these flood mitigation 
projects is going to be absolutely essential, which is why we 
passed the supplemental, $90 billion supplemental bill to deal 
with some of these flood mitigation projects.
    You know, I think, again, an ounce of prevention is a pound 
of cure, and I know the Governor sees this the same way. When 
we have discussed this project he agree with me that it would 
be the No. 1 priority in the State in terms of flood 
mitigation.
    Where is the Governor on this? I think you mentioned 
something about your first three projects have now been 
approved. Can you tell me what those are? Then what, in your 
view, will happen with I think both the refortification of 
Barker Addicks and also the third reservoir?
    Mr. Clay. Sure. Well, let me first say the Governor 
completely agrees with you that in order to really rebuild 
after Harvey, you know, a large portion of what we are going to 
have to do are these major scale projects that, as you 
mentioned, three floods in the last 2 years, major floods in 
the last 2 years.
    In Houston they have actually had 26 since the year 2000 in 
Houston and 9 Federally-declared disasters in Houston. So 
projects of this scale are going to have to happen.
    As for the announcements later today, they are from the 
Hazard Mitigation Fund, which is the money, it is about $1.1 
billion, that we get under the Stafford Act as sort of a, you 
know, add-on. They will be helping fund a study, a regional 
study in the Houston area for a watershed assessment to look at 
what we can do, particularly in sort of the Montgomery County, 
northeast Houston area.
    It will be for home buyouts throughout the Harris County 
flood control district. It will be to start the process, 
engineering and study for dredging of the San Jacinto River.
    As for the third reservoir, obviously it is a huge priority 
for the Governor, and it is our understanding that we are, you 
know, going to be able to get this off the ground by doing a 
study first and then hopefully follow it up because of your 
work and the appropriation follow-up with getting it built.
    Chairman McCaul. Right, and, you know, we, I think, did our 
work in the Congress. We got $90 billion appropriated and Army 
Corps of Engineers.
    You know, let me just close because I know it is getting 
late in the day, but I would look forward to continuing to work 
with the Governor and your office, sir, on making this a 
priority. I think getting the Army Corps moving faster than 
they normally do, we put language in the supplemental that 
requires them to expedite some of these projects.
    We already had studies done on Barker Addicks, but a study 
has never been done on Cypress. So that makes it even more 
critical to try to move forward as expeditiously as possible, 
so we can get it done. Because a study takes a while, the 
construction takes time and I don't think this west Harris 
County, you know, area can wait 10 years for this.
    Mr. Clay. Yes, sir, and let me say we completely agree with 
getting the Army Corps to move faster than it normally does as 
the Governor was here about 3 weeks ago and sat down with 
General Semonite and his team over there.
    So we are going to continue to work with them to make sure 
that this project and all the other ones that are needed get 
done as quickly as possible.
    Chairman McCaul. OK.
    Mr. Clay. I mean, we are committed to working with you and 
the Army Corps to make sure that happens.
    Chairman McCaul. Likewise. Likewise.
    The Chair recognizes Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for, again, their leadership and acknowledge the fact 
that in particular Mr. Clay, the Texas delegation worked 
extensively hard. As a senior member the Homeland Security 
Committee, it was the experience that I have gained from a 
series of hurricanes, those in our jurisdiction, but as well 
throughout the Nation, that I hope help bring to bear the 
urgency.
    I introduced the first relief bill, which was for $174 
billion. I was not far off. In fact, the Governor supported the 
introduction. It had 43 co-sponsors. I am glad as to where we 
are, but we are not finished, and frankly, I think the $174 
billion is a closer mark than where we are.
    I hope we will continue advocating for continued relief as 
we do so for others who are similarly situated from Puerto Rico 
to the Virgin Islands to Florida and others.
    Disaster has to be a Federal responsibility working with 
our local leaders from the State to the cities and counties. I 
hope you agree with that?
    Mr. Clay. Absolutely, yes, ma'am.
    Ms. Jackson Lee. In the course of that, and I have read 
your statement and noted, as the Chairman made mention of the 
changing map, the fact that you have a map that so much rain 
fell that we had to update the color charts.
    I remember looking at those, charts in the command center 
where the mayor was and then George R. Brown. That is the one 
that you had.
    In fact, we couldn't discern the boundaries of Harris 
County or Houston or anywhere else. There were some places 
where we were just simply an ocean. I think people had to be 
there to understand the catastrophic nature of it.
    So I raise this point as we are beginning to work, I guess 
it would be on the second half, which is long-term recovery. 
What I would like to have is the input of the Governor on 
hopefully working with the Chairman and Ranking Member.
    We all have ideas, but beginning to, mine is being written 
as we speak, over the years of experience, and that is FEMA in 
the immediate rescue, and I just want to put it in that term, 
rushing in, dealing with the immediate rescue, folk on the 
ground coming in, shelters, and then long-term recovery, which 
is what I am seeing in northeast Houston, Kashmere Gardens, and 
a number of other pockets of my community. People are still 
suffering.
    What is your thought about that? That would be really on 
the second phase of where the Governor is now. People are in 
hotels. They need housing. People housing are still in bad 
condition. What do you think about structuring along with some 
amendments on the Stafford Act?
    I realize that, but that there is a bifurcation so we know 
when we are in the Federal long-term recovery period?
    Mr. Clay. Well, we couldn't agree more that it is not going 
fast enough, and that is true in Houston and throughout the 
whole region. I think, you know, one of the things and, you 
know, I would have to see the details a little bit closer, what 
Administrator Long said earlier about grants directly to the 
State.
    I think that it has the potential to make things go more 
quickly with one caveat which is it would have to free the 
State up from all the compliance issues that are 2 CFR and some 
of the other Stafford Act requirements.
    That sounds scary, but we have got to and you know that 
this, Congresswoman, but we have ample laws and procurement and 
risk law to protect against fraud, waste, and abuse in State 
statute that we would still comply with.
    But right now, as it stands, as we go through this long-
term recovery process we are not only trying to comply with the 
local and State laws and regulations, but also the massive 2 
CFR that governs FEMA's response.
    Ms. Jackson Lee. Well, let me as the announcements, as I 
heard and I am sorry that my colleagues are in Washington as 
the Governor's making announcement, but we congratulate him. We 
worked very hard on the watershed study. I have had that 
submitted over the years and very grateful that we got it in 
again. That is what they are operating under.
    Of course, the buyout, I think there should be major 
announcement so that both inner city and rural areas and urban 
areas are aware of that potential through the local government.
    Let me quickly thank Save the Children. I worked closely 
with you and your work and the children are vital. You worked 
with me. You were at a big event that I had in Houston during 
the Christmas holidays when children were still suffering.
    To the gentleman from Florida, let me quickly ask would a 
reordering--and I will just ask these two questions--would a 
reordering of FEMA so there is a part that is long-term 
recovery that they can deal with and move kind-of quickly on 
the long-term recovery be helpful to you?
    To the legislator from Puerto Rico, I am stunned about 
politicians and partisanship because I know that Congressional 
persons, Republicans and Democrats came to Puerto Rico with the 
greatest sincerity. I am planning on being there in the next 
couple of months and didn't see any partisanship; just a cry 
for help.
    So if you can answer that but to the gentleman from 
Florida, would that be helpful to you? Would it be helpful that 
when your constituents apply for FEMA and they get that 33-5, 
there is so much red tape that people are struggling and can't 
get it. Give them the 33-5 and let them provide documentation 
because you are denying them on little problem of 
documentation.
    But would the long-term recovery be helpful to you if there 
was a process so that it could be a focus after we have done 
all the initial rescuing?
    Mr. Maul. Yes, ma'am, of course. I think we saw something 
encouraging come out of the Federal Government in the last 
couple years, and that is the National Disaster Recovery 
Framework. All of the same collaboration that we bring to the 
table in an actual response is now expected on the back side 
during a recovery operation.
    In our joint field office down in Orlando, Florida, we were 
thrilled to have a whole host of Federal partners there at the 
table with us Day 1 after the storm looking to put together a 
long-term recovery strategy, looking across the Federal 
Government at grant programs, how we could leverage those 
programs in our communities to provide a more holistic approach 
to our recovery.
    It was the first time we ever implemented it in Florida. I 
think one of the first times in the country that it has been 
done, and we would continue to want to develop that process in 
our own State partnership with that process.
    Ms. Jackson Lee. So the Federal Government helping you by 
continuing a long-term approach would be helpful to you?
    Mr. Maul. Yes, sir. I mean, yes, ma'am.
    Ms. Jackson Lee. Then last, to the gentleman, we care about 
Puerto Rico as we do the Virgin Islands. I can't name one 
politician that might have come in and been grandstanding. We 
care. We cried. We want to keep fighting with you. Well, who 
was being--I don't understand your point.
    Mr. Melendez-Ortiz. Well, my point is very simply, you 
know, this hearing is about lessons learned.
    Ms. Jackson Lee. Right.
    Mr. Melendez-Ortiz. We have, you know, during all this 
issue of recovery effort of Irma and Maria, you know, we have 
to struggle on the local level and within the Federal 
Government, you know, with the issue of politics.
    You know, I know local politics, the Puerto Rico politics, 
are not entirely understood on a Federal level, and they should 
not be part of this discussion. But it is important that, you 
know, we, the Puerto Ricans, we, you know, we move as a whole, 
as as a people, you know? Everyone was touched by this storm.
    The fact that, the fact that some of them at the local 
level and at the Federal level actually tried to gain, you 
know, political recognition using, you know, the pain and 
suffering of all people, you know, it is shameful.
    But I don't want to leave--you know, I am not here to be 
naming names. I am just trying to state that that was one of 
the lessons that we learned down in Puerto Rico.
    Ms. Jackson Lee. Well, I will just conclude by saying 
everyone on this panel I know are here supporting you and 
wanting to----
    Mr. Melendez-Ortiz. I thank you for that.
    Ms. Jackson Lee [continuing]. Work very hard to----
    Mr. Melendez-Ortiz. I thank you.
    Ms. Jackson Lee [continuing]. Develop and to find solutions 
to Puerto Rico. I just want to honestly say all of the Federal 
Members of Congress that I have encountered I have never heard 
a cry of politics. I have heard a cry for help, and I want to 
encourage them because their cry for help is generating help 
for all of you.
    Mr. Chairman, I yield back. Thank you.
    Chairman McCaul. The gentlelady yields back.
    Mr. Donovan is recognized.
    Mr. Donovan. Thank you, Mr. Chair.
    Noticing how long we have been here and the time I would 
just like to ask the four of you if you could submit to our 
committee recommendations that you have. Each of you 
experienced a different devastation, a different disaster, a 
different population of people you were trying to help.
    So it would be real helpful to us if you could tell us what 
worked, what didn't work in a small--we don't need an elaborate 
report. But if you could just submit to us--if we have it in 
writing and your suggestions for us, that would be very helpful 
for us to act and to help you prepare for and respond to the 
next disaster that you face.
    With that, Mr. Chairman, I yield back the remainder of my 
time. I thank all of you.
    Ms. De Marrais. Thank you.
    Chairman McCaul. We thank you for yielding back the 
remainder of your time.
    [Laughter.]
    Chairman McCaul. Ms. Demings is recognized.
    Mrs. Demings. Great, thank you so much, Mr. Chairman, and 
thank you to our witnesses for being here today. Yes, we have 
been here for a little while, but thank you so much for taking 
our questions.
    My question is for you, Mr. Maul. You know how important 
Federal and State partnerships are to our response and trying 
to make sure that it is adequate and appropriate a response.
    As you know, Hurricane Irma had a tremendous impact on 
Florida, even on central Florida where I represent thousands, 
including medically vulnerable individuals who were without 
power for several days.
    Homes in the Orlo Vista area, in the Orlando area, were 
flooded and though many lost their possessions, they did 
survive. We are certainly thankful for that.
    While you were not the director at the time of Hurricane 
Irma, it is my understanding that you did serve as the chief of 
staff, the position that did not exist prior to your service, I 
believe. As a chief of staff I am sure you are aware of the 
needlessly tragic events that resulted in more than a dozen 
deaths at the rehabilitation center in Hollywood Hills.
    As a Floridian who has weathered my share of hurricanes, I 
understand that the power goes out. Mine did as well. It can 
take some time to be restored, and we do have to be reasonable 
and understanding in that area.
    But I also know that vulnerable populations like seniors 
and seriously ill or mobility-restricted individuals require 
accommodations that you or I would want certainly if we were in 
their place.
    Yet it took, I believe, 3 days to evacuate 140 patients in 
Florida's September heat with no air conditioning, to move them 
right across the street to a hospital there.
    So my question for you, Mr. Maul, is: Now that you are the 
emergency management director, what steps have you taken or are 
you taking to ensure that proper communications channels are in 
place to prevent tragedies like the one in Hollywood Hills?
    Mr. Maul. Yes, ma'am, thank you. Obviously taking care of 
our vulnerable populations that are medically dependent is not 
only a priority of ours, but it is a priority of everybody in 
our State.
    First and foremost, as it relates to power restoration, 
that has been a huge focus. We know in Florida that if you get 
the power back on most of your other problems goes away. The 
Government can get out of the recovery business and local 
communities can more quickly recover.
    So we have been making huge strides in that. Like I said 
before, we understood the largest power restoration in American 
history. We got to about 100 percent restoration in less than a 
week.
    We have created strategic partnerships with Health and 
Human Services up here in the District of Columbia. They have 
been able to provide us critical information of data they have 
on individuals who are dependent on medical equipment for--I 
mean, electrical equipment for their medical needs.
    We are able to do proactive callouts to check in on those 
folks. We provide that information to our communities so that 
they can do proactive callouts in the immediate aftermath to 
see if they need to be evacuated.
    Mrs. Demings. I am sorry, could you go over the equipment 
that you provided? What is the equipment that you provided?
    Mr. Maul. Not providing equipment.
    Mrs. Demings. OK. What----
    Mr. Maul. It is a list of people that HHS has been able to 
provide us----
    Mrs. Demings. OK.
    Mr. Maul [continuing]. Of people who are dependent on the 
electrical equipment for medical needs.
    Mrs. Demings. OK.
    Mr. Maul. We are able to find out in the immediate 
aftermath who those individuals are and do a proactive reach-
out to see do you have power? Do we need to transport you 
somewhere so you have power for your medical supplies?
    Obviously the investigation that is on-going down in south 
Florida, I know that there is a criminal investigation going 
on, and I do believe that the local medical examiner has ruled 
those a homicide. However, the Governor has taken some very 
aggressive steps to make sure that situations like this don't 
ever happen again.
    Mrs. Demings. Could you go over some for examples of those 
steps, not just dealing with the investigation. I understand--
--
    Mr. Maul. Yes.
    Mrs. Demings [continuing]. An on-going investigation, but 
it could happen this hurricane season. So what steps have been 
taken to ensure that it doesn't?
    Mr. Maul. We have required that all medical facilities have 
the ability to sustain power in the immediate aftermath, 
whether it be through generators, direct tap-ins to natural gas 
so for an extended period of time in the aftermath of a storm 
they are able to support that capability.
    We are also working on our sheltering plans to make sure 
that we have adequate special needs shelter space. A lot of 
what we saw in the aftermath of Irma, or leading up to Irma, 
was that we had an inadequacy in planning at the local level as 
it related to the special needs planning.
    So there were facilities that were literally putting people 
on transports and just dropping them off at special needs 
shelters and that was their disaster plan. So we are looking at 
reorganizing those to make sure that we have partnerships 
between facilities for the transport of those individuals.
    Then lately, we are really working with our local 
communities to make sure they have a handle on what facilities 
are in their jurisdictions and how we can best support them.
    Mrs. Demings. OK. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman McCaul. The gentlelady yields.
    Before I turn the gavel over to Sheriff Rutherford, I just 
want to thank all three of you for being here today and your 
service. Yes, I thought I said all of you.
    [Laughter.]
    Chairman McCaul. Thanks to all of you for your service and 
both in hurricane relief and also saving the children. That is 
God's work on earth and just so at last we can conclude, I 
think a common thread that I heard between the three of you is 
a lot of red tape, needs to be better streamlined, maybe more 
control given back to the States.
    I think that is what the Administrator Brock Long was 
talking about and how to maybe block grants administered to the 
States to get more flexibility, let things move faster. Don't 
let it get bottlenecked up.
    So as we move forward on this committee, your input will be 
very important if we look at legislation to help make the 
response and recovery more efficient and effective.
    So with that, I yield.
    I turn it over to Sheriff Rutherford.
    Mr. Rutherford [presiding]. Yes. Well, that was perfect 
timing because now I get to recognize myself for 5 minutes.
    [Laughter.]
    Mr. Rutherford. Mr. Melendez, if I could ask you, I know on 
page No. 3 of your written comments it talks about the need to 
make necessary adjustments to adapt our emergency preparedness 
and recovery efforts to more effective and efficient response.
    No. 1 on that list of what to do is actually to ensure 
rapid response by sea and air, including waiving or eliminating 
the cabotage laws, the Jones Act for ocean vessels.
    So I wanted to point out I believe somewhere between 75 
percent and 80 percent of Puerto Rico's goods come through 
foreign vessels and about 25 percent of Jones Act vessels. That 
the President did, in fact, waive the Jones Act.
    Mr. Melendez-Ortiz. Did he?
    Mr. Rutherford. There was some controversy and this might 
have been what you were referring to. There was some 
controversy about the President being slow in waiving the Jones 
Act and the impact that that was having on recovery.
    I would like to point out that my calculations show that 
the President waived the Jones Act exactly 1 day later than he 
did for Harvey in Texas. Fact of the matter is after waiving 
the Jones Act exactly one foreign vessel sailed from an 
American port into Puerto Rico.
    So for folks who point to the Jones Act and cabotage laws 
as a somehow slowing down the response, I think, No. 1, is it 
is incorrect as I believe you do as well.
    No. 2, it is very misleading in the fact that I take great 
pride in the fact that the American maritime industry, 
particularly our Jones Act vessels under TOTE and Crowley in 
Jacksonville are really--I looked at them as the first 
responders, the first maritime responders for Puerto Rico 
because they have that, you know, they call it the milk run.
    They do it so often they have that built-in efficiency and 
effectiveness. So they had actually pre-positioned goods at our 
port so that they could get them to San Juan more quickly and 
in fact, that was accomplished in a very, very quick fashion.
    So I----
    Mr. Melendez-Ortiz. Well, the only reason that it is on my 
statement, you know, the reference to the cabotage and the 
Jones Act is because of the controversy that, you know, public 
inquiry whether it was the right timing when the President 
actually gave the waiver. So that is why it is on the 
statement.
    Mr. Rutherford. OK, but I just want to make sure that you 
are not laying out a case that somehow the Jones Act slowed 
down the response----
    Mr. Melendez-Ortiz. No, no, no, not at all. Not at all.
    Mr. Rutherford. I just wanted to make that clear.
    Mr. Maul we had discussed earlier and I don't know if other 
States have this issue, but I know in Florida a lot of 
municipalities and other Governmental agencies we had these 
pre-arranged contracts with providers, contractors to take the 
debris our of our neighborhoods.
    I just want to ask what do you think we can do to make them 
honor those contracts when they leave those contracts that they 
made pre-storm at a much lower price, by the way, so they can 
get the contract and once the storm hits they go to other 
localities where they can make more money.
    I would call on our Attorney General Pam Bondi to look at 
that because to me that sounds like gouging maybe. I know she 
is on top of that. So what do you think about that?
    Mr. Maul. So you asked whether other States have 
experienced the same thing, and sir, the answer is yes. If you 
look at all of the recent Congressional after-action reports 
that have come out of major storms over the past couple 
decades, all of them highlight debris contracting as a 
significant issue coming out of major storms.
    We saw significant differences in the negotiated pre-
disaster cubic yardage price some as low as, what, $5 whereas, 
you know, after disaster hits negotiated prices go up--or 
renegotiated prices were, you know, going up to $20 a cubic 
yard.
    We also saw a significant pressure being put on individuals 
to try and suggest that the Army Corps should take over the 
entire debris mission, some of which, you know, would have cost 
taxpayers 10 times as much----
    Mr. Rutherford. Exactly.
    Mr. Maul [continuing]. With no significant expediency, you 
know, increased time line because of the fact that many of the 
same contractors were both in the pre-disaster contract----
    Mr. Rutherford. Right.
    Mr. Maul [continuing]. Business and working for the Army 
Corps. You know, I am very proud of the steps that our Governor 
took to draw a line in the sand and to make sure that we 
weren't creating a bidding war in our State and that we weren't 
going to stand for those types of practices happening to our 
citizens.
    Moving forward, you know, I think we need to take a look at 
this as a profession. I think that until kind-of States and 
communities stand together with our Federal partners and say we 
are not just going to stand for this anymore, it is going to 
continue to happen.
    I think that we need to work on more education and we are 
in Florida with our local partners about the risks of some of 
this and certain provisions and best practices for their 
contracts.
    I think we need to kind-of crack open the books on the 
contracts we currently have and make sure the expectations that 
have been set are actually going to be honored.
    We need to be putting together, we are actually putting 
together in some of our rural counties, teams of locals and 
contractors who are willing to do the work for that county 
themselves with internal capacity, which will help not only 
with a faster response to the debris clean-up but also reinvest 
that money in local communities.
    Then last, I know the attorney general is taking a look at 
it, but we ourselves are also working with communities to take 
a look at last year's actions and see whether or not we were 
dealing with any bad actors.
    Mr. Rutherford. Very good. Thank you for that.
    I have several other questions, but we don't have time for 
that.
    I do want to congratulate you, though. I think Florida had 
a very good response. Some areas, obviously, that we needed to 
look at and these storms clearly highlighted that need. So but 
thank you for working with us.
    Mr. Maul. Thank you, sir.
    Mr. Rutherford. I want to thank all the witnesses. My time 
is up.
    As I mentioned, I want to thank all the witnesses for their 
testimony and the Members for their questions. The Members of 
the committee may have some additional questions for the 
witnesses and we will ask you to respond to these in writing if 
you don't mind?
    Pursuant to committee rule VII(D), the hearing----
    Ms. Jackson Lee. Mr. Chairman? Mr. Chairman, before you--
here I am.
    Mr. Rutherford. Oh, I am sorry.
    Ms. Jackson Lee. As a sitting Ranking Member I want to make 
sure that I have an opportunity to close for a moment before 
you gavel us out?
    Mr. Rutherford. Shoot. Go ahead.
    Ms. Jackson Lee. Thank you. First of all, let me thank our 
Chairman and Ranking Member for this, I think, very thoughtful 
and important hearing.
    We know, Representative, that Puerto Rico had warehouses 
where people were not there to process and so we know that 
learning from all of you we can be better prepared, and we can 
work together.
    To Save the Children, let me thank you again for coming 
under the new legislation, but more importantly, standing up 
for children and certainly we saw you in the State of Texas. I 
know that you were in many other places.
    As it relates to Florida and Congressman Rutherford's 
question, we thought the debris removers were leaving Texas to 
go to Florida, so we have to get our handle around how we in 
simultaneous hurricanes that we are able to address this 
question because we were struggling. We were fearful that 
everyone would move in that direction, but you needed help. We 
all need help.
    Let me thank Mr. Clay, and please convey to the Governor 
and State officials the appreciation for their eagerness and 
collaboration and constant contact.
    I know that my county judge, a mayor in Houston and I know 
the mayors and county judges throughout the State, were most 
appreciative. We were huddled together in many meetings. We 
were on tarmacs. We were in meetings in places that were 
uncomfortable, but we know that our people are still 
uncomfortable. So I just want to leave you with this to the 
Governor.
    We are grateful that we were able to send $89 billion or 
$90 billion that we have a large share of. We need to work with 
the Governor to help to expedite a number of projects. Greens 
Bayou was already being worked on, but I would like it 
expedited and then we are working on certainly some other 
projects from Halls to others. So if you can help us with that.
    Then if you would help us on the issue of working with FEMA 
for them to address the denials. Denials have been done on 
typos and we have too many people in need.
    My last point is I think we should convene a meeting 
shortly for the 2018 hurricane season. We may be lucky, all of 
us may be lucky, but I think the idea of Members of Congress 
sitting in that meeting and representative local officials in 
that meeting would be very, very helpful because, as you well 
know, we are still proceeding with appropriations. What do we 
need to do? How do we need to prepare our communities?
    We can't really predict the future. We can look at the 
models, but it is evidence, I guess, the map is evidence that 
we saw something in 2017 that we had never seen before.
    So thank you to all of the witnesses in the first panel, 
second panel. I think this is wake-up call for us to get 
prepared as we go into 2018.
    I thank you to the Chairman, and I yield back.
    Thank you all very much. Please convey my appreciation to 
all of the local leaders.
    Mr. Rutherford. Thank you. I apologize for the oversight. 
I----
    Ms. Jackson Lee. Not at all, Congressman.
    Mr. Rutherford. If you would, Mr. Maul, also let Governor 
Rick Scott know that I am very appreciative of the great job 
that he did at the State level. I am very proud of Florida's 
response, both State, local, and Federal. Our National Guard 
did a fantastic job, our Coast Guard, so thank them as well.
    Mr. Maul. I will.
    Ms. Jackson Lee. We are really thanking everybody so let me 
ditto the Coast Guard, the National Guard----
    Mr. Rutherford. Yes.
    Ms. Jackson Lee. [continuing]. And let me call out the 
county judge in Harris County and our Mayor Turner, who did a 
fantastic job. We all have to go home.
    Mr. Rutherford. That is right. That is right.
    Ms. Jackson Lee. But they did a fantastic job. Thank you so 
very much--and the Coast Guard. They are our wings of angels.
    Mr. Rutherford. Absolutely.
    Ms. Jackson Lee. Thank you.
    Mr. Rutherford. They are fantastic. So pursuant to 
committee rule VII(D), the hearing record will be open for 10 
days.
    With that, without objection, the committee stands 
adjourned.
    [Whereupon, at 2:03 p.m., the subcommittee was adjourned.]



                           A P P E N D I X  I

                              ----------                              

       Map Submitted For the Record By Chairman Michael T. McCaul
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          A P P E N D I X  I I

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for Donald E. ``Ed'' 
                              Jackson, Jr.
    Question 1a. What is the status of the Corps' power line 
restoration efforts in Puerto Rico?
    Answer. As of March 15, 2018, approximately 93 percent of the 
customers on the island that were able to receive power before the 
storm now have electrical power. The Corps power restoration 
contractors are working in parallel with the Puerto Rico Electric Power 
Authority (PREPA) and its contractors. As of March 15, 2018, the Corps 
contractors have been assigned responsibility for installing 231 
distribution lines, 114 Sub-transmission (38 kV) lines, and 26 
transmission lines, or in total, 371 power lines. Corps contractors, in 
coordination with PREPA, installed nine small power plants, or micro 
grids, to provide temporary power to communities while grid power is 
being restored. Currently, three micro grids are operational at 
Arecibo, Culebra, and Vieques.
    Question 1b. How well-equipped was the Corps to provide contract 
support and oversight of the process?
    Answer. The Corps has solicited and awarded three construction 
contracts for the power restoration mission in Puerto Rico following 
Hurricane Maria. To expedite the process, the Corps obtained Army 
Senior Procurement Executive approval of Justification and Approvals 
for Other than Full and Open Competition, in place of the normal 
competitive procedures. The Corps assigned an engineer to monitor and 
oversee performance of the contract awarded to PowerSecure, Inc. and 
the two contracts awarded to Fluor Enterprises, Inc. In addition, the 
Corps set up offices in Aguadilla and San Juan staffed with an engineer 
responsible for contract oversight as well as other contracting and 
quality assurance staff to monitor performance of contractor crews. The 
Corps performs this work as directed by FEMA under Emergency Support 
Function No. 3, Public Works and Engineering.
    Question 1c. What is the status of the two major power restoration 
contractors, PowerSecure and Fluor?
    Answer. Fluor has demobilized all work execution assets from the 
Island, and the period of performance ends on April 18, 2018. 
PowerSecure's period of performance on its existing contract expires on 
April 7, 2018, and a Justification & Approval has been executed and 
approved to extend the performance through May 18, 2018.
    Question 1d. Will the impending drawdown of contractors slow the 
pace of the restoration effort?
    Answer. No. The remaining crews available on the island are capable 
of completing the power restoration efforts in accordance with the 
current plan. On March 15, 2018, there were 846 Corps contractors 
working on transmission, sub-transmission, and distribution lines. The 
impending drawdown did not affect the pace of the restoration effort, 
as that was taken into account during the planning phase of the 
restoration effort and progress was monitored daily. Additionally, on 
March 29, 2018, FEMA provided the Corps additional authorization to 
modify the PowerSecure Inc. contract to continue work through May 18, 
2018. This extension will allow PowerSecure to maintain personnel, 
equipment, and materials on the island, in order to continue the repair 
of hurricane-damaged electrical lines particularly in the hardest-hit 
and most remote areas in accordance with the Unified Command Group's 
plan.
    Question 1e. When can we expect those still without power, 6 months 
after the storm, to have it restored?
    Answer. The Corps is working with FEMA, PREPA, and Puerto Rico's 
Restoration Coordinator to restore power to the island. This joint 
effort is guided by PREPA's Restoration Master Plan priorities. As of 
March 15, 2018, approximately 93 percent of the customers on the island 
that were able to receive power before the storm now have electrical 
power. We also know that approximately 107,000 customers remain without 
power, particularly in the hardest-hit and most remote areas, and we 
are committed and are working to restore their power.
    Question 2a. Restoration of power in Puerto Rico has been a 
challenge since Hurricane Maria hit in September. What role did USACE 
have in the procurement of electric grid component material for power 
restoration in Puerto Rico?
    Answer. FEMA tasked the Corps to procure all Bills of Materials 
(BOM: wires, connectors, poles, transformers, etc.) to support 
temporary repairs to system segments and to provide these materials to 
Corps contractors, PREPA internal crews, PREPA contractors, the New 
York State Contingent, and the Mutual Assistance utilities. The Corps 
executed contracts through the Defense Logistics Agency to procure the 
required materials, based on technical assessments executed by PREPA 
and supporting contractors and utility companies. At this point, 
material delivery is keeping up with the assessed needs.
    Question 2b. Did USACE develop new procurement and contracting 
arrangements or was the agency able to leverage existing arrangements?
    Answer. While the Corps did not have any advance contracts in place 
specifically for power grid restorations, it was able to utilize two 
existing contractual arrangements and also issued one new contract for 
this mission assignment.
    First, under two existing contracting arrangements, which were in 
place before Hurricane Maria, the Corps issued a Rapid Disaster 
Infrastructure Multiple Award Task Order Contract (RDI MATOC) for 
emergency power generation; and a Resilient Power and Mechanical 
Systems Basic Ordering Agreement (RPMS BOA) for actual repair and 
restoration of the power grid lines and associated structures:
  <bullet> Under the RDI MATOC, the Corps awarded two task orders to 
        provide immediate power on a temporary basis. The first was 
        awarded to Weston Solutions on October 8, 2017, to install and 
        operate 50 MW of emergency power generation at the Palo Seco 
        Power Plant near San Juan, PR. The second was awarded on 
        November 7, 2017, to Aptim for emergency power generation at 
        the Yabucoa Power Plant near Yabucoa.
  <bullet> Under the RPMS BOA, the Corps awarded two task orders to 
        repair the power lines and associated structures of the power 
        grid. The first was a noncompetitive task order valued at $240 
        million, issued to Fluor Enterprises, Inc. on October 12, 2017. 
        Due to the magnitude of the damage to the power grid, the value 
        of this task order was increased by $265 million to $505 
        million. The second was competed amongst the BOA holders and 
        resulted in an award of a second task order to Fluor 
        Enterprises, Inc. in the amount of $495 million.
    Second, to further supplement power grid restoration efforts, the 
Corps awarded a new sole source contract to PowerSecure, Inc. 
(PowerSecure) in the amount of $40 million dollars on October 18, 2017. 
The Corps subsequently increased the value and duration of the 
PowerSecure grid restoration contract by modification to a value of 
$370 million and a required end date of April 7, 2018. This 
modification was effective on February 14, 2018.
    Question 3a. How was procured material distributed or otherwise 
shared across USACE contractors, the Puerto Rico Electric Power 
Authority (PREPA), and PREPA contractors?
    Answer. The manner of procured material distribution changed 
depending on the phase of response. The Corps used the Department of 
Defense material invoicing and distribution process to account for 
material distributed to Corps contractors, PREPA line crews and 
contractors, and investor-owned utility companies supporting the repair 
effort. The majority of procured material was sent by the Defense 
Logistics Agency or vendor to one of three ports in the continental 
United States for travel on ship or barge. Ports were located in Texas, 
South Carolina, and Florida. From these ports the material was sent to 
laydown yards or warehouses operated by the Corps in Puerto Rico. The 
material was distributed to contractors or PREPA from these locations. 
Prioritization for distribution of material was determined using 
guidance from the Unified Command Group. This prioritization assisted 
in determining how the Corps distributed material amongst PREPA and 
contractors.
    Prior to requisition, contractors and PREPA performed assessments 
of damaged lines to determine the material needs. Once the contractor's 
requisition was reviewed and approved, the materials were either 
delivered to the contractor's lay down yard or the contractor would 
pick up the requisitioned material from the Corps yards and warehouses.
    Question 3b. What lessons can be drawn from the procurement of 
materials and their distribution in Puerto Rico for future Federal 
disaster response?
    Answer. The Corps will participate in and contribute to discussions 
among the Federal agencies on lessons learned from the disaster 
response following Hurricane Maria, including on the procurement and 
distribution of materials for use in an area like Puerto Rico.
    Following the impacts of Hurricane Maria, PREPA's automated 
inventory control and management system was inoperable. In addition, 
prior to the storm, the utility did not have adequate records of its 
equipment and supplies. Consequently, the Corps working with PREPA had 
to conduct physical inventories of all materials in Puerto Rico in 
order to determine what materials were already on hand and what 
materials were needed to accomplish the task of repairing the 
electrical grid. Moreover, due to the catastrophic nature of the 
damages, individual line assessments of the entire grid system had to 
be performed by PREPA, its contractors, as well as the Corps' 
contractors to determine the actual requirements for each damaged line 
segment for the emergency repair of the entire grid. This laborious 
inventory process took weeks to establish the initial emergency order 
of materials and the following months to finalize subsequent orders to 
accurately and effectively order required materials as individual line 
assessments were completed across Puerto Rico. Additionally, logistical 
challenges to the island presented by the geographical separation from 
the mainland, limited modes of transportation available for shipping in 
much-needed materials. Though now largely overcome with refined needs 
assessments, better visibility of PREPA stocks, expedited material 
production and delivery, and the combination of factors above did make 
the identification, acquisition, and delivery of materials (poles, 
wire, transformers, etc.) a significant limiting factor. To date, the 
Corps has received 30.96 million pieces of materials.
    Due to other natural disasters in Texas, Florida, and California, 
there was limited inventory of utility materials, especially in the 
large quantities required. The Defense Production Act (DPA) was used to 
expedite the manufacture and supply of materials used in the emergency 
repairs of the electrical grid in Puerto Rico. In this case, DPA 
authorities are available to support: Emergency preparedness activities 
conducted pursuant to title VI of the Stafford Act; and protection or 
restoration of critical infrastructure. Manufacturers are fabricating 
supplies as quickly as possible and, as they fabricate the needed 
materials, they are being shipped expeditiously to Puerto Rico. In 
addition, there are a number of unique materials incorporated into 
Puerto Rico's electrical grid system (insulators are unique with 
limited manufacturers, transformers with multiple voltages, unique 
conductor sizes, etc.), further complicating the resourcing and 
acquisition, given the large quantities of the items required to 
restore the system. An additional factor in material assessment and 
acquisition was PREPA's delay in accepting industry recommendations for 
acceptable substitutes; e.g., use of more available 69 kV post 
insulators versus less available 38 kV post insulators and use of 1192 
bunting (industry standard) versus 1192 ``Puerto Rican special'' 
bunting. The Corps and PREPA have also utilized partnerships with 
industry to order supplies from their inventory.
    Question 4. When the capacity and capabilities of Federal and State 
agencies are nearly exhausted by natural disasters, the Department of 
Defense (DOD) is a crucial partner in providing support through the 
Defense Support for Civil Authorities (DSCA) mission. Are there any 
lessons that you learned about how DOD can better assist civil 
authorities when requested?
    Answer. The Secretary of Defense pre-approved the deployment of 
life-saving and life-sustaining support and authorized the transfer of 
forces to the Commander, USNORTHCOM. This allowed DoD capability to be 
provided as swiftly as possible. DoD will continue to maintain an 
extensive network of embedded liaison officers at the Federal and State 
level who enhanced unity of effort ensured visibility of requests for 
assistance and set realistic expectations for mission accomplishment.
    Question From Honorable Nydia M. Velazquez for Donald E. ``Ed'' 
                              Jackson, Jr.
    Question. On October 18, 2017, USACE (Jacksonville District) 
announced a $40 million contract award to PowerSecure Inc. for grid 
restoration work in Puerto Rico (Contract No. W912EP-18-C-0003). On 
November 11, 2017, USACE (South Atlantic Division) announced its intent 
to increase PowerSecure's contract by $48 million, from $40 million to 
$88 million. On Friday, March 23, 2017 at 8:12 p.m., USACE 
(Jacksonville District) announced its intent to award a sole-source 
modification to increase the PowerSecure contract ceiling by $200 
million. The notice goes on to describe the existing contract as having 
a current value of $390 million (excludes the proposed $200 million 
increase). There is no public record of how and when USACE increased 
the PowerSecure contract from $88 million to $390 million.
    Please describe the procurement method USACE applied to increase 
the PowerSecure contract from $88 million to $390 million, and identify 
the statute and/or regulation authorizing this course of action.
    Answer. On December 1, 2017, the Senior Procurement Executive for 
the U.S. Army approved a Justification & Approval (J&A) to increase the 
award amount of the PowerSecure contract from $88 million to $390 
million.
    The nature and extent of the damage to the power grid was not fully 
known at the time of award in October 2017. Later, as the extent of the 
effort that would be needed to restore power became more apparent, FEMA 
directed several changes to the Corps mission assignment over the 
course of the contract performance period. In response, the Contracting 
Officer modified the PowerSecure contract to extend all distribution 
line repair resources through April 7, 2018. The increases in value and 
duration of the PowerSecure contract were made incrementally to allow 
both the Corps and PowerSecure the ability to better plan, track, and 
deploy resources. The Contracting Officer also improved PowerSecure's 
on-site power grid restoration capability by mobilizing additional 
transmission line repair personnel and equipment. Although the J&A 
authorized up to $390 million, the contract itself was only increased 
to $370 million. The remaining amount was held in reserve to settle 
equitable adjustments and/or other differing conditions that may be 
identified during actual performance of the power grid restoration.
    The J&A was approved under the authority cited in Title 10 United 
States Code (U.S.C.) 2304(c)(2) as implemented by FAR 6.302-2, 
``Unusual and Compelling Urgency.''
    The process followed for the approval and subsequent increase in 
the contract value for PowerSecure is based on the authority cited in 
the J&A. Specifically, FAR 5.202(a)(2) states that the notice that 
generally would be required by FAR 5.201 is not required when proposed 
contract action is made under the conditions described in FAR 6.302-2.
      Questions From Chairman Michael T. McCaul for John V. Kelly
    Question 1a. Your office recently notified FEMA that 12 reports 
related to FEMA's disaster response activities under the Obama 
administration were being withdrawn because they ``may have lacked 
sufficient and appropriate evidence to support conclusions in the 
reports.'' How did this happen? And, what actions led to the discovery 
of these substandard reports?
    Answer. The House Committee on Oversight and Government Reform 
raised concerns about a specific DHS OIG audit report, FEMA's Initial 
Response to the 2016 Catastrophic Flooding in Louisiana (OIG-17-80-D). 
The committee's own investigation of the Federal Emergency Management 
Agency's (FEMA) response to the flooding in Louisiana led it to 
question the conclusion in our report that the initial response was 
generally effective. We conducted an internal quality assurance review 
of the audit and concluded that it was not compliant with generally 
accepted Government auditing standards. We removed the report 
permanently from our website and notified FEMA that it should place no 
reliance on the report.
    Because of the issues that we identified with the report, we 
undertook a broader review of all reports of this particular type, 
designed to evaluate whether FEMA's initial response to disasters was 
effective. This broader review revealed that the reports may not have 
adequately answered objectives and, in some cases, may have lacked 
sufficient and appropriate evidence to support conclusions. In an 
abundance of caution, we determined it was best to recall the reports 
and not re-issue them.
    We have already begun to implement corrective actions to address 
known factors contributing to the deficiencies in these reports. We 
continue to evaluate the broader circumstances surrounding these 
reports to better understand what happened and why. We will be pleased 
to report back to the committee when that evaluation is complete.
    Question 1b. What steps are you taking to ensure the accuracy of 
this kind of reporting going forward?
    Answer. We have already taken a number of actions to improve both 
the development of our staff and the quality of our work. As of October 
2017, we reintegrated the Offices of Audits and Emergency Management 
Oversight with the goal of providing staff greater diversity of work to 
enhance the quality of their products. Additionally, we have developed 
a new approach to how we will report on our activities when we deploy 
auditors to disaster areas in the immediate aftermath of disasters, 
known internally as Emergency Management Oversight Teams (EMOT). Rather 
than attempting to report out on EMOT activities using traditional 
audit reports conducted under Government Auditing Standards, we are 
utilizing our authorities under the Inspector General Act to issue 
management alerts to FEMA regarding immediate threats and emerging 
risks we have observed in the field. We will also continue to identify 
potential risk areas to be addressed by future traditional audits. We 
are currently following this approach with our response to Hurricanes 
Harvey, Irma, Maria, and last year's California wildfires. You can find 
alerts that we have issued in response to these disasters on our 
website. As we move forward, we will continue to review and refine our 
products and processes to ensure we are providing accurate and timely 
information.
    Question 1c. Can you assure this committee that these inaccuracies 
are confined to Emergency Management Oversight Team reports? And, are 
you taking action to review additional reports?
    Answer. As an agency, we pride ourselves in the high quality of our 
work and we have a proven track record of issuing hard-hitting, high-
impact reports addressing the most pressing issues facing the 
Department of Homeland Security. Once we identified the issues with the 
initial response EMOT reports, it was our responsibility to verify that 
the inaccuracies are confined to this category of report. We are 
proactively reviewing the audits related to or based on the recalled 
reports so that we can confidently provide assurance to you that the 
scope of the problem is limited. We will report back to you upon the 
conclusion of that review.
    Question 1d. How much time, resources, and money were wasted in 
support of these now invalidated reports?
    Answer. We do not believe time, resources, and money were wasted in 
support of these reports. Rather, having audit staff deployed at each 
location post-disaster served as a deterrent to fraud, waste, abuse, 
and mismanagement. Our presence and fieldwork helped us identify, 
deter, and prevent issues before they became multi-million-dollar 
problems. The fieldwork associated with these reports identified 
additional systematic issues that resulted in further reviews. For 
example, our on-the-ground presence identified problems with FEMA's FQS 
qualification system, instances where FEMA did no properly train 
attorneys resulting in bad procurement advice, lack of safe rooms in 
tornado areas, FEMA failures to spend mitigation money, and problems 
with not having guidance in multiple languages.
    We acknowledge that in the process of reporting our observations, 
we did not always comply with applicable Government auditing standards. 
Nevertheless, the staff hours associated with these reports were 
productive. Staff hours includes activities such as: Teams attending 
daily FEMA command meetings, State applicant briefings, conducting 
interviews with key program FEMA and State officials, visiting disaster 
recovery centers, evaluating whether Joint Field Offices were set up 
appropriately, and receiving and referring potential fraud complaints 
to the proper investigative offices.
    Question 1e. Your internal review noted that answering objectives 
with sufficient and appropriate evidence is required under Government 
Auditing Standards or Quality Standards for Inspection and Evaluation, 
but it has been stated that future Emergency Management Oversight Team 
projects will no longer be conducted under Government Auditing 
Standards. How does the removal of these standards impact the quality, 
importance, and integrity of future IG reports?
    Answer. Moving forward, our goal is to produce reports that are 
supported with the level of evidence required to meet the rigorous 
auditing standards that auditors across the Federal Government follow. 
We believe that our new approach will produce high-impact reports 
adding value to the work we do.
    We believe that deploying auditors as EMOTs are an important tool 
that we can leverage to identify and prevent waste, fraud, and abuse 
early on in FEMA's response. The IG Act provides the OIG with a variety 
of tools that can assist us in effecting positive change. As such, we 
have determined that using Government Auditing Standards is not the 
most effective way to effect positive change immediately after a 
disaster. As we go forward, the EMOTs will be conducted under Quality 
Standards for Inspection and Evaluation and the Inspector General Act, 
Section 2. We will also continue to observe and identify potential risk 
areas that will be addressed by future traditional audits or 
inspections, if necessary.
    Quality Standards for Inspection and Evaluation are very similar to 
Government Auditing Standards, in that sufficient and appropriate 
evidence must be obtained and documented so that a reasonable person 
can come to the same conclusions as we did. Yet, these standards 
provide more flexibility to rely on observations and discussions when 
there is an absence of documentation, as is often the case immediately 
after a disaster.
    The OIG strives to improve its work product to meet the needs of 
the agencies under review. We determined that by offering real-time 
feedback based on observations and analysis of on-going efforts would 
provide more benefit to FEMA, States, and disaster survivors--
identifying issues with FEMA's response before the money is spent and 
they become multi-million dollar problems.
    Question 2a. In your testimony, you noted that you are in the 
process of reviewing agreements between Texas and FEMA related to 
direct housing and the Partial Repair and Essential Power for 
Sheltering (PREPS) program. What is the status of this review?
    Answer. We are in the planning stages of the PREPS review.
    Question 2b. When do you estimate it will be completed?
    Answer. While still in its very early stages, our current estimate 
is that we will complete the review and issue our final report late 
this year or early in 2019. We will update committee staff in the event 
that estimate changes.
    Question 3. After Hurricane Katrina, FEMA instituted controls to 
combat the high level of waste, fraud, and abuse in the Individual and 
Households Program. You noted work you are undertaking to assess fraud 
in that program in your testimony. Have there been improvements in 
FEMA's ability to combat fraud?
    Answer. We currently have an on-going audit regarding FEMA's fraud 
prevention efforts in the Individuals and Households Program (IHP). The 
objective of our review is to assess the effectiveness of FEMA's Fraud 
Prevention and Investigation Branch in identifying and reporting 
potential fraud, waste, and abuse of disaster assistance funds provided 
under the IHP. Additionally, we are conducting a review of FEMA's 
verification of applicant insurance benefits for applicants for 
assistance under the IHP. The objective of our audit is to determine 
whether FEMA's IHP for home repair and reconstruction has the necessary 
controls in place to verify applicants' insurance coverage. Upon 
completion of these reviews, we should be able to assess whether there 
have been improvements in FEMA's ability to combat fraud.
    We previously reviewed FEMA's process for verifying applicant's 
insurance information in a report, FEMA Faces Challenges Verifying 
Applicants' Insurance Policies for the Individuals and Households 
Program (OIG-16-01-D). We noted that because FEMA relies on individuals 
to self-certify and does not have an adequate system in place to verify 
the information, this poses significant risk of fraud, waste, and 
abuse.
    At present, we have nearly 400 FEMA-related investigations open, 
which represents 30 percent of our agency-wide caseload. The vast 
majority of these investigations involve FEMA benefits fraud. We also 
support our FEMA investigations with specialized complaint intake, 
computer forensics, and fraud assessment capabilities.
   Questions From Ranking Member Bennie G. Thompson for John V. Kelly
    Question 1a. On October 3, 2017, FEMA awarded a $156 million 
contract to Tribute Contracting LLC to provide 30 million meals to 
Puerto Rico. FEMA terminated the contract on October 19 after Tribute 
delivered only 50,000 meals. Is your office conducting a review of this 
contract award?
    Answer. Yes, we are currently conducting a review of FEMA's 
terminated Tribute Contracting LLC contract.
    Question 1b. Do you know whether a FEMA contracting officer conduct 
a responsibility determination for Tribute Contracting LLC prior to 
awarding a contract?
    Answer. We are looking at Federal Acquisition Regulation (FAR) and 
other guidance to determine if FEMA followed all relevant laws, 
regulations, and procedures in awarding the terminated contract. One of 
the areas we are looking into will determine whether FEMA followed the 
intent and spirit of FAR part 9.104-4--Subcontractor Responsibility. 
Particularly FAR part 9.104-4(a) states ``generally, prospective prime 
contractors are responsible for determining the responsibility of their 
prospective subcontractors . . . A prospective contractor may be 
required to provide written evidence of a proposed subcontractor's 
responsibility.'' However, FAR 9.104-4(b) further states that ``when it 
is in the Government's interest to do so, the contracting officer may 
directly determine a prospective subcontractor's responsibility (e.g., 
when the prospective contract involves medical supplies, urgent 
requirements, or substantial subcontracting).'' In this case, the same 
standards used to determine a prime contractor's responsibility shall 
be used by the Government to determine subcontractor responsibility.
    Question 1c. What more must FEMA do to prevent this situation in 
the future?
    Answer. We will make recommendations to FEMA once our on-going 
review is complete.
    Question 2a. As part of the law creating the Public Assistance 
Alternative Procedures, your office was required to assess the 
effectiveness of the alternative procedures for permanent work 
projects. However, this report is now overdue. Can you provide an 
estimate of when you will complete this important review?
    Answer. We estimate our final report will be published during May 
2018.
    Question 2b. Has the DHS OIG conducted any audits of past Public 
Assistance projects that revealed concerns about how the Alternative 
Procedures function?
    Answer. In October 2015, we reported that FEMA's program guide for 
the Alternative Procedures pilot program and letters of undertaking 
provided acceptable guidance in most areas to ensure compliance with 
Federal rules and regulations.\1\ However, our review of seven large-
dollar-value projects valued at $3.0 billion identified weaknesses in 
five areas of guidance:
---------------------------------------------------------------------------
    \1\ Clearer Guidance Would Improve FEMA's Oversight of the Public 
Assistance Alternative Procedures Pilot Program (OIG-16-03-D).
---------------------------------------------------------------------------
    1. estimating project costs;
    2. responding to Office of Inspector General (OIG) audits;
    3. managing cash responsibly;
    4. applying insurance proceeds; and
    5. obtaining insurance for future losses.
    These weaknesses put Federal funds at greater risk of fraud, waste, 
and abuse. Correcting these weaknesses will better ensure that 
participants in the pilot program will follow Federal requirements when 
spending Federal funds. FEMA concurred with the three recommendations 
in the report and implemented the recommended changes.
    Question 2c. Do you have any concerns about the required wide-
spread use of Alternative Procedures in Puerto Rico?
    Answer. We have not conducted any audit work related to Alternative 
Procedures in Puerto Rico; having not evaluated the specific issue in 
Puerto Rico, it would be premature for us to express concerns. We do 
plan to begin an audit shortly and look forward to sharing our results 
with you when the audit is complete.
    Question 3. What would you say are FEMA's top challenges in 
addressing the aftermath of storm season 2017?
    Answer. The top challenges FEMA's is facing in addressing the 
aftermath of the storm season 2017 are the following:
  <bullet> improper procurement practices;
  <bullet> duplication of benefits;
  <bullet> mismanagement of disaster costs;
  <bullet> privacy vulnerabilities;
  <bullet> limitations in the ability to quickly protect survivors' 
        homes and property from further damage;
  <bullet> obstacles with accurate and timely home inspections;
  <bullet> incomplete controls when providing Federal funds to high-
        risk entities; and
  <bullet> inconsistent contract oversight.
    Unmitigated, these challenges could delay survivors' recovery and 
put billions of dollars of Federal funds at risk. Thus, we have 
identified numerous observations and concerns and issued several 
lessons learned reports concerning FEMA's disaster preparedness, 
response, and recovery efforts. This work highlights on-going concerns 
FEMA must address to ensure it effectively meets its mission and 
improves the efficiency and effectiveness of its programs and 
operations.
        Questions From Chairman Michael T. McCaul for Reed Clay
    Question 1. In your testimony, you made clear that one of the most 
valuable lesson learned from Hurricane Harvey is that we must rebuild 
stronger--to ``future proof'' or mitigate against future damage from 
storms. Can you explain the importance of mitigation projects to the 
future of Texas and the entire country?
    Answer. Of the many lessons learned following the devastation of 
Hurricane Harvey, the most significant tropical cyclone rainfall event 
in United States history both in scope and total rainfall, two lessons 
are perhaps the most valuable in preparing for future natural 
disasters.
    The first lesson learned is a reaffirmation of the bonds of our 
humanity. The worst of storms brought out the best in humanity; Texans 
helped Texans, Americans helped Americans, and lives were saved.
    The second lesson learned is perhaps more critical as the beginning 
of hurricane season again nears, with storms typically occurring 
between June 1 and November 30. While we cannot control Mother Nature, 
nor predict with certainty the path or extent of potential destruction, 
there are critical actions we can take--and should take--to prepare for 
natural disasters, to mitigate the threat to human life, our first 
priority, and to minimize the risk of damage to infrastructure, 
property, and the economic health of this State and our Nation.
    Under Governor Abbott's direction, the State of Texas is focused on 
``future-proofing'' as we rebuild in our communities impacted by 
Hurricane Harvey along the Texas Gulf Coast and in Houston and beyond. 
The State of Texas is already deploying Hazard Mitigation Grant funds--
made available under the Stafford Act--throughout the affected region, 
prioritizing the investments in five primary areas:
  <bullet> Buyouts and elevations of flood-prone properties
  <bullet> Drainage and reservoir projects that eliminate future 
        flooding
  <bullet> Projects to lessen the frequency or severity of flooding
  <bullet> Flood-risk reduction projects (dams, retention basins, 
        levees, and floodwalls)
  <bullet> Large-scale channeling of waterways.
    The Gulf Coast region of Texas represents a vital cog in the 
National economy, with our substantial petrochemical complex, 
international ports, and the world's largest medical center, as well as 
one of the Nation's most populous and economically vital cities.
    Many of the projects needed to truly future proof the region will 
require significant Federal assistance. Much of the damage from the 
devastating storm and subsequent historic rainfall could have been 
prevented or mitigated by Federal projects that have been considered 
for years, such as a third reservoir in the Houston area or deepening 
waterways authorized for improvement. And other projects being 
considered--like deepening our ports and the coastal spine--may prove 
visionary, as they protect assets that are indispensable to our 
Nation's economy and National defense during the next storm.
    Question 2. FEMA Administrator Long presented the committee with a 
strategic plan to enable FEMA to better prepare and respond to future 
disasters. Administrator Long constantly stresses that ``success is 
best delivered through a system that is Federally-supported, State-
managed, and locally-executed.'' How do you think FEMA's strategic plan 
and disaster recovery system will enable Texas to better respond to 
future disasters?
    Answer. Texas' response to Hurricane Harvey was remarkable and 
demonstrates the point made by Administrator Long. Though the disaster 
was unprecedented in recent history, so too was the aggressive advance 
action and close coordination of local, State, and Federal emergency 
management resources and personnel in the 53 Texas counties in the 
Presidential Disaster Declaration and 60 Texas counties in the State 
Disaster Declaration.
    Disasters occur locally. Citizens themselves are the first line of 
defense, and the can-do attitude displayed during the worst of the 
storm and the subsequent flooding was remarkable. Reinforcing a culture 
of disaster preparedness is critical to ensure even more lives are 
saved in future storms. As we saw in each community, from our smallest 
coastal communities to our largest city, it was because of the courage 
and calm leadership of local emergency managers, elected officials, law 
enforcement, and first responders that so many more lives were spared. 
All resources of the State of Texas were also leveraged as State 
agencies stepped in when asked to fill the gaps and provide needed 
personnel, equipment, and expertise.
    But responding to a major disaster such as Hurricane Harvey is not 
possible without Federal support. From the State of Texas' perspective, 
the administrator's strategic plan provides a vision that would enable 
Texas to respond even more effectively in the future.
    First, invest today to mitigate damage from the storms to come 
tomorrow. That is the direction set by Governor Abbott, driving the 
prioritization of hazard mitigation projects across the Texas Gulf 
Coast and the rest of the impacted region. We must ``future-proof'' as 
we rebuild to preserve lives, infrastructure, and property--and to 
safeguard the economic health of the State and our Nation.
    Second, remove bureaucracy. In the housing recovery initiative in 
particular, State and local governments already have the legal 
infrastructure in place to administer short- and long-term housing 
recovery; an additional layer of Federal requirements only serves to 
slow the process down. FEMA and the Federal Government should consider 
relaxing the regulations contained in 2 CFR for the exigent period 
immediately following a major disaster (e.g., 30 days), and when the 
Federal Government asks the State to assume responsibility and complete 
the housing mission, the State must be freed from FEMA regulations and 
permitted to execute the program itself. Such a system permits the 
flexibility of a locally-run program that meets the unique needs of 
each community. A cookie-cutter approach just doesn't work: What works 
in New York may not work in Texas. This streamlining also removes a 
layer of bureaucracy to speed up the recovery and meet our ultimate 
goal of getting people back in their homes more quickly.
    Third, incentivize local governments to create a culture of 
preparedness by ensuring there is adequate personnel who are trained 
and who understand disaster recovery and FEMA's processes. This will 
facilitate the integration of existing personnel into the disaster 
recovery framework. But local entities must be incentivized through 
grants and other opportunities to create and maintain that 
infrastructure.
    It is the balance of a locally-executed, State-managed, and 
Federally-funded disaster and recovery framework that will help improve 
the delivery of service to our citizens when they need our assistance 
the most.

                                 [all]
</pre></body></html>
